<html>
<title> - SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 110-87]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-87
 
            SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2007

=======================================================================

                                HEARING

                               before the

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                   FEBRUARY 27, 2007--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-351                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________

                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                  Terrence E. Sauvain, Staff Director
                  Bruce Evans, Minority Staff Director

                            C O N T E N T S

                              ----------                              

                       Tuesday, February 27, 2007

                                                                   Page

Opening Statement of Chairman Robert C. Byrd.....................     1
Statement of Senator Thad Cochran................................     3
Statement of Hon. Robert M. Gates, Secretary of Defense, 
  Department of Defense..........................................     3
General Peter Pace, United States Marine Corps, Chairman, Joint 
  Chiefs of Staff, Department of Defense.........................     3
Prepared Statement of Hon. Robert M. Gates.......................     5
Fiscal Year 2007 Supplemental Request............................     5
Statement of Hon. Condoleezza Rice, Secretary of State, 
  Department of 
  State..........................................................     7
Fiscal Year 2007 Iraq Supplemental Request.......................     7
Iraq Provincial Reconstruction Teams (PRTs)......................     7
Iraq Neighbors' Meeting..........................................     8
Prepared Statement of Hon. Condoleezza Rice......................     9
Iraq.............................................................    10
Afghanistan......................................................    11
Lebanon..........................................................    11
Kosovo...........................................................    11
Sudan............................................................    12
Avian Flu........................................................    12
Migration and Refugee Assistance.................................    12
Public Diplomacy.................................................    12
Education and Cultural Exchange Programs.........................    12
Broadcasting Board of Governors..................................    13
Food Assistance..................................................    13
Weapons/Insurgency...............................................    14
Changes in the Iraq War..........................................    15
Threat to the United States......................................    16
Air Strikes......................................................    16
New Embassy Compound in Baghdad..................................    17
Funds............................................................    17
Dealing With Improvised Explosive Devices........................    18
Iraq Relief and Reconstruction Fund (IRRF).......................    19
Iraqi Security Forces............................................    21
Support of USG From Iraqi People.................................    21
Iraqi Neighbors Meeting..........................................    23
Bilateral Relations With Iran....................................    23
Military Action Against Iran.....................................    24
How Long Will Success in Iraq Take?..............................    25
Fixing Walter Reed...............................................    26
Security.........................................................    27
Iraq Sectarian Violence Militias.................................    29
Iraqi Refugee Admissions.........................................    30
Iraq National Reconciliation.....................................    30
Al-Qaeda.........................................................    30
Armored Vehicles.................................................    31
Government Accountability Office Presence in Iraq................    32
Baker-Hamilton Report............................................    33
Iraq Study Group Recommendations.................................    34
Timeline for Improving Care of Wounded Troops....................    36
Military Construction............................................    38
Multilateral Discussions With Iran...............................    39
Treating the Wounded and Brain Injuries..........................    40
Veterans Benefits................................................    43
Amendments on Troop Deployments..................................    44
Al-Qaeda, Greatest Threat to Homeland............................    46
Management of Iraq Reconstruction Funding........................    47
Iraq Sectarian Violence..........................................    47
Failing our Wounded..............................................    48
Eliminating Al-Qaeda Leadership..................................    49
Attack Into Pakistan.............................................    49
Iraq Reconstruction Coordinator..................................    50
Iraqi Commitments................................................    51
Iraq Provincial Reconstruction Teams.............................    51
Iraq PRT Staffing................................................    52
Retirees/Volunteers..............................................    53
Turkey-Iraq Security Discussions.................................    53
Iraqi Battlefield Success........................................    54
Alternative Strategies...........................................    55
Baker-Hamilton Report Recommendations............................    56
Encouraging Signs in Iraq........................................    57
Pakistan's Federally Administered Tribal Area....................    57
Bonuses for Deployed Troops......................................    58
Iraq Reconstruction Funding......................................    59
State-DOD Cooperation on Provincial Reconstruction Teams.........    59
Active Service...................................................    60
Guantanamo Facilities............................................    60
How the War in Iraq Will End.....................................    62
Additional Committee Questions...................................    63
Questions Submitted to Hon. Robert M. Gates......................    63
Questions Submitted by Chairman Robert C. Byrd...................    63
Justification of the Fiscal Year 2007 Supplemental Budget Request    63
Monthly Cost of the War in Iraq..................................    63
Expansion of Authorities and Funding.............................    63
Global Lift......................................................    64
Impact of Supplementals on the Base Budget.......................    65
Force Protection.................................................    65
Commander's Emergency Response Program...........................    67
National Guard Equipment.........................................    67
National Guard Deployments.......................................    67
Riverine Force...................................................    68
Armed Reconnaissance Helicopters.................................    69
Recruiting and Retention.........................................    69
Question Submitted by Senator Dianne Feinstein...................    70
Guantanamo.......................................................    70
Questions Submitted by Senator Frank R. Lautenberg...............    70
Iraq and Afghanistan.............................................    70
Question Submitted by Senator Ben Nelson.........................    72
Question Submitted by Representative Ken Calvert.................    72
Guantanamo Power Supply..........................................    72


            SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2007

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:55 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Inouye, Leahy, Harkin, Mikulski, 
Kohl, Murray, Dorgan, Feinstein, Landrieu, Reed, Lautenberg, 
Nelson, Cochran, Stevens, Specter, Domenici, Shelby, Gregg, 
Bennett, Craig, Hutchison, Brownback, Allard, and Alexander.


              OPENING STATEMENT OF CHAIRMAN ROBERT C. BYRD


    Chairman Byrd. The committee will come to order.
    Senator Cochran, members of the committee, welcome. Thank 
you for your interest in this critical topic for our time.
    Secretary Gates, Secretary Rice, General Pace, the 
committee appreciates your appearance before this committee, as 
we address the President's fiscal year 2007 supplemental 
request.
    On February 5, the President submitted to Congress, a $103 
billion emergency supplemental request, related to the global 
war on terror (GWOT). And for additional assistance for the 
victims of Hurricane Katrina.
    I look forward to working with the Senator from 
Mississippi, and all of the Senators, on meeting the needs of 
the victims of Hurricane Katrina.
    Our hearing today focuses on the administration's $99.6 
billion supplemental request for the global war on terror. 
Predominantly for ongoing operations in Iraq and Afghanistan, 
through the remainder of fiscal year 2007. The administration's 
$99.6 billion request is in addition to the $70 billion 
appropriated by Congress in September 2006 for the global war 
on terror.
    This supplemental request also begins the process of 
expanding the size of the United States Armed Forces by 
accelerating two Army brigade combat teams, and establishing 
one new Marine Corps regimental combat team.
    Funds are included for reconstituting depleted equipment 
for existing forces, for training and equipping Iraqi and 
Afghani military and police units. In addition to the $99.6 
billion covered by this request, Congress has already 
appropriated $507 billion for the wars in Iraq and Afghanistan, 
including $376 billion for the war in Iraq.
    In fiscal year 2007 alone, the Department of Defense (DOD) 
is spending some $10 billion per month in Iraq and Afghanistan. 
Over the last 7 fiscal years, including funding combat 
operations in Afghanistan and Iraq, the Congress has provided a 
total of $3.2 trillion. How does that sound to the Senator from 
Tennessee?
    That's trillion dollars--trillion, with a ``T''--or three 
followed by 12 zeroes provided to the Department of Defense. 
The current large increase in defense spending requiring 
difficult tradeoffs in other areas of the national budget, are 
the consequences of an ever-increasing debt. Every dime--every 
dime for the war in Iraq has been borrowed.
    In this committee we have a serious obligation to ensure 
that the taxpayers' money is well spent.
    The President suggests from time to time that we may have 
to fund and fight this war in Iraq, far into the future. 
Congress cannot, however, continue to fund failing policies, 
and failing strategies. We need to identify strategies with 
potential for success, and turn the future of Iraq over to 
Iraqis.
    But, under the President's plan there is no end in sight--
no plan for redeployment, no plan for diplomacy, no plan for 
engaging our international partners in efforts to improve 
security in the region. All the President has requested is more 
money--more money for military force, and more money for 
obviously ineffective reconstruction efforts.
    The Congress has provided billions and billions of dollars 
above the administration's request for additional body and 
vehicle armor to keep our troops safe. And billions more for 
the development and deployment to the field of equipment to 
counter improvised explosive devices. Yet, after all of the 
billions of dollars and those thousands of precious lives that 
have been spent in Iraq and Afghanistan since 2001, we do not 
seem to be close--not even close--to achieving the goal of 
establishing a stable, effective government in either nation, 
which can provide for security, provide for the needs of its 
populace, or prevent the use of its territory by terrorists and 
other armed insurgent groups.
    Even at home, there are concerns about the care being 
provided to our wounded and their families, and I expect that 
this committee will have questions for you about that, 
Secretary Gates. This Nation supports our troops in the field. 
We, in this Congress, have pushed for the best equipment for 
our troops in the field, and for our troops at home.
    We have the right to expect that our wounded will receive a 
higher standard of care and consideration as they navigate the 
hostile bureaucracies of medical treatment. As this committee 
considers this supplemental appropriations request, and as we 
review the fiscal year 2008 budget, we have a number of 
questions regarding the short- and the long-term outlook for 
the operations in Afghanistan and Iraq and for the United 
States position in the region as a whole.
    A majority of the American people have expressed their 
dissatisfaction with the way that things are going. We need to 
know that the funds that you are requesting will do more than 
merely continue the status quo. We need to know that you are 
working hard toward an acceptable resolution to the conflicts 
in Iraq and Afghanistan.
    The Congress has consistently supported our men and our 
women in uniform. Congress will continue to support our troops 
and their families. Nevertheless, with regard to the failed 
policies of this administration, this Congress is not blind. 
The Congress has a vital constitutional role to play in the 
development and the execution of U.S. defense policy. Congress 
is not a rubber stamp, or a Presidential lap dog--obedient and 
unquestioning.
    Oversight, oversight, oversight is among our most important 
responsibilities. And oversight, oversight, oversight have been 
lacking for far too long.
    Senator Cochran, do you have a statement?


                   STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. Mr. Chairman, thank you very much. I'm 
pleased to join you in welcoming this distinguished panel to 
our committee, to discuss the President's request for emergency 
supplemental appropriations for Iraq and Afghanistan. We 
appreciate their leadership, their distinguished service to our 
country, in this very challenging and difficult time.
    We also appreciate the inclusion, in this request, of the 
funds that are required to continue the recovery from the 
devastation of Hurricane Katrina. This supplemental funding 
request deserves our very careful consideration, as we 
understand the needs and the challenges that we face in 
bringing the action in Iraq to a successful conclusion. And, we 
look forward to the day when we can celebrate that.
    Until then, I think we need to carefully consider the new 
strategic plan that's been laid out by our military leaders--
not just the President--but our military leaders, on their 
recommendation for bringing this action to a successful 
conclusion at the earliest possible date, and that's the 
purpose of this funding request, in large part. To accommodate 
to the new strategic plan for a successful conclusion--that's 
our goal.
    So, this supplemental funding request deserves our very 
careful consideration, and we look forward to the time when our 
troops will be coming home.
    I know I join you, Mr. Chairman, looking forward to hearing 
our distinguished panel discuss this request. We appreciate 
their service to our country.
    Chairman Byrd. And thank you, Senator.
    Secretary Gates, would you proceed, please?

STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF 
            DEFENSE, DEPARTMENT OF DEFENSE
ACCOMPANIED BY GENERAL PETER PACE, UNITED STATES MARINE CORPS, 
            CHAIRMAN, JOINT CHIEFS OF STAFF, DEPARTMENT OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Cochran, members of the committee, I 
appreciate the opportunity to join Secretary Rice, and General 
Pace in discussing the President's supplemental appropriations 
request to fund the cost of operations in Iraq, Afghanistan, 
and the wider global war on terror.
    I would like to, especially, thank you, Mr. Chairman for 
scheduling this hearing so quickly, given the urgency of taking 
up, and enacting, this request.
    It is a special privilege to testify for the first time 
alongside the Secretary of State. From the start, I would like 
to express my strong support for the programs funded in the 
State Department's request, and recognize the important role 
our diplomats and other civilians play in our efforts in Iraq, 
Afghanistan, and all over the world.
    The kind of challenges our country faces in Iraq and 
Afghanistan cannot be overcome without the important non-
military efforts Secretary Rice will outline.
    The 2007 supplemental request of $93.4 billion for the 
Department of Defense is in addition to the $70 billion that 
has already been appropriated for war-related costs in this 
fiscal year. If these additional funds are delayed, the 
military will be forced to engage in costly and 
counterproductive reprogramming actions starting this spring to 
make up the shortfall. Timely enactment of this supplemental 
request is critical to ensuring our troops in the field have 
the resources they need.
    This request provides for the incremental pay, supplies, 
transportation, maintenance, and logistical support to conduct 
military operations in Iraq and Afghanistan. It provides for 
the reconstitution of our Nation's armed forces, with a special 
focus on the Army and the Marine Corps, by repairing or 
replacing equipment that has been destroyed, damaged, or 
stressed in the current conflict.
    It provides for investments in new technologies to better 
protect our troops from an agile, and adaptive enemy--including 
a new generation of body armor, vehicles that can better 
withstand explosions from improvised explosive devices (IED), 
and electronic devices that interrupt the enemy's ability to 
attack U.S. forces. And, it provides for the training and 
equipping of Iraqi and Afghan security forces, with a 
significant increase in our commitment to building the size and 
capabilities of the Afghan army and police.
    I would note that while our country is properly focused on 
the serious situation in Iraq, it is critical that the gains 
made in Afghanistan these past few years not be allowed to slip 
away. This was at the top of the agenda at my NATO Ministerial 
earlier this month in Seville.
    In closing, I believe it is important to consider the 
defense budget request submitted to the Congress this year in 
some historical context, as there has been--understandably--
sticker shock at their combined price tags, more than $700 
billion total. Please consider, that at about 4 percent of 
America's gross domestic product, the amount of money the 
United States is projected to spend on defense this year, is 
actually a smaller percentage of gross domestic product (GDP) 
than when I left Government 14 years ago, following the end of 
the cold war, and a significantly smaller percentage than 
during previous times of war, such as Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller 
relative share of our national wealth, the world has gotten 
more complicated, and arguably, more dangerous. In addition to 
fighting the global war on terror, we also face the danger 
posed by Iran's and North Korea's nuclear ambitions, and the 
threat they pose--not only to their neighbors--but globally, 
because of their record of proliferation.
    The uncertain paths of China and Russia--which are both 
pursuing sophisticated military modernization programs--and a 
range of other flash-points, challenges, and threats. In this 
strategic environment, the resources we devote to defense at 
this critical time, should be at the level to adequately meet 
those challenges.


                           PREPARED STATEMENT


    Thank you, Mr. Chairman, for the support this committee has 
provided to the men and women of our armed forces over many 
years. I look forward to your questions. Thank you, sir.
    [The statement follows:]

               Prepared Statement of Hon. Robert M. Gates

    Mr. Chairman, Senator Cochran, members of the committee: I 
appreciate the opportunity to join Secretary Rice in discussing the 
President's supplemental appropriation request to fund the costs of 
operations in Iraq, Afghanistan and the wider global war on terror.
    From the start, I would like to express my strong support for the 
programs funded in the State Department's request. The kinds of 
challenges our country faces in Iraq and Afghanistan cannot be overcome 
without the important non-military efforts outlined by Secretary Rice.
    The 2007 supplemental request of $93.4 billion for the Department 
of Defense is in addition to the $70 billion that has already been 
appropriated for war-related costs in this fiscal year. If these 
additional funds are delayed, the military will be forced to engage in 
costly and counterproductive reprogramming actions starting this spring 
to make up the shortfall. Timely enactment of this supplemental request 
is critical to ensuring our troops in the field have the resources they 
need.
    While our country is properly focused on the serious situation in 
Iraq, it is critical that the gains made in Afghanistan these past few 
years not be allowed to slip away. This was at the top of my agenda at 
the NATO ministerial earlier this month in Seville.
    I believe that it is important to consider the defense budget 
requests--both for the base budget and the war-related requests--
submitted to the Congress this year in some historical context, as 
there has been, understandably, sticker shock at their combined price 
tags--more than $700 billion total.
    Please consider that, at about 4 percent of America's Gross 
Domestic Product, the amount of money the United States is projected to 
spend on defense this year is actually a smaller percentage of GDP than 
when I left government 14 years ago following the end of the Cold War--
and a significantly smaller percentage than during previous times of 
war, such as Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller relative share 
of our national wealth, the world has gotten more complicated, and 
arguably more dangerous. In addition to fighting the global war on 
terror, we also face:
  --The danger posed by Iran's and North Korea's nuclear ambitions, and 
        the threat they pose not only to their neighbors, but globally, 
        because of their record of proliferation;
  --The uncertain paths of China and Russia, which are both pursuing 
        sophisticated military modernization programs; and
  --A range of other potential flashpoints, challenges and threats.
    In this strategic environment, the resources we devote to defense 
at this critical time should be at the level to adequately meet those 
challenges.

                 FISCAL YEAR 2007 SUPPLEMENTAL REQUEST

    The fiscal year 2007 supplemental request includes $39.3 billion to 
provide the incremental pay, supplies, transportation, maintenance and 
logistical support to conduct military operations. The additional U.S. 
ground and naval forces being sent to the Iraq theater are projected to 
cost $5.6 billion. This total includes funding for personnel costs, 
supplies, spare parts, contractor support, and transportation. The 
fiscal year 2008 GWOT request complies with Congress's direction to 
include the costs of the conflicts in Iraq and Afghanistan in the 
annual Defense Department budget.
Reconstitution
    The request includes $13.9 billion to reconstitute our Nation's 
Armed Forces--in particular, to refit the ground forces, the Army and 
Marine Corps, who have borne the brunt of combat in both human and 
material terms. These funds will go to repair or replace equipment that 
has been destroyed, damaged, or stressed in the current conflict.
    All Army units deployed, or about to deploy, for missions overseas 
are fully trained and equipped, often with additional gear for their 
particular mission. In an expeditionary, rotational force one can 
expect that units returning from their deployment will decline to a 
lower readiness level as personnel turn over and equipment is repaired 
or replaced.
Force Protection
    This supplemental includes $10.4 billion for investments in new 
technologies to better protect our troops from an agile and adaptive 
enemy. Programs being funded would include a new generation of body 
armor, vehicles that can better withstand explosions from Improvised 
Explosive Devices (IEDs), and electronic devices that interrupt the 
enemy's ability to attack U.S. forces. Within this force protection 
category, the fiscal year 2007 supplemental includes $2.4 billion to 
counter and defeat the threat posed by IEDs.
Afghan/Iraqi Security Forces
    The request includes $9.7 billion to stand up capable military and 
police forces in Afghanistan and Iraq.
    The bulk of these funds are going to train and equip Afghan 
National Security Forces (ANSF) to assume the lead in operations 
throughout Afghanistan. Some 88,000 have been trained and equipped, an 
increase of 31,000 from the previous year.
    The $5.9 billion for the ANSF in the fiscal year 2007 supplemental 
is a substantial increase over previous years' appropriations. It 
reflects the urgent priority of countering increased activity by the 
Taliban, Al Qaeda, and narcotics traffickers to destabilize and 
undermine the new democracy in Afghanistan. These funds will 
significantly upgrade the capability of Afghan forces to conduct 
independent counter-insurgency operations.
    In Iraq, more than 300,000 soldiers and police have been trained 
and equipped, and are in charge of more than 60 percent of Iraqi 
territory and more than 65 percent of that country's population. They 
have assumed full security responsibility for 3 out of Iraq's 18 
provinces and are scheduled to take over more territory over the course 
of the year. These Iraqi troops, though far from perfect, have shown 
that they can perform with distinction when properly led and supported. 
Iraqi forces will be in the lead during operations to secure Baghdad's 
violent neighborhoods. By significantly increasing and improving the 
embedding program, Iraqi forces will operate with more and better 
Coalition support than they had in the past.
Non-Military Assistance
    Success in the kinds of conflicts our military finds itself in 
today--in Iraq, or elsewhere--cannot be achieved by military means 
alone. The President's strategy for Iraq hinges on key programs and 
additional resources to improve local governance, delivery of public 
services, and quality of life--to get angry young men off the street 
and into jobs where they will be less susceptible to the appeals of 
insurgents or militia groups.
    Commander's Emergency Response Program, or (CERP) funds are a 
relatively small piece of the war-related budgets--$456 million in the 
fiscal year 2007 supplemental. But because they can be dispensed 
quickly and applied directly to local needs, they have had a tremendous 
impact--far beyond the dollar value--on the ability of our troops to 
succeed in Iraq and Afghanistan. By building trust and confidence in 
Coalition forces, these CERP projects increase the flow of intelligence 
to commanders in the field and help turn local Iraqis and Afghans 
against insurgents and terrorists.

                               CONCLUSION

    With the assistance and the counsel of Congress, I believe we have 
the opportunity to do right by our troops and the sacrifices that they 
and their families have made these past few years. That means we must 
make the difficult choices and commit the necessary resources not only 
to prevail in the current conflicts in which they are engaged, but to 
be prepared to take on the threats that they, their children, and our 
Nation may face in the future.

    Chairman Byrd. Secretary Rice.

STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE, 
            DEPARTMENT OF STATE
    Secretary Rice. Thank you very much, Mr. Chairman.
    Thank you, Senator Cochran, thank you members of the 
committee. I am honored to testify alongside Secretary Gates 
for the first time.
    Mr. Chairman, I have a longer written statement that I 
would like to be entered into the record about the full 
supplemental request, the critical funding that will be 
provided by the supplemental for reconstruction and development 
in Afghanistan, for ongoing State Department operations in 
Afghanistan and Iraq, for emergencies in Sudan, for 
reconstruction in Lebanon, and so forth. But, I will restrict 
my comments to a few, concerning--particularly--Iraq.
    Chairman Byrd. You may proceed as you like.

               FISCAL YEAR 2007 IRAQ SUPPLEMENTAL REQUEST

    Secretary Rice. Thank you, sir.
    Across the board, in Iraq, Iraqis are now in the lead, and 
we are supporting them. To support the new strategy in Iraq 
that President Bush announced in January, the administration is 
requesting $3.2 billion in supplemental funding for Iraq this 
year.
    These resources will enable the State Department to support 
the Iraqi government, and to support our counter-insurgency 
strategy alongside our military, in order to bring a new 
civilian surge on multiple fronts.
    We are supporting the Iraqis in an economic offensive--
Iraq's Council of Representatives recently passed a budget for 
2007, including a plan to devote $10 billion of its own money 
for reconstruction and development. This is an encouraging 
step, but they need our technical assistance in matters like 
budget execution and ministry capacity, and this supplemental 
will help with those matters.
    We are also supporting the Iraqis in their political 
offensive. Yesterday, Iraq's Council of Ministers approved a 
hydrocarbon framework law. They will now transmit it--along 
with accompanying legislation--to the Council of 
Representatives. This is an important step, and we hope that it 
builds momentum for the Iraqi government to make further 
progress, particularly on de-Ba'athification, on increased 
support for displaced Iraqis--both Shia and Sunni--who wish to 
return to their homes.
    When I met with Prime Minister Maliki last week in Baghdad, 
I urged him to waste no time in finding resolution to critical 
issues of national reconciliation.

              IRAQ PROVINCIAL RECONSTRUCTION TEAMS (PRTS)

    At the same time, we recognize that Iraq has a federal 
government, and that its provinces have significant 
responsibility. And so this supplemental funding provides the 
funding to allow us to double the number of provincial 
reconstruction teams (PRT) in Iraq, focusing on Baghdad--but 
also beyond--in key provinces like Anbar. We are doubling the 
number of personnel within our existing PRTs, and our expanded 
PRT strategy will enable us to decentralize and diversify our 
civilian presence in Iraq, thereby increasing our chances of 
success.
    Again, I would emphasize here, that we are transitioning 
our role. This is to help Iraqis build their own democratic 
institutions, and lead their own economic development at the 
provincial and local levels.
    Let me say one other thing about the PRTs. Our previous 
strategy called for 10 teams in Iraq. We have met that goal. 
Those provincial reconstruction teams are fully staffed, fully 
deployed, and fully operational. Under the new strategy, we 
will now move from 10 to 20 PRTs. We have already identified 
all of the Foreign Service officers who will lead these new 
teams, and we expect them to arrive in Iraq before the end of 
March.
    To staff the PRTs, the President has asked the State 
Department to recruit additional civilian specialists from 
other Federal agencies, and from the Nation at large. These are 
people like agronomists, veterinarians, city planners, and 
others. No diplomatic service in the world has these 
specialties, and we have, therefore, asked the Department of 
Defense to fill the first rotation of about 100 specialist 
positions. Our supplemental request will then enable us to hire 
about 300 new civilians for this mission. It will allow us to 
reimburse other Government agencies when we recruit their 
personnel, and to send them out quickly to join the diplomats 
who are already in the field doing the political work that is 
so important.
    So, we are advancing politically, economically, and, of 
course militarily.
    I would like to take one moment to talk about our 
diplomatic offenses, the fourth leg of our strategy, to build 
greater support both within the region and beyond, for peace 
and prosperity in Iraq.
    We are recommitting ourselves to the security and stability 
of the gulf region. We have rallied our traditional partners, 
responsible governments--like those of the gulf states--plus 
Egypt and Jordan. Or, as it is called, the GCC plus two, and we 
are working with those governments to support embattled 
democratic leaders, like Prime Minister Siniora, in Lebanon, 
President Abbas in the Palestinian territories, and Prime 
Minister Maliki in Iraq.
    We are also continuing to rally international support for 
Iraq's political and economic success in the form of the 
international compact for Iraq. In March, dozens of countries 
will gather at the United Nations to finalize agreements on the 
compact. This compact outlines international responsibilities 
to Iraq, as Iraq meets its responsibilities to its own people.

                        IRAQ NEIGHBORS' MEETING

    There is one additional component to this diplomatic 
offensive that I would like to highlight today. It is a new 
component. Prime Minister Maliki believes--and President Bush 
and I agree--that success in Iraq requires the positive support 
of Iraq's neighbors. This is one of the key findings, of 
course, of the Iraq Study Group and it is an important 
dimension that many in the Senate and in the Congress have 
brought to our attention, and I have had very fruitful 
discussions about how to do this.
    So, I am pleased to inform you that the Iraqis are 
launching a new diplomatic initiative, which we are going to 
fully support: the government of Iraq is preparing for an 
expanded neighbors' meeting, first at the sub-ministerial level 
that will take place in Baghdad in the first half of March. 
Invitees would include Iraq's immediate neighbors, as well as 
representatives from other regional states, multi-lateral 
organizations, and the permanent members of the United Nations 
Security Council--including, of course--the United States.
    This initial meeting will be followed, perhaps as early as 
the first half of April, by a ministerial-level meeting with 
the same invitees--that is, regional states, neighbors, 
international organizations, and the permanent five of the 
United Nations--as well as, perhaps, the members of the G-8. I 
would note that the Iraqi government has invited all of its 
neighbors--including Syria and Iran--to attend both of these 
regional meetings. We hope that all governments will seize this 
opportunity to improve their relations with Iraq, and to work 
for peace and stability in the region.
    I am pleased that the government of Iraq is launching this 
new diplomatic initiative, and that we will be able to support 
and participate in it. The violence occurring within the 
country has a decided impact on Iraq's neighbors, and Iraq's 
neighbors--as well as the international community--have a clear 
role to play in supporting the Iraqi government's efforts to 
promote peace and national reconciliation within the country.
    So far from just a military campaign, our efforts in Iraq 
are moving forward on all fronts at the same time: security, 
political, economic, and diplomatic. America's diplomatic 
corps, of course, is not an expeditionary force. But, our men 
and women are playing their roles superbly in places like Iraq 
and Afghanistan. They are enduring long and difficult 
deployments, far away from their families. Many are even 
working on the front lines in dangerous places like Anbar and 
Baghdad, working shoulder to shoulder with our soldiers and 
marines. Every day, our civilians are taking mortar fire, 
risking attacks, just to do their jobs, and then they get up 
the next day, go back out and do it all again.
    The men and women of the Department of State are patriots, 
and they make us all extremely proud. I ask you to provide them 
with the resources that they so urgently need to be successful 
in the vital mission that they perform. A mission that, 
together with our men and women in uniform, will help us to win 
the war on terror, and to make us safer.
    Thank you very much.
    [The statement follows:]

              Prepared Statement of Hon. Condoleezza Rice

    Chairman Byrd, Senator Cochran, members of the committee: It is a 
pleasure to appear before you today in support of the President's 
fiscal year 2007 supplemental appropriations request for International 
Affairs. I appear today at a time when the Congress has just completed 
work on the fiscal year 2007 continuing resolution. I appreciate the 
work which this committee, and the entire Congress, has done to ensure 
adequate funding for the global HIV/AIDS program; for resources to 
combat malaria; for the U.S. contributions to international 
peacekeeping activities; for the foreign military financing program; 
and for both the regular and the emergency migration and refugee 
assistance programs. In a tight fiscal year, these are not small 
accomplishments, and we look forward to implementing these programs 
which Congress has funded.
    At the same time, we face very pressing needs that must be 
addressed by prompt Congressional action on the 2007 supplemental.
    The administration has requested a total of $5.99 billion for 
international affairs programs in this supplemental to support urgent 
requirements that are not funded in the annual budget. Let me address a 
number of the most significant funding requests that are contained 
within the fiscal year 2007 supplemental. Chief among these, of course, 
is funding to continue our operations and programs in Iraq.

                                  IRAQ

    Before I discuss our specific request for Iraq, I would like to 
take this opportunity to announce a new diplomatic initiative relating 
to Iraq's future. I am pleased to tell members of Congress that there 
is now being formed a neighbors' conference to support Iraq. This 
conference is being spearheaded, and properly so, by the government of 
Iraq. Invitees will include Iraq's immediate neighbors, as well as 
representatives from other regional states, multilateral organizations, 
and the U.N. Permanent Five (the United States, France, Britain, Russia 
and China). I would note that both Syria and Iran are among Iraq's 
neighbors invited to attend.
    An initial preparatory meeting of the neighbors' conference will 
occur at the ambassadorial level in Baghdad on or around March 11. This 
will be followed, perhaps as early as the first half of April, by a 
ministerial level meeting with the same invitees, plus the G-8.
    I am pleased that the government of Iraq is taking this step. The 
violence occurring within Iraq has a decided impact on Iraq's 
neighbors. Iraq's neighbors have a clear role to play in helping Iraq 
to move forward, and this conference will provide a needed forum in 
order to do just that.
    The administration has requested a total of $3.2 billion for Iraq. 
This request is vital to the government of Iraq's efforts to stabilize 
the country, bolster the economy, and achieve national reconciliation. 
It is a critical component of the USG civilian surge, expanding the 
presence of Provincial Reconstruction Teams (PRTs) and enabling USG 
agencies to decentralize and diversify their civilian presence and 
assistance to the Iraqi people. This request includes $824 million for 
the operation of the U.S. Mission in Iraq, including the extraordinary 
security measures which we must undertake in order to protect our 
diplomats and other personnel who are advancing our agenda of freedom 
and stability.
    The request includes $720 million in Economic Support Funds for 
programs critical to the Provincial Reconstruction Teams (PRTs), 
including $400 million for a civilian equivalent to DOD's successful 
Commanders Emergency Response Program (CERP), a key component of the 
President's ``New Way Forward'' in Iraq. We seek to expand the number 
of PRTs in Iraq from the 10 which are currently deployed to 20. This 
will include new PRTs in Baghdad and Anbar where the stakes are now 
highest. Civilian and military personnel will work side by side in 
these PRTs, in which the State Department will have the lead in all 
staff recruiting and hiring. PRTs work with Iraq's provincial and local 
governments to improve governance, support moderate Iraqi leaders, and 
address local needs at a community level. Competent and capable 
provincial and local government officials, who pursue their interests 
peacefully and under the rule of law, will be an essential element of a 
secure, unified, and federal Iraq.
    The $720 million in PRT program funding is part of the 
administration's $2.07 billion request in Economic Support Funds (ESF) 
for Iraq under this supplemental. We have learned from our experience 
in Iraq that the most effective use of funds is to provide direct 
assistance at the local level. The request before you embodies this 
approach. It does not fund large-scale reconstruction projects, for 
which American funding is ending under the Iraq Relief and 
Reconstruction Fund (IRRF). In addition to the $720 million in program 
funding for the PRTs, the administration has requested $534 million for 
programs coordinated by PRTs which create jobs and support businesses 
at the local level, necessary steps to bring stability to areas that 
have been cleared of insurgents. We also propose a program to jump 
start employment in the agriculture sector, Iraq's second largest 
employer. Our request provides $293 million to support the continued 
improvement in the core capacities of Iraq's ministries, particularly 
in budgeting, and policy and regulatory reforms, and $200 million to 
strengthen Iraq's judicial processes, criminal justice system and anti-
corruption initiatives. It also includes $428 million for democracy 
programs to support greater engagement with political parties, civil 
society organizations, and national political institutions, such as 
parliament.
    We are undertaking a broad review of the Iraqi refugee situation, 
including both refugees who have fled from Iraq and those who are 
internally displaced within Iraq. There are an estimated 1.5 million 
Iraqi refugees living outside Iraq, mainly in Jordan and Syria. There 
is a rapidly growing number of internally displaced persons in Iraq as 
well, owing to the increase in sectarian violence over the past year. 
We have requested $60 million for State Department and USAID programs 
in this supplemental to address the growing humanitarian needs in Iraq. 
This funding is the bare minimum necessary to address the pressing and 
growing problem of Iraqi refugees, internally displaced, and conflict 
victims.
    The request also includes $7 million to continue humanitarian 
demining in Iraq, one of the most heavily mined countries in the world.

                              AFGHANISTAN

    The administration has also requested a total of $751 million in 
150 account funds for Afghanistan. These funds complement the parallel 
request in the military supplemental for Afghanistan. They include $53 
million for additional security for State Department and USAID 
personnel who are on the front lines in Afghanistan.
    Let me stress two points. First, as our military leaders in 
Afghanistan will testify, these foreign assistance funds are a vital 
part of our overall strategy in Afghanistan. We cannot secure 
Afghanistan in the long term by military means alone; we need to be 
able to address the pressing needs for reconstruction and economic 
development if we are to succeed. Among these needs are the 
construction of high priority roads in the southern and southeastern 
portions of Afghanistan; a more stable, long term source of power 
supplies to Kabul and elsewhere; and an expansion of alternative 
livelihood programs to counter the cultivation of opium poppies.
    Second, I convened a conference in Europe several weeks ago in 
which I pressed our NATO allies to do more in Afghanistan. We seek, of 
course, to reduce or eliminate the so-called caveats on what other NATO 
members' military forces will and will not do in Afghanistan. But we 
also seek multinational contributions of additional resources to 
address Afghanistan's very pressing economic problems. This request 
before you in the 2007 supplemental represents our commitment to that 
shared goal.

                                LEBANON

    At the recent Paris donors' conference for Lebanon, the United 
States pledged a total of $770 million to assist in addressing the 
security and reconstruction needs of Lebanon. I made clear there, as I 
do now, that honoring this request depends upon the provision of these 
funds by the Congress. Inspired in part by our demonstration of support 
for the Lebanese people, other donors at the Paris conference gave 
quite generously, resulting in a total of $7.6 billion pledged to 
support Lebanon. The funds requested in this supplemental--including 
peacekeeping, security and economic reconstruction funds--represent the 
American pledge, and I am hopeful you will provide these funds in order 
to encourage others to join in an economic and security package that 
will give Lebanon's democratically elected government and the Lebanese 
people the assistance they require.
    Economic support to the legitimate government of Lebanon is vital 
to providing long-term peace, stability and economic opportunity. These 
funds will support a broad economic reform agenda, an agenda which will 
dovetail with the post-conflict reconstruction of Lebanon, while 
putting Lebanon on the path to fiscal stability. On the security side, 
the funds we are requesting will assist the Lebanese Armed Forces, 
which require a substantial infusion of equipment and expanded 
training. Their responsibilities will include providing security at 
Lebanon's ports, airports and borders, and being on the front lines of 
interdicting the movement of terrorists and their armaments into and 
out of Lebanon.
    The request also includes $184 million for the U.S. share of costs 
for the U.N. peacekeeping mission in Lebanon (UNIFIL).

                                 KOSOVO

    The administration also requests a total of $279 million for 
Kosovo. We have made great progress in stabilizing the Balkans. As we 
move toward lasting political reconciliation and permanent political 
structures, these funds for Kosovo are crucial. These funds will 
support the settlement of Kosovo's status which we anticipate will be 
completed early this year. I would note that the European Union and 
international financial institutions will bear the lion's share of the 
post-settlement costs, which could run as high as $2 billion. The U.S. 
contribution will leverage these and other donor contributions and 
could enable a quicker reduction of U.S. forces in Kosovo.

                                 SUDAN

    The administration also requests a total of $362 million for 
programs to address the continuing crisis in Sudan. These funds will be 
used for two purposes: to provide food and other disaster assistance 
and to provide enhanced peacekeeping operations for Darfur. I know that 
members of Congress on both sides of the aisle are moved by the 
suffering and the horrors experienced daily by so many people in Sudan. 
The funds we have requested for International Disaster and Famine 
Assistance and Public Law 480 Title II will allow us to continue to 
help the populations affected by the violence in Darfur, including 
internally displaced persons, and helping to feed affected populations 
in Darfur and Chad.
    Included in the $362 million, we are requesting $150 million to 
support peacekeeping in Darfur, including support for the African Union 
Mission (AMIS) there. We continue to work toward the expansion of these 
forces and for a transition of AMIS to a United Nations peacekeeping 
force.
    We are requesting $20 million for security for high threat 
protection for Department officials in Sudan, including in Juba and 
Darfur, as well as security support for the Special Envoy and others. 
To continue to support diplomatic efforts in Sudan, we are requesting 
$1.9 million for diplomatic operations.

                               AVIAN FLU

    The administration also requests a total of $161 million to support 
efforts to enhance preparedness and communication, and improve 
surveillance and detection to respond more quickly to H5N1 outbreaks 
wherever they occur. Given the bird flu outbreaks in a number of 
countries in recent months, we must address the urgent need to expand 
operations in the field. Existing funds to support emergency field 
operations will be fully spent by summer of 2007, and we must maintain 
continuity of these efforts if we are to be successful. A substantial 
portion of this funding will be focused on high-risk African countries 
with additional funds enabling responses to the spread of the disease 
in South Asia, the Near East, and Eastern Europe.
    At international pledging conferences in 2006, the United States 
pledged $434 million in assistance for regional disease detection 
sites, stockpiles of non-pharmaceutical supplies, wild bird 
surveillance, building vaccine production capacity and other purposes.

                    MIGRATION AND REFUGEE ASSISTANCE

    The administration requests a total of $71.5 million to address 
refugee emergencies in Burundi, the Democratic Republic of Congo, and 
the Palestinian territories. This funding will also address the needs 
of Iraqi refugees and conflict victims, as I previously mentioned. We 
are also requesting an additional $30 million to respond to 
unanticipated emergency refugee and migration needs in places such as 
Somalia, Sri Lanka, Chad, and the West Bank and Gaza.

                            PUBLIC DIPLOMACY

    The administration also requests $20 million in public diplomacy 
funds to counter ideological support for terrorism, especially in 
critical countries. Some of these funds will be used to fund 
international information programs to engage Muslim communities, 
promote democracy and good governance, refute the idea that the West is 
at war with Islam, and isolate and discredit terrorist leaders and 
organizations. Countering ideological support for terrorism and 
undermining the ability of terrorist groups to attract new recruits are 
a critical part of our counterterrorism efforts. These new funds will 
provide for a significant expansion of existing, effective programs as 
well as the launching of new initiatives designed to reach more 
vulnerable groups, especially youth. These initiatives seek to build 
new bridges of understanding, increase tolerance and respect for other 
cultures and religions, and de-legitimize terrorism and discredit 
terrorist leaders and their ideology.

                EDUCATION AND CULTURAL EXCHANGE PROGRAMS

    The administration is requesting $20 million in exchanges funding 
for the critical countries to confront the increasing prevalence of 
violent extremism. Our experience in exchanges--whether they are 
academic exchange programs to encourage English language instruction or 
professional or cultural exchanges that promote bilateral and 
multilateral dialogue in a common realm like art or athletics--has 
shown that extremist messages of hatred toward the United States take 
root more readily among those walled off from Americans by barriers of 
language and or lack of exposure to the breadth of our culture. 
Increased support for English language instruction and the exchange of 
people in such diverse fields as art and culture, sports, and 
interfaith dialogue, are central to lessening these barriers.

                    BROADCASTING BOARD OF GOVERNORS

    The administration also requests $10 million for the Middle East 
Broadcasting Networks. As part of the administration's strategy to 
counter violent extremism, Alhurra television will launch a signature 
three-hour daily program. The three-hour daily program capitalizes on 
Alhurra's unique perspective in a growing market of over 200 channels 
by giving viewers a reason to turn to Alhurra as a primary information 
source, providing a format and information mix unavailable in the 
region today. This format is a proven broadcast technique for 
developing audience loyalty and will enable Alhurra to reach a large 
listening area that crosses several time zones in the Middle East. The 
three-hour original production will provide the means to focus the 
agenda for news and information in the region. The new show will focus 
on the news of the day, discuss compelling social issues, broadcast 
investigative reporting and a spectrum of information not presented 
anywhere else.

                            FOOD ASSISTANCE

    Finally, the administration requests $350 million for the provision 
of worldwide food assistance. The funds are urgently needed for Sudan, 
especially in Darfur; for refugees in Chad; and for drought relief in 
Afghanistan which have already been mentioned. The request also 
includes emergency funds to enable a timely response to emerging food 
shortages and to prevent famine in southern Africa, Somalia and 
elsewhere in the Horn of Africa.

                               CONCLUSION

    Mr. Chairman, there are many additional pressing needs for 
assistance beyond the ones I have addressed here. Some of these can be 
addressed with the funds provided in the fiscal year 2007 continuing 
resolution; others are addressed in our fiscal year 2008 budget 
request. What is before you in the current supplemental, however, 
represents the most urgent requirements--requirements that are 
appropriate to be considered within the framework of a supplemental 
appropriations bill.
    I am mindful that all such requests are ultimately not requests of 
this or other committees, but of the American people. For that reason, 
we have thoroughly and closely considered the requests which are before 
you in this supplemental. For that reason, too, I pledge our careful 
stewardship of the funds which are provided to us. Thank you for your 
thoughtful and prompt consideration of this request.
    I would be pleased to respond to any questions you may have.

    Chairman Byrd. Thank you, Madam Secretary, thank you.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Secretary Gates, how soon do you need the supplemental 
funds before you run out of funds in your operating accounts, 
and how has your spending plan been affected by the proposed 
surge in troop strength?
    Secretary Gates. Senator Stevens, we would need the 
supplemental in April--clearly, the earlier the better, before 
the services have to begin reprogramming--the Army would be 
affected first, and probably most dramatically. Although the 
supplemental contains an identified $5.6 billion for the surge, 
as you suggest, we've already begun spending money to send the 
brigades that are already there, so we will need that money in 
that respect.
    Senator Stevens. Well, have you had to curb your current 
operations in order to fund this change now--is it really 
having any effect on our total readiness elsewhere?
    Secretary Gates. In terms of the financial resources, I 
don't believe so yet, Senator.
    Senator Stevens. It's my understanding you made a statement 
concerning how long you anticipate the surge forces will be in 
Iraq. Could you tell us what that is?
    Secretary Gates. Well, we have budgeted for them through 
the end of fiscal year 2007. Our global war on terror 
submission for fiscal year 2008 has a straight line projection 
for forces of 140,000 in Iraq. So, the funding for the surge 
actually extends only to the end of this fiscal year.

                           WEAPONS/INSURGENCY

    Senator Stevens. We've all been reading about these new 
weapons that have been introduced in Iraq, and about the new 
insurgency in Afghanistan. Can you tell us--do we have the 
equipment and the force that's necessary to face these changes 
over there now?
    Secretary Gates. Senator, with your permission, I'd like to 
ask General Pace to address that question.
    General Pace. Thank you, sir.
    Sir, we do--the Secretary approved the addition of one U.S. 
brigade combat team to add to the current forces over there, to 
be properly positioned for the--what's called the Spring 
Offensive--every year when things thaw in Afghanistan, there is 
an offensive this year. The intent is for that to be a NATO 
offensive, as opposed to a Taliban.
    Senator Stevens. In terms of the surge force, would it be 
proper to categorize their major function as adding to the 
security of those people that are there as we bring about this 
rotation of force? That is, as Iraqis move forward with our new 
embedded battalions in their brigades--is this force related to 
the total security of the operation?
    General Pace. Sir, it is. There's three parts to this 
operation: one is a security part, which is where the 
additional forces come in and the additional trainers come in, 
the other two are the increase in governance and economics.
    Senator Stevens. With regard to this movement that's 
anticipated now, in terms of bringing the Iraqi army forward 
into more combative positions--most of that takes place on the 
arterial highways, doesn't it?
    General Pace. Sir, it does.
    Senator Stevens. Is this surge force related to the 
security of that type of movement?
    General Pace. It is not, sir. The Iraqi--three brigades 
that the Iraqis are bringing forward, two are already in place, 
the third will be coming online in about the next 2 weeks. And 
they have all come down--as a matter of fact, part of that 
force, for the first time was flown from the northern part of 
Iraq--Iraqis being flown, on Iraqi airplanes, into Baghdad.
    Senator Stevens. How long will it take to complete that 
relocation of Iraqi forces?
    General Pace. Sir, it will be done by about the first week 
in March--about another week, week and a half.
    Senator Stevens. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, my friend.
    The Senator from Alaska is my long-time friend. So, I'd 
like to turn to him, because he was always courteous to me.
    Secretary Gates, in his State of the Union message, the 
President said that the war is not the fight we entered in 
Iraq--but is the fight we're in. Whatever you voted for, you 
did not vote for failure.
    Iraq's nuclear, biological, and chemical weapons programs 
and stockpiles, and the means to deliver them no longer exist. 
The current Iraqi regime no longer demonstrates hostility 
toward, and the willingness to attack, the United States. A new 
government is emerging to replace the repressive regime of 
Saddam Hussein.
    So, let me ask you, is the war today in Iraq the same war 
that Congress authorized nearly 4\1/2\ years ago?

                        CHANGES IN THE IRAQ WAR

    Secretary Gates. Mr. Chairman, I think that the situation 
in Iraq clearly has evolved since 2003. I think that the effort 
to try and create a stable and more democratic Iraqi government 
that is an ally of the United States, not an adversary in the 
war on terror--that goal remains the same. I think that was a 
central goal of the original policy, and I think that remains 
the same.
    It's obviously become more complicated with the situation 
inside Iraq, as I've described it. We've faced, in essence, 
four different wars: the war of Shia on Shia--principally in 
the south; sectarian conflict--principally in Baghdad, and in 
the environs of Baghdad; third, a Ba'athist insurgency; and, 
fourth, al-Qaeda. And the national intelligence estimate would 
add a fifth, and that is criminal operations around Iraq.
    So, I think what we are still trying to achieve is an Iraqi 
government that has been elected by its people, and that can 
stabilize the country, and move forward--able to defend itself 
and govern itself.
    Chairman Byrd. Secretary Rice, President Bush has said that 
the enemy will follow us here, meaning to the United States. If 
we withdraw from Iraq, what is the evidence of that?
    Secretary Rice. Well, Mr. Chairman, I think that the 
President's remarks were addressing the concern that if we 
withdraw prematurely from Iraq, and before the Iraqis are, 
themselves, able to stabilize their country, that we would face 
an Iraq that would be a haven for terrorists, an Iraq in which 
the instability would likely spill over into the region--both 
into its south, its neighbors like Iran, and that might, 
indeed, invite neighbors into Iraq, and into the region in 
which we have very longstanding allies. That kind of 
instability, then, would produce a safe haven for terrorism and 
a safe haven for chaos that would allow the maturation of 
terrorist forces that would have very high on their priority 
lists, attacks on the United States. I think that is what is 
being referenced there.
    If you look at what the national intelligence estimate said 
about an Iraq in which there was not an effort to stabilize it, 
or in which it did not become stable, I think it would accord 
with that picture.
    Chairman Byrd. According to the national intelligence 
estimate, our commanders on the ground, and other experts, the 
core of the violence in Iraq is a self-sustaining, sectarian 
struggle, resembling a civil war, in many respects. So, what is 
the evidence you have that the next stop for this ethnic and 
sectarian fight would be the United States? To me, that is like 
assuming that in 1865--going back quite awhile--the United 
States was preparing to start a war in France.

                      THREAT TO THE UNITED STATES

    Secretary Rice. Mr. Chairman, obviously the sectarian 
violence in Baghdad--as Secretary Gates just mentioned--is one 
of the elements of the instability in Iraq. But, of course, 
there is the presence of al-Qaeda in, for instance, Anbar, 
where the fight there is to prevent the hardening or the 
acquisition of a terrorist safe haven for the most dangerous 
terrorist group, in terms of our own domestic security, which 
is al-Qaeda.
    I think it is also fair to say that, in a broader sense, if 
you were to get the kind of instability in the region that 
might come from an Iraq that was unstable and unable to control 
its borders, unable to control its relations with its 
neighbors, that that kind of instability in the Middle East has 
also been a kind of breeding ground for the kind of terrorism 
that would come back to haunt us here at home.
    But, if one only focuses on al-Qaeda, I think that the link 
between the maturation of al-Qaeda in the center of the Middle 
East, and our own security, is clear because al-Qaeda is 
obviously the greatest threat right now to our homeland.
    Chairman Byrd. To our homeland?
    Secretary Rice. Yes, al-Qaeda, as the gravest terrorist 
threat to our homeland.
    Chairman Byrd. Do you think they will attack us, in the 
United States, if we leave?
    Secretary Rice. Mr. Chairman, I believe that every day--and 
I do not mean to be hyperbolic--but, frankly, every hour of 
every day, I suspect that there are al-Qaeda forces that are--I 
believe, I know--trying to figure out how to attack us. 
September 11, I think, was not their last attempt, we have 
broken up several attempts, and we are going to continue to 
have to do that.
    Our problem, of course, is that the terrorists only have to 
be right once and we have to be right 100 percent of the time. 
That is an unfair fight on the defense. So, going to the source 
of that problem--the Middle East--and trying to provide a more 
stable and democratic environment in the Middle East so that 
terrorism does not arise from that region, is an extremely 
important part of the global war on terror. But, I do believe, 
Mr. Chairman that al-Qaeda is trying every day to try to figure 
out a way to attack us, and if they have a safe haven in a 
sophisticated and central place like Iraq, I believe strongly 
that that is going to enhance their capability to do so.
    Chairman Byrd. Thank you, Madam Secretary.

                              AIR STRIKES

    There has been a number of reports, General Pace, that the 
United States is preparing to launch air strikes against Iran. 
Is this true? Did you understand the question? Let me ask it 
again. There have been a number of reports that the United 
States is preparing to launch air strikes against Iran. Is that 
true?
    General Pace. Mr. Chairman, it is not true.
    Chairman Byrd. Categorically?
    General Pace. Categorically, sir.
    Chairman Byrd. News reports today regarding your 
assessment, General Pace, of military readiness note that the 
United States is at significant risk of not being able to 
respond to a new crisis. This assessment is considerably more 
worrisome than last year's assessment of ``moderate'' risk, and 
was reportedly made before the President announced his 
intention to ``surge'' 21,500 more troops to Baghdad. What does 
this state of affairs mean for us?
    General Pace. Mr. Chairman, first of all, the news report 
is inaccurate. My report to Congress is classified, but it is 
available to every member of this committee. To be precise, 
what the level of risk is, is to how quickly we can get the job 
done. And the level of risk is to the timelines that we have 
set for ourselves to be victorious. So, the risk is to how long 
it will take--not whether or not we will get it done. We will 
get the job done. It will be less precise and more heavy-handed 
because we have some of our force, including our precision 
intelligence force, already committed around the world. But, no 
one in our country, or any potential adversary, should question 
our ability to handle another crisis tomorrow. And, the 
addition of 21,500 troops, more or less, from a force of 2.4 
million, does not change my assessment, sir.
    Chairman Byrd. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    Secretary Rice, I recall that in an earlier hearing, we 
talked about the importance of infrastructure improvements for 
safety reasons in the Baghdad area, particularly the Embassy 
and facilities for housing U.S. personnel who are there 
carrying out their responsibilities. Could you give us a status 
report on the level of completion that we've reached to date, 
and whether or not there are funds being requested in this 
supplemental that are designed to meet those needs?

                    NEW EMBASSY COMPOUND IN BAGHDAD

    Secretary Rice. Thank you Senator, in fact, the new Embassy 
is on budget and on time--I'm happy to report--despite the 
challenging security situation. The project is underway--almost 
all of the money, about 98 percent of it, has been obligated, 
and most of it--in the 80 percent range--has been spent. There 
is additional funding requested in the supplemental for State 
Department operations in Iraq for security costs. But the 
Embassy is on budget and on time.

                                 FUNDS

    Senator Cochran. In the recent continuing resolution, we 
were asked to provide funds, but not at the level that we were 
told they were needed, for base realignment and closure (BRAC) 
activities. Senator Hutchison was one of the main proponents of 
getting these funds approved at the earliest possible date. Is 
there a request included in this supplemental that seeks to 
deal with that shortfall of funds? Unfortunately, we couldn't 
include everything in the continuing resolution that some 
thought was needed.
    General Pace. No, sir, there is not. And, I'm glad you 
highlighted this, the $3.1 billion for BRAC is badly needed, it 
is, in fact, imperative. Without it, we will not be able to 
meet the statutory deadline for the completion of BRAC. It has 
monies in it that are specifically allocated for the troops, 
$300 million for their housing allowances. It has--just to give 
you two examples--26,000 soldiers going to Fort Bliss and Fort 
Sam Houston, and their families will not have dental clinics or 
youth centers, if this money isn't approved. Five thousand 
troops that are going to Fort Benning for training won't have 
barracks. So, this bill is full of military construction 
projects such as this, that are essential as we reallocate, as 
we relocate forces as part of the BRAC process. And so, it 
really becomes a serious problem.
    Senator Cochran. In connection with the forces in Iraq, 
what progress is being made on the development of successful 
research for dealing with the improvised explosive devices 
challenge that we face? These remote-controlled explosive 
devices that have caused so much damage in the region?

               DEALING WITH IMPROVISED EXPLOSIVE DEVICES

    Secretary Gates. Let me take a crack at that first, and 
then ask General Pace to chime in.
    First of all, there's $2.4 billion in this supplemental for 
IED research, that's on top of $2 billion that you've already 
approved in the enacted fiscal year 2007 appropriations.
    I met with General Miegs last week for the first time, and 
I had the list in front of me of all of the different companies 
and universities where his organization has research going to 
try and find new ways of dealing with these IEDs. And I asked 
General Miegs, basically, one question: Do you have enough 
money? Are you pursuing every avenue that makes any sense at 
all? And he assured me, that with the enactment of the requests 
that we have made--both for the supplemental, and then for 
fiscal year 2008--that he has the resources that he needs to do 
this.
    But, I will tell you, that one of the--no, not one of the--
the most unpleasant aspects of my job is, every night, going 
home and handwriting notes to the families of those who have 
been killed in action. And, there's a sheet behind every one of 
those letters that tells me how they died. And about 70 percent 
of them are these IEDs. So, the whole Department of Defense is 
as highly motivated as an organization can be, to try and 
figure out a way to get around these.
    But, the reality is, we face an agile and a smart 
adversary. And as soon as we find one way of trying to thwart 
their efforts, they find a new technology, or a new way of 
going about their business. But, I can assure you, this is a 
very high priority for us.
    General Pace.
    General Pace. Sure, if I may add to what the Secretary has 
already said. In addition to the technology, several other 
aspects of it, one is--literally every time one of these 
devices goes off, the team assessment is made, and the 
information is put into the worldwide IED network, so the 
troops training right now to go overseas in the future, have 
the information from the most recent tactics, techniques, and 
procedures of the enemy. We then adjust our own.
    We look at the entire chain, starting with the ammunition. 
We've policed up 435,000 tons of ammunition from more than 
15,000 locations in Iraq. So, just getting at the source of the 
explosives is part of the problem. Then, the factories where 
they're built, and the individuals who build them, and then the 
individuals who deliver them, and then the individuals who put 
them in place--so we go after the entire chain of events.
    And, we've been successful at locating, now, just about a 
little bit better than one-half of those that are in place. 
And, thanks to the technologies involved, we have fewer and 
fewer casualties for the explosions that do take place, sir.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you.
    Senator Inouye.
    Senator Inouye. I thank you very much, Mr. Chairman.
    Secretary Rice and Secretary Gates, the President of the 
United States, President Bush, requested over $22 billion for 
reconstruction funds, and the Congress responded by 
appropriating like amount.
    Now, we hear that over $6 billion of that amount has been 
wasted, abused, stolen, et cetera, et cetera. What is the 
present status? Are these charges correct? And, if so, what are 
we doing about it?

               IRAQ RELIEF AND RECONSTRUCTION FUND (IRRF)

    Secretary Rice. Senator, I think there are several 
different elements here. In terms of the funding that was 
provided by the Congress under the Iraqi relief and 
reconstruction fund (IRRF), I think that there have been some 
problems with some particular contracts--a particular contract, 
for instance, for health clinics and health services--but I do 
not believe that there has been a claim of widespread abuse of 
the funding that was provided under the IRRF.
    There has been a concern about some of the funding that was 
used through what was called the DFI, the Development Fund for 
Iraq that had a number of problems in terms of waste.
    I believe that you will find, Senator, that--while it is 
true that some of the targets that were initially set for 
reconstruction out of the IRRF have not been met for a variety 
of reasons, having to do with the dilapidated infrastructure in 
Iraq, having to do with insurgent attacks, for instance, 
against the oil infrastructure and the gas pipelines--the 
monies have been spent as intended. Reconstruction funding has 
not always had as great an impact because of these other 
factors, but I do not believe that you will find an argument 
from the SIGIR, the special inspector general for Iraq 
reconstruction, that there has been widespread abuse of the 
Iraq reconstruction funding provided by the Congress.
    There have been problems with the DFI, and there have been 
problems with some specific contracts relating to one company 
in particular.
    Senator Inouye. If I may interrupt. We have been advised 
that the inspector general has cited the number $6 billion, and 
the Army, through the Justice Department has already indicted 
people. So, are we suggesting there's no fraud or waste?
    Secretary Rice. No fraud or waste concerning IRRF funds.
    Senator Inouye. Or corruption?
    Secretary Rice. Senator, I will write an answer for you for 
the record, so that I can make certain that I am untangling the 
various elements of this. But, in terms of the Iraq 
reconstruction funding that was provided through the Congress, 
it is my understanding that there are some specific contracts--
particularly relating to health clinics--that have been 
problematic, that, certainly, some of the targets have not been 
met concerning the reconstruction planning. A good deal of the 
Iraq reconstruction funding was actually redirected to security 
funding--about $5 billion was redirected to security funding. 
But, I will get an answer for you, for the record, Senator.
    [The information follows:]

    Secretary Rice has asked me to respond to the questions you 
asked her during her testimony before the Senate Subcommittee 
on Appropriations and Foreign Operations on February 27 
concerning allegations that large amounts of United States 
Government reconstruction funds have been wasted or abused in 
Iraq. The Department of State takes oversight of foreign 
assistance funds very seriously, including the $20.9 billion 
Congress appropriated for the Iraq Relief and Reconstruction 
Fund (IRRF). Secretary Rice and other senior Department 
officials meet regularly with the Special Inspector General for 
Iraq Reconstruction (SIGIR) Stuart Bowen, and our staff works 
closely with investigators from SIGIR, GAO and the audit 
agencies of implementing agencies.
    While we are aware of problems in managing some of the 
projects under IRRF, there have been no allegations to date of 
fraud or abuse with IRRF or other foreign assistance funds. 
Rather, questions have been raised with respect to the 
administration by the Coalition Provision Authority (CPA) of 
Iraqi funds from the Development Fund for Iraq (DFI) in 2003-
04. SIGIR, for example, has questioned whether the Iraqi 
Government kept adequate records of $8.8 billion in Iraqi DFI 
funds which CPA transferred to Iraq in 2003. The GAO has also 
noted that up to $10 billion in Defense Department contracts 
awarded during CPA contained charges which were questioned or 
found to have been inflated by contractors. As the GAO has 
noted, some of these costs for contracts awarded by CPA have 
been recovered. SIGIR has also identified cases of fraud or 
abuse involving DFI money. We have worked closely with SIGIR 
and the Department of Justice to make sure that those 
responsible are brought to justice. The recent criminal 
convictions of Robert J. Stein, Jr. and Phillip Bloom are just 
two examples of the seriousness of U.S. efforts to fight 
corruption within the Iraq reconstruction effort.
    Over the last three years, SIGIR has performed hundreds of 
audits throughout Iraq in all of the IRRF sectors. There have 
been instances when SIGIR has brought to our attention 
deficiencies in IRRF project management or problems with 
contractors. In these instances, we have acted quickly to 
correct the problems that SIGIR identified and put changes in 
place to make sure that these problems are not repeated. 
However, as Mr. Bowen has repeatedly highlighted, fraud and 
abuse have played a very small role in American reconstruction 
efforts in Iraq. His concern--and ours--is more focused on the 
issue of waste. We are aware that Special Inspector Bowen has 
estimated in oral testimony that 10-15 percent of IRRF II funds 
may have been ``wasted''. However, we understand that neither 
SIGIR nor GAO has ever issued a forensic audit report on this 
issue, and we understand that Special Inspector Bowen has made 
the point that any estimate on this subject depends on the 
parameters defining ``waste''. Mr. Bowen has also noted in 
testimony before Congress and in public interviews that most 
IRRF projects are completed on time and as planned.
    We are working hard to ensure that U.S. tax dollars 
appropriated for Iraq are used to the greatest benefit of the 
Iraqi people. Despite this, we did not meet all of our original 
reconstruction goals for a variety of reasons, most importantly 
security. Insurgent attacks on critical infrastructure prompted 
us to shift $2 billion from water projects in 2004 to increase 
support for the Iraqi Security Forces and police training to $5 
billion under IRRF. In addition, reconstruction projects in 
several sectors have faced higher than expected security costs 
and construction delays, which have accounted for between 16-22 
percent of the cost of reconstruction contracts executed over 
the last two years. Security costs for training and technical 
assistance programs have been lower, averaging less than 10 
percent. We have taken steps to address this issue by shifting 
construction contracts away from expensive foreign design build 
contractors towards Iraqi contractors who often are better able 
to resolve security issues and are less expensive. We are also 
winding down our reconstruction programs and expect to finish 
most by the end of 2007.
    The Department of State will continue to work closely with 
SIGIR and other auditors, including the Government 
Accountability Office and the State Department Office of the 
Inspector General, to maintain the highest standards of 
oversight and accountability for all of our operations in Iraq.

                         IRAQI SECURITY FORCES

    Senator Inouye. Thank you very much.
    Secretary Gates, do you have any response?
    Secretary Gates. This is not an area, frankly, because it 
involved the past, that I've spent any time on. The only 
comment that I would make was that when I was in Baghdad with 
the Baker-Hamilton Group, one of the discussions that we had 
was how much money had been spent out of those emergency 
reconstruction funds for security, because the projects that 
were underway were at risk from attacks, but that's about the 
only contribution I can make on this discussion.
    Senator Inouye. General Pace, in all of our debates on 
Capitol Hill, involving withdrawal from southwest Asia the 
subject of the Iraqi security forces comes up. Those who are 
not too keen about withdrawal cite that, ``Well, they're not 
ready to take over.''
    We have expended over $10 billion to equip and train the 
Iraqi army and police forces. How would you rate them at this 
moment?
    General Pace. Sir, they are good for the most part, getting 
better. Their military is much better than their police. We 
started training their police a couple of years ago, when we 
started training their military. Their military battalions, 
about 10 are conducting independent operations as we sit here. 
Another 82, at the last count, were in charge of their own 
territories. Another 20 some-odd were working side-by-side with 
coalition forces, and a number in the teens were still in the 
process of doing some final training. So, the Iraqi military is 
coming on very well.
    Examples: About 3 weeks ago, now, in Haifa Street in 
Baghdad, against Sunni insurgents, the Iraqi army did extremely 
well. They needed assistance from the coalition with regard to 
air strikes. But we----
    Senator Inouye. Your response is that they're coming along 
very well. When will they be ready to replace our forces?
    General Pace. Sir, I cannot pick a precise moment in time. 
By the end of this year, we should have a significant portion 
of the country turned over to Iraqi provincial, Iraqi military, 
and Iraqi police control. But to put a precise dot on the map, 
sir--or on the calendar--I could not do that. But, we should 
have significant turnover this year.
    Senator Inouye. Secretary Rice, we always are reminded that 
the leaders of Iraq want us there. How would you rate the 
sentiment of the people of Iraq, do they want us there?

                    SUPPORT OF USG FROM IRAQI PEOPLE

    Secretary Rice. Well, Senator, I am myself rather skeptical 
of polls that are taken among the Iraqi people. I am myself a 
social scientist; I want to know exactly how the public opinion 
survey question was asked and was answered. I know that in both 
the council of representatives, and in the leadership, which, 
after all, are the people who were elected to represent the 
Iraqi people, there has been widespread support for our mission 
because the leaders understand, and many in the council of 
representatives understand, that Iraq is not yet ready to carry 
out its own security functions without our help.
    I will say that, I think just like any country in the 
world, and particularly a proud culture and people like the 
Iraqis, they would prefer to be able to do these things on 
their own. Sometimes one will get readings from the Iraqi 
population that they look forward to the day that it is really 
Iraqi forces that are carrying out the security missions, and 
when the multi-national forces are not needed to do the kinds 
of functions that they are now. I think that's a natural 
outcome of a very proud people, and a people who don't 
particularly want foreign forces on their soil. But, I think 
there is an understanding that we are providing, now, essential 
security functions that they cannot provide on their own, and 
that among those Iraqis with whom we speak, the leadership and 
the great majority of the council of representatives, there is 
respect for that mission.
    Senator Inouye. Did the proud Iraqi people ask us to get 
rid of Saddam Hussein?
    Secretary Rice. Senator, I do not think they were in any 
position to ask us to get rid of Saddam Hussein. This was a 
thoroughly brutal regime that did not allow any expression of 
discontent.
    Senator Inouye. Thank you very much.
    Chairman Byrd. Thank you, Senator.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    At the outset, I thank you, Secretary Rice, Secretary 
Gates, and General Pace, for your service. I'm pleased to see 
Madam Secretary. Your announcement today on a conference 
involving Iraq's neighbors, where the United States will 
participate, Syria will participate, and Iran will participate. 
I think that is very important in evaluating or moving ahead 
with congressional willingness to fund what you are requesting, 
because of the widespread sentiment in Congress that a 
resolution of the Iraqi issue will require diplomacy--in 
conjunction, perhaps, with military force--but that diplomacy 
is an indispensable element, so that is a good development.
    I compliment the administration, the President, and you, 
Madam Secretary, for the progress--which, at least appears--to 
have been made on diffusing the North Korean threat, and that 
has been accomplished through diplomacy--multilateral--but I 
note a Washington Post report, recently, February 20, saying 
that you had authorized your chief negotiator, Christopher 
Hill, at one point to have one-on-one negotiations with the 
North Koreans. I note you nodding in the affirmative that that 
was true--that is true? The one-on-one? Yes.
    It would be my hope, as you know from our correspondence in 
the past, and our discussions, that there would be more intense 
one-on-one negotiations with the Iranians and the Syrians. I 
know there are differences of--I know the administration has a 
different opinion--but it is my, has been my experience that 
when we talk one-on-one to other countries that there is an 
element of respect and dignity which goes a long way toward 
trying to reach some understanding. And, we know that President 
Reagan called the Soviet Union ``The Evil Empire,'' and then 
shortly thereafter had negotiations. And the most famous 
illustration is President Nixon going to China, he's really an 
example, if that can be done, that's the way to do it.
    And, I would like to inquire about the reports of an 
initiative, so-called, by Iran back in 2003. And, I wrote to 
you, by letter dated February 19, to ask you about that, and 
the reports were that there was a writing from Iran. And, 
members of the National--or employees of the National Security 
Council--have reported that it was seen by the National 
Security Council, you were the Chief, of course, at that time. 
And you made a statement, or at least quoted in the press, that 
if there had been any paper which included the recognition of 
Israel, you certainly would have remembered that.
    I'm advised that the paper did not have any reference to 
Israel, but my question to you is, did you ever know about a 
writing back, contemporaneously in 2003, where the Iranians 
sought to have one-on-one discussions with the United States?

                        IRAQI NEIGHBORS MEETING

    Secretary Rice. Thank you, Senator.
    If I may say, first, thank you very much in terms of the 
meeting that we will attend with Iraq and Iraqi's neighbors. I 
should note that Iraq has invited the Syrians and the 
Iranians--I do not know if either country has accepted--but we 
certainly will be there. I want to thank you and others, we 
have had conversations with about the importance of doing this. 
We have listened, and I want you to know that.

                     BILATERAL RELATIONS WITH IRAN

    I want to--on the issue of what happened in 2003--Senator, 
I simply do not remember ever seeing a paper of the kind that I 
have seen described in the press. There was, apparently, a fax 
that came to the Department of State. I think that some who 
were at the Department of State have described that paper, and 
that perhaps its parentage was even unclear at the time, 
because it was not clear whether it was from the Iranian 
government or not. I think that Deputy Secretary of State 
Armitage has talked about this openly with the press----
    Senator Specter. But in any event, you didn't----
    Secretary Rice [continuing]. But I do not, I do not 
remember seeing a paper--let me be very clear. There were, 
obviously, a number of people who wanted us to talk to the 
Iranians, to reach out to the Iranians, who suggested that we 
try to do that, or that the Iranians might wish to have 
contact, but Senator, I just do not ever remember seeing a 
paper of that kind. I am not saying that a paper did not come 
to the government some place, but I don't ever remember seeing 
it.
    Senator Specter. Okay, that's 2003, this is 2007. If there 
will be a conference which you will attend, the United States 
will attend, I had a chance to talk to President Bashir Assad 
in December--as I told you in our lengthy conversation--and 
he's looking for such a conference, a proposed one in Damascus.
    I have had a chance the past 2 weeks to talk to the Iranian 
Ambassador to the United Nations, and while he does not speak 
for his government, my instinct is they, too, will be willing 
to attend. So, I think that's a very significant step forward.

                      MILITARY ACTION AGAINST IRAN

    Secretary Gates, would you agree that congressional 
authorization would be required before the United States 
initiates any military action into Iran?
    Secretary Gates. I think I'd have to defer to the 
constitutional lawyers on that, Senator.
    Senator Specter. I'd like for you to, as well. Senator 
Leahy and I wrote to the constitutional lawyer, the Attorney 
General of the United States, several weeks ago, January 30--
we're embarking on some very difficult----
    Senator Leahy. We also had a hearing in Judiciary on this 
matter, as you know. But, the Attorney General does not answer 
such questions.
    Senator Specter. Mr. Chairman, will you take that time from 
Senator Leahy?
    Secretary Gates, we're embarking on some very difficult 
areas here. Congress can't pass a law which trumps the 
President's constitutional authority as Commander-in-Chief. We 
do have constitutional authority under the appropriations 
power--the so-called power of the purse. I've studied the 
issue, and discussed with the chairman of the Judiciary 
Committee hearings, and I believe that Congress does not have 
the authority to micro-manage the war--constitutional authority 
as a legal matter, or as a practical matter. But the issue of 
conditioning is very tricky, with legislation which was passed 
in 1974 when Vietnam was winding down, and Congress passed 
legislation saying that there could be no more than 4,000 
troops in 6 months, no more than 3,000 in 1 year.
    But, we need to have an expression from the administration. 
It would be my hope that as Secretary of Defense, you would be 
in a position to say--because of the obvious constitutional 
issues involved--that the President cannot initiate military 
action in Iran without congressional authority. But, I'll 
pursue the matter with the Attorney General.
    Thank you, Mr. Chairman.
    Chairman Byrd. Senator Leahy.
    Senator Leahy. Of course we had a hearing on the matter the 
Senator from Pennsylvania has raised. In your answer to Senator 
Inouye, Secretary Rice, I want you to know there has been waste 
and theft of IRRF funds--not just Iraqi funds--but money that 
this committee appropriated, this Congress voted for and sent 
over there. The special investigator found that.
    You also said that it's unfair that you have to fight on 
defense all the time. I agree with you. The fact is, of course, 
your administration, after we were hit on 9/11, obviously your 
attention was focused to it, it did happen on your watch, and 
we went on offense. The Congress solidly backed going after 
Osama bin Laden.
    I think we've been on defense ever since, because instead 
of getting Osama bin Laden when we had him cornered, the 
President decided we had to go into Iraq, hit Saddam Hussein 
who had absolutely nothing to do with 9/11, and we've been on 
defense ever since.
    Secretary Gates--we've heard time and again--that if we 
disagree with the administration's policy in Iraq we don't 
support the troops. We hear it from the Vice President, we 
heard it in the mid-term elections--I've never heard it from 
you, sir. But, I suspect when we debate this supplemental, 
those of us who will question the administration's policy in 
Iraq will hear it again.
    As a father of a former marine, I'm tired of it. I think 
it's beneath a country that has always cherished the right to 
disagree, it's one of the things we fight for in this country. 
We ought to talk about what's right for the troops. Senators on 
both sides of the aisle have asked for proper armor for them, 
for proper training for them--they didn't get either before 
they were sent into Iraq--some are still not getting proper 
armor. And was it right to subject them to substandard 
conditions at Walter Reed Hospital? And to a bureaucratic 
nightmare that's reminiscent of a Kafka novel?
    I appreciate the way you've responded to the Walter Reed 
scandal, I told you that already and I want to make sure people 
understand--I was glad to see you speak out, I was glad to see 
General Cody speak out about the bureaucratic mumbo-jumbo of 
how great those conditions were. Neither you nor I would want a 
member of our family to be put in such a situation, and we 
would hope that a member of our family would never be so badly 
wounded.
    Our soldiers are returning with serious mental illnesses, 
and not getting the help--and serious physical illnesses, not 
getting the help they need. We have alarming rates of domestic 
abuse, of divorce, we have families destroyed by it.
    The Vice President doesn't mention this when he says, 
``We're winning in Iraq.'' He says we're winning because Saddam 
Hussein is dead. Iraq has a new constitution. He says nothing 
about the catastrophe we've unleashed on the Iraqi people, and 
nobody wants to talk about the fact that, when the Congress--
Democratic members and Republican members--said ``Go get Osama 
bin Laden,'' this administration dropped the ball.
    I don't think that the fighting in Iraq today bears any 
resemblance to the war that Congress authorized, or that our 
soldiers were trained for. I don't think we need to spend 
another $80 billion to keep our troops bogged down in Iraq.

                  HOW LONG WILL SUCCESS IN IRAQ TAKE?

    If we're going to have a pro-American, democratic 
government there, how long will it take? How much money? How 
many more of these huge supplementals, how long are we going to 
have to do this?
    Secretary Gates. Senator, the honest answer to your 
question is, I don't know. The circumstances are obviously 
determined by the conditions on the ground. We have a new 
commander in Iraq. I think those of you who have been there, 
and visited with General Petraeus and with General Odierno have 
been impressed by what they're doing, and the progress that 
they're beginning to make.
    You know, I think that we all share--with all of the heated 
debate, the reality is--I think nearly all of us are trying to 
do the right thing for America. Certainly, everybody here in 
the Congress. And trying to do what we think is best, in the 
best national security interest of this country. And that is--
how do we avoid chaos in Iraq, and at the same time, bring 
about conditions in Iraq that allow us--at some point--to bring 
our troops home? That's what we're really all engaged in. We're 
all patriots in considering this question, and we all have the 
best interests of the troops, as well as our country, in mind. 
And, I think sometimes folks on the outside lose sight of that 
general view, that is held across the political spectrum.
    Senator Leahy. Unfortunately, some of the people on the 
inside lose sight of it, too. I look at some of the things that 
were said during the campaign--you weren't Secretary of Defense 
then--but during the mid-year campaigns, I think that's one of 
the reasons why the control of the Congress changed. I think 
people were so turned off because they know loyal Americans--
they know we want our people back. You have a small minority of 
the Sunnis, power was taken from them, was given to an 
aggrieved majority--and they had real grievances, but bent on 
revenge.
    I don't know how you stop this. A Vermonter wrote me to 
suggest that since we're spending $1 billion a week over there, 
why don't we just get out, let them settle their differences, 
and when they do, we'll send them $1 billion a week to fix 
things back up. I know you're not going to do that, but in some 
ways, that makes more sense, especially to the families of the 
marines, to the soldiers and airmen that are over there.

                           FIXING WALTER REED

    How long would you say it will take to fix up things at 
Walter Reed? There's 16 different databases that soldiers out 
there deal with--how long is that going to take?
    Secretary Gates. Those are the kinds of questions that I've 
asked the outside study group that I've appointed to review 
within 45 days. We're not waiting on that. There are really two 
separate problems, it seems to me. The first--and frankly, the 
easiest--to resolve is the physical facilities, Building 18, 
and so on. And they've moved on that, I visited Building 18 on 
Friday, and a lot of the repairs have been made. The truth is, 
it's not a great building, even once the repairs are made. And, 
I think some of our senior military leaders who have toured 
that building feel the same way. The Vice Chairman of the Joint 
Chiefs of Staff was with me, and wasn't too pleased, I might 
say.
    The larger problem--I'd say there are two other problems. 
One is the caseload for a lot of those working with 
outpatients--and they are, frankly, just overwhelmed. And, 
we've got some very dedicated people out there at Walter Reed, 
but when you have 130 patients you're taking care of, instead 
of 20 patients--it's like a student/faculty ratio, either it's 
going to be good or it's going to be terrible. And, so you have 
dedicated people who are overwhelmed. So, that's a second area 
that needs to be addressed; along with that, a lot of the 
administrative problems and bureaucracy that some of these 
outpatient soldiers have had to encounter, and try and deal 
with.
    I think the third level that needs to be dealt with are 
some of the deeper questions about the length of time in 
evaluation of some of these soldiers, and then the handoff to 
the Department of Veterans Affairs (VA), and how that all 
happens, and what happens when they get home, and so on. And, I 
think all of those issues need to be addressed.
    We're trying to tackle the first two of those right away. 
We just have had, I think, an inspector general report from the 
Department of Defense on some of these evaluations, and ways to 
go about correcting that. But, I expect a comprehensive 
approach to dealing with this to be in the recommendations of 
this outside group.
    Senator Leahy. Thank you, Mr. Chairman.
    And Mr. Secretary, I'll say again what I told you earlier, 
privately. I'm so glad that you went out there and spoke out. 
You deserve high praise for doing that. Because, to tell you 
the truth, there's a lot of CYA going on out there, and I think 
right now, they're probably a lot more focused than they were 
before the Secretary of Defense, and the Chairman of the Joint 
Chiefs--Vice Chairman of the Joint Chiefs and others showed up 
there, so thank you for that.
    Secretary Gates. I will tell you, Senator, that they are 
very focused right now.
    Senator Leahy. I'll bet they are.
    Chairman Byrd. Thank you, Senator Leahy.
    Senator Shelby.
    Senator Shelby. Thank you.
    It seems to me that we're at a crunch time, Mr. Secretary, 
as far as Iraq is concerned. And that a lot--a lot--depends on 
the surge.
    I had a nice conversation with General Petraeus. He seemed 
to be confident of what he could do with the extra troops. I 
hope he's right. I support the troops. I support this 
supplemental, you know. We might tweak it some way, I don't 
know, but we'll look at it.
    But, it's late in the game. Mr. Secretary, do you--and then 
General Pace--do you share the confidence that General Petraeus 
seems to have--at least he had when he was here with us, before 
he went back over there--in the success, possible success, of 
the surge?
    Secretary Gates. I have a lot of confidence, Senator, in 
General Petraeus, and his team, and in our soldiers. I think, 
critical to the success of the surge is the Iraqis stepping up 
to the plate, fulfilling their commitments, taking the lead, as 
they have said, and also going forward with their political 
reconciliation. All of those things have to happen for this to 
work.
    We will begin--the three of us--will begin briefing the 
entire Senate, and the entire House, Thursday afternoon, in 
closed session, to begin giving you a status report of where we 
stand against the benchmarks, against the commitments that have 
been made--both by our Government, and by the Iraqis.
    But, the direct answer to your question is--I have every 
confidence in our troops and in our generals. I am watching to 
see how the Iraqis perform. So far, so good.
    Senator Shelby. General Pace.

                                SECURITY

    General Pace. Sir, I have confidence in a three-pronged 
surge. Prong number one, is security. Prong number two is, good 
governance. Prong number three is, economics that gets jobs, 
and gets the young men off the street. No number of troops--
whether it be 20,000 or 100,000--will make a long-term 
difference. However, without the additional security, good 
governance and economics won't have a chance. But, with the 
additional security, we must have good governance, we must have 
economic progress, otherwise, the security in and of itself 
will not turn the tide.
    Senator Shelby. It seems to me from what I've read and 
known and been briefed on from time to time, that the militias 
seem to be out recruiting the Iraqi national army, and seem to 
be, at times, a lot more effective. How big a challenge is 
this, and what can you do about it? What can they do about it, 
with our possible help? ``They'' being the national army?
    General Pace. Sir, I think success begets success, and 
begets good recruiting. And, the young Iraqis are going to 
hedge their bets. And, if they think that there's weakness on 
our part, or the Iraqi government's part, they're going to be 
more tend toward home-grown militias that will protect their 
neighborhoods. But, if they see that we're all in this 
together, and that we're going to be doing all three parts of 
what I said, and they start seeing successes, then I believe 
they will throw their lot with the national government.
    Senator Shelby. It's March the first coming up in a day or 
so. Do you believe, Mr. Secretary--Secretary Gates--that 7 or 8 
months from now that we will know one way or the other if we're 
making real progress in Iraq? Both economically, militarily, 
and the training of the Iraqi army? I don't think you have too 
much time. I'm just trying--I'm not putting a deadline on it--
I'm just throwing that out, because, I think that's--will be 
another crunch time.
    Secretary Gates. Senator, let me offer a comment, and ask 
General Pace to correct me if I've got my facts wrong.
    I think General Petraeus believes that he will have a 
pretty good idea whether this surge and whether this strategy 
is working probably by early summer. And, I think--as I've told 
the Armed Services Committee--we will know pretty quickly, and 
we'll be able to give you some information on this on 
Thursday--whether the Iraqis are keeping their military and 
security commitments that they've made to us. Are they showing 
up? Are they showing up in the right numbers? And so on, and so 
forth. Are they being able to move without political 
interference?
    The political side, we're--as Secretary Rice indicated--
we're seeing some progress there. And we may be able to see 
more in a relatively short period of time. The economic side of 
it, the ``build'' part of clear, hold and build, is probably 
the one where we will have--that will take a little more time, 
in terms of whether the Iraqis are spending their own money, 
and whether we are providing the conditions--along with the 
Iraqi army--with our support, are providing the conditions in 
which they--as General Pace says--can begin to put young men 
back to work, and begin to get them off the streets. It's 
surprising the information that you get, and the intelligence 
about the number of these people that are involved in this 
fight that are doing it because they got paid $100. Not because 
they were committed.
    Senator Shelby. Secretary, why over the time--I know you 
haven't been in this post that long--but why have we, the 
Government, all of us, let the militias flourish for 2 or 3 
years? It seems like, gosh, nothing was done, you know. They're 
powerful forces in their own right. And could be helpful, or 
could be an obstacle, of what we're trying to do. Do you want 
to speak to that? Or Secretary Rice?

                    IRAQ SECTARIAN VIOLENCE MILITIAS

    Secretary Rice. Well, I think, Senator, we have known that 
the militias were going to be a problem for quite some time. 
But, the----
    Senator Shelby. But what did you do about it?
    Secretary Rice. Well, frankly, they were entangled in Iraqi 
politics in ways that made it very difficult to do anything 
about them. The Iraqis did, finally, have a law at the time of 
the CPA, to disband the militias. But, frankly, the political 
circumstances, and then the growth in violence, meant that 
people relied on the militias, and it was very difficult to 
disentangle them.
    I think we will start to see, now, that these militias will 
begin to disentangle as the security forces are able to provide 
that security.
    Senator Shelby. Madam Secretary, are you confident, or are 
you just hopeful--we're all hopeful--about your diplomatic 
initiatives, that they will bear fruit? Sometimes diplomatic 
initiatives bear fruit after you've had military success, and 
you bring some stability there. What do you think?
    Secretary Rice. Senator, I do think that success is--
success on the ground--is going to help us diplomatically.
    Senator Shelby. And politically.
    Secretary Rice. Because, frankly, some of the neighbors are 
hedging their bets and keeping their options open, and to the 
degree that the Maliki government shows that it is capable of 
supporting its own security strategy with a political strategy 
that brings the national reconciliation into place, that shows 
that it is going to be even-handed between Sunnis and Shia--it 
is going to be much easier to make the neighbors more positive 
forces. But, it is important to get the work started with them. 
We have already begun that work with some of them, and we hope 
that other neighbors of theirs that have been less helpful, 
will try to be more helpful in the future.
    Senator Shelby. I think time's of the essence.
    Mr. Chairman, thank you for your indulgence.
    Chairman Byrd. Senator Harkin.
    Senator Harkin. Mr. Chairman, thank you.
    Madam Secretary, this is just a question that occurred to 
me. Has a decision been made at the highest levels of this 
administration, that we're going to turn over Iraq to the 
Shiites?
    Secretary Rice. No, Senator.
    Senator Harkin. Well, I just heard General Pace say that by 
the end of this year we're going to have better security and 
that we might be able to turn things over. I noticed that the 
President also has asked for 7,000 or more additional visas for 
Iraqis--are these Sunnis? Do you know that? Or can you speak to 
that?

                        IRAQI REFUGEE ADMISSIONS

    Secretary Rice. Senator, you are referring to the 7,000 
refugee----
    Senator Harkin. Yeah.
    Secretary Rice [continuing]. Positions? They will be 
processed without regard to their ethnic--or their sectarian--
identification.
    Senator Harkin. So, no decision has been made that, 
basically, after this surge, and after things quiet down, that 
basically we start withdrawing our forces, and the Shiites will 
simply run the country?

                      IRAQ NATIONAL RECONCILIATION

    Secretary Rice. Senator, we have had quite the opposite 
policy. Which is, that Iraq has to be an Iraq for all Iraqis, 
that is why we have been so insistent on national 
reconciliation efforts, on de-Ba'athification laws that would 
allow Sunnis to participate more fully in the country. We have 
had a strong Sunni outreach element in our policies--it is true 
that Shia are the majority in the country. But, we have been 
the strongest proponents--certainly in the international 
community--of a unified Iraq that is for all Iraqis.
    Senator Harkin. You made the statement, Madam Secretary, 
that al-Qaeda is the greatest threat to the U.S. homeland. How 
many--you just said that, just a few minutes ago.

                                AL-QAEDA

    Secretary Rice. Yes, as a terrorist organization, I think 
that al-Qaeda--given their record on September 11--is the 
terrorist organization that most people believe is most likely 
to try to attack us again.
    Senator Harkin. Oh, I see. You're just putting it in the 
context of a terrorist group.
    Secretary Rice. Yes.
    Senator Harkin. Not in the terms of comparing it to North 
Korea, or to China, or to Russia, that has several thousand 
nuclear-tipped missiles--you're not comparing it there, are 
you?
    Secretary Rice. Well, Senator, frankly I think--I should 
probably let Bob speak to this--but we have been in a nuclear 
standoff with Russia for a very long time. And, even though in 
an aggregate sense, I guess, it is a greater threat, the 
underlying political dynamic with Russia is one that, I think, 
you would not consider Russia the kind of threat to our 
homeland that I would consider al-Qaeda.
    Senator Harkin. Well, it just occurred to me, you know, 
that we don't even--how many members of al-Qaeda are there? Who 
is their leader, where is their headquarters? I'd ask Secretary 
Gates--how many ships do they have? How many aircraft do they 
have? How many tanks do they have? How many armored personnel 
carriers do they have? And again, here, that's what we're 
fighting them with. And it just seems to me the wrong response 
to terrorism, to be trying to fight that kind of war, when they 
don't have any missiles, or tanks, or armored personnel 
carriers, and we're throwing all of that stuff at them.
    Well, anyway, I just make that point to say that that's why 
I think that this war is the wrong war, in the wrong place, at 
the wrong time, against the wrong enemy. But, that's just my 
feeling, and I just, I just say I do not think that compared to 
the threat that Russia would be, in case it turns on a dime--
which it could--or China.
    I see Parade magazine had a list of the worst dictators in 
the world, a couple of weeks ago, number five, the head of 
China. Well, that's interesting. With all the power that they 
have. China is now putting into the ocean right now, I think, 
one nuclear sub every--every 6 weeks. Let me think about that, 
every--about every 9 weeks they're putting a new sub in the 
water, and they're going to do that over the next 9 years. You 
know, these are--these are really potential threats to our 
country.
    But, again, I have a--that's why I think, you know, we are 
wasting our resources, wasting our resources. Quite frankly, I 
think, abusing our military by throwing them at this enemy in 
Iraq, when we're going to need our military, I think, for other 
things down the road. And, I'd hate to see it undermined by 
fighting this wrong war, at the wrong place, at the wrong time, 
against the wrong enemy.
    But, let me just move on to protecting our troops. Right 
now, we have another, what, five brigades going to Iraq? Part 
of the recent escalation? It's estimated that there's a 
shortage of about 4,000 up-armor kits, called FRAG Kit Five--I 
don't know that all particularly--but estimated that over 2,000 
Humvees in urgent need of up-armoring--why? Mr. Secretary, why? 
Why are we sending all of these troops over there, and yet we 
haven't upgraded the Humvees themselves? It seems to me, you're 
talking about the IEDs, and the roadside bombs, and yet, we 
can't even provide the armor-plating for the Humvees before we 
send them over there. It seems to me the wrong order of things.
    Secretary Gates. Senator, let me ask General Pace to 
address that.

                            ARMORED VEHICLES

    General Pace. Senator, we started this war with about 214 
up-armored Humvees in the entire United States military. Since 
that time, thanks to Congress, we now have 43,000 plus, armored 
vehicles in Iraq. As we have learned--and as our industry has 
been able to provide new technologies, we have been able to 
provide that protection to our troops. We now have every single 
troop, who leaves the base in Iraq, inside of level one 
protection, armored vehicles, thanks to the funding of the 
Congress.
    And, what's happening is, as technology--our industries are 
able to produce better protective plates for the chest, as they 
provide better protective armor for the vehicles, it comes 
forward, we test it, we come to Congress for funding, you 
provide the funding, and the industry produces it as fast as 
possible.
    Senator Harkin. General, excuse me for interrupting, but 
are we short 4,000 up-armor kits, or not? For Humvees? Do we 
know that, or--if you don't know that off-hand, just let me 
know, will you? I mean, if you don't know that off the top of 
your head.
    General Pace. There are, at least, 4,000 more kits to be 
produced by industry, to be able to continue to swap out what 
used to--what yesterday was best armor--for what today is best 
armor. But, for the troops leaving the bases, every single 
troop that leaves a base in Iraq is in the very best armor we 
have today, the kind that's being produced for the rest of the 
fleet.
    Senator Harkin. So that, 2,000 Humvees--the information I 
have--are not in urgent need of up-armoring. Well, that's 
interesting to know.
    General Pace. Sir, they are--I don't want to misspeak. We 
do need those vehicles, you are funding those vehicles if you 
vote for this bill, but what I need to assure you--and 
especially to the moms and dads out there--is that PVC Pace, 
when he leaves the base, is inside the very best vehicle we 
have, thanks to your funding.
    Senator Harkin. Last question, Madam Secretary, we had--the 
Congress insisted that we have Government Accountability Office 
(GAO) auditors--Government auditors--in Iraq. The DOD has 
confirmed support for GAO's request, as of February 20, 2007, 
but the State Department continues to delay GAO's request to 
establish a continuing presence. Is the State Department 
supportive of the GAO's request to establish sustained 
oversight in Baghdad?

           GOVERNMENT ACCOUNTABILITY OFFICE PRESENCE IN IRAQ

    Secretary Rice. Senator, I am unaware of that request. We 
do have, of course, an extensive auditing operation in Iraq, 
which is the special inspector general for Iraq reconstruction, 
known as SIGIR.
    Senator Harkin. I know that.
    Secretary Rice. But, I will get back to you on the GAO.
    Senator Harkin. This is the GAO request.
    Secretary Rice. Let me----
    Senator Harkin. DOD has already acceded to it, but State 
hasn't.
    Secretary Rice. I will have to see why that is, Senator.
    Senator Harkin. I appreciate that. Thanks, Madam Secretary.
    [The information follows:]

    The Department of State welcomes the work and 
recommendations of the GAO and fully supports short, focused 
temporary duty (TDY) trips by GAO staff to Iraq. The security 
environment and resource and logistical issues in Baghdad at 
present make accommodating the GAO requests to conduct longer-
term visits a serious challenge to mission resources.
    The GAO's most recent request is for a three-month TDY 
visit by three GAO personnel, each of whom would require 
lodging, extensive support services, security, computers, and 
other administrative support, as well as the attention of our 
staff in Baghdad in responding to their requests and inquiries. 
We have spoken with our colleagues in the Iraq Planning section 
in the Office of the Secretary of Defense and they informed us 
that they have neither approved the GAO's request for a three-
month stay nor received such a request in writing.
    Given logistical constraints (primarily housing) and the 
security situation, the Embassy must carefully review all 
requests for official visits to Iraq, regardless of agency. In 
order to obtain a full understanding of the GAO's request, we 
sought additional information from the GAO to gain a better 
sense of the goals of the proposed visit and the specific 
support requirements needed.
    After a thorough review, we are prepared to approve a two-
week TDY visit by GAO staff. Embassy Baghdad advises us that 
they have made the necessary facilities and services available 
and that they can support the GAO's presence for this period, 
although this will place considerable burden on Embassy staff 
and resources.
    In addition, our ability to approve requests for future 
long-term visits will continue to be severely constrained in 
our current location in the Green Zone, as well as when the 
Embassy moves to the New Embassy Compound (NEC) later this 
year.

    Chairman Byrd. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Mr. Gates, you mentioned a little--thanks to each of you 
for your service, and your testimony. You mentioned a little 
earlier, the Baker-Hamilton report--you were a member of that 
bipartisan group, were you not?
    Secretary Gates. Up until that happy day when I was 
nominated for this job, Senator.
    Senator Alexander. But that group was a very distinguished 
group, if I'm not--it included President Reagan's former 
Attorney General Ed Meese, it included President Clinton's 
Secretary of Defense, it included two of the former President 
Bush's Secretaries of State. And based upon, I'm looking at the 
report--it looks like it met March 15, 2006--when was your last 
meeting with the group, do you recall?
    Secretary Gates. My last meeting was--well, I resigned from 
the group on November 9, or the 10th--and I think they held 
their first meeting to consider recommendations the following 
Monday.
    Senator Alexander. The following 13--so, you were able to 
meet with them in March and April and May and June and August 
and----
    Secretary Gates. I went through the whole educational 
process.
    Senator Alexander [continuing]. On to Baghdad. And, the 
question--my question is this: As I recall, the report came out 
in December, something like that. And almost immediately, it 
got put on the shelf. One Senator said, ``It's a recipe for 
defeat,'' a bunch of other Senators said, ``We need to get out 
quicker,'' and despite the fact that there were nine meetings--
one of the most distinguished groups put together in a while--9 
months of study, the report--it seemed to me to disappear. And 
I didn't hear much about it.
    But, as I've listened to the testimony today, and read the 
newspapers, it seems to me that almost everything in the report 
is on the path, at least, that seems to be consistent with what 
the administration is doing.

                         BAKER-HAMILTON REPORT

    So, I wondered if--based upon your familiarity now with the 
administration's path, and your familiarity then with the 
Baker-Hamilton report--can you say to me what the differences 
are, between the recommendations of the Baker-Hamilton report, 
and the administration's way forward in Iraq?
    Secretary Gates. Well, my copy of the report's pretty dog-
eared, and I would tell you that I think that--and I think 
Secretary Rice would confirm this--that from the time the 
report came out, members of the administration were looking to 
it, and looking to ways where we felt informed by the 
recommendations, and some of the recommendations have been put 
into place exactly as they were made. Some of the 
recommendations have been modified somewhat, and some of the 
recommendations have ended up being sequenced differently.
    But, I think that there is a substantial degree of, 
substantial embrace of the Baker-Hamilton report, and many of 
the recommendations in it--if not in exactly the same pacing, 
or exactly the same way as the Baker-Hamilton report came out.
    But I think that, first of all, when you have 79 
recommendations--it gets down to a pretty specific level of 
detail. But, I think in some important ways--in many important 
ways--that the direction the administration is headed, and I 
would say a propos of Secretary Rice's comments earlier, our 
participation in a conference involving Syria and Iran gets to 
the last major piece of Baker-Hamilton that had not been 
implemented in some measure.
    Senator Alexander. Secretary Rice, may I ask you to comment 
on that? How--there are a lot of recommendations in the Iraq 
Study Group, but the executive summary is pretty short, and 
pretty much to the point. Is it fair to say that the path that 
the administration is on is consistent with the recommendations 
of the Iraq Study Group?

                    IRAQ STUDY GROUP RECOMMENDATIONS

    Secretary Rice. I think, certainly, in large part they are 
consistent. I think that it was provided, for instance, that a 
surge of some kind might be useful, if it were targeted to 
specific requirements, specific goals. Obviously, on the 
diplomatic front, the recommendation that Iraq be put into a 
regional context, I think, is very important.
    We have not done it, always, in exactly the way that the 
recommendations would suggest. For instance, we concentrated 
first on the countries that have been most supportive of our 
policies in the Middle East, but now broadening that out to an 
international meeting. So yes, I think that, for the most part, 
they are quite consistent.
    Senator Alexander. In the executive summary, it says, ``The 
primary mission of United States forces in Iraq should evolve 
to one of supporting the Iraqi army, which would take over 
primary responsibility for combat operations by the first 
quarter of 2008. Subjected to unexpected developments, all 
combat brigades not necessary for force protection could be out 
of Iraq. At that time, U.S. combat forces in Iraq could be 
deployed only in units embedded with Iraqi forces, and rapid 
reaction, and special operation teams in training, equipping, 
advising, force protection, search and rescue, et cetera.
    It is clear that the Iraqi government will need assistance 
from the United States for some time to come--especially when 
carrying out security responsibilities. Is that path consistent 
with the path that the administration is on? Secretary Gates, 
or--it seems to me it is, and maybe this is--the President has 
a prerogative of his own tactics--but then, if that's the case 
why did the President not invite, in January, in the State of 
the Union Address, Ed Meese and Vernon Jordan, and Secretary 
Perry, and Secretary Baker to sit in the State of the Union 
Address? And say to the people of this country that this 
distinguished bipartisan group believes we have a long-term 
interest in Iraq, but we need to get our troops out of the 
combat business, and into the support business as soon as we 
can, that we need to engage diplomatically, that we may have to 
have a short-term surge, but by the first quarter of 2008, all 
combat forces not necessary for force protection could be out 
of Iraq, except for those on the border, and except for those 
going after al-Qaeda. Why wouldn't that have been a way to 
invite the country to join the President in a path forward that 
could have united us in a way forward in Iraq? Rather than 
backing into a consistent, some consistency with the Iraq Study 
Group? Can either of you speak to that?
    Secretary Gates. I don't know the answer to that question, 
Senator.
    Senator Alexander. Secretary Rice, you've been with the 
administration. I'm--it's not a----
    Secretary Rice. I understand. I understand the question.
    I think the President felt that it was important to lay out 
a path forward for the country. Obviously, many of the elements 
of that path are consistent with Baker-Hamilton. I think it's 
also the case that he took advice from a lot of other places, 
and a lot of other people, including from some key allies, and 
put together, then, a path forward.
    But, I believe--if I remember correctly, his speech from 
January in which he spoke to the country--that he did credit 
Baker-Hamilton as one of those most important sources for 
support.
    Senator Alexander. Well, he mentioned it, but my point is--
and I won't belabor it--I think he missed an opportunity to do 
what we need as much as anything else in this exercise, which 
is to increase popular support for a long-term interest of the 
United States in Iraq. And it would have to be on different--it 
would have to be on different terms.
    Thank you very much, Mr. Chairman.
    Chairman Byrd. Thank you.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman.
    To Madam Secretary, Mr. Secretary, to General Pace, we're 
glad to see you. Particularly, Mr. Gates, I want to thank you 
for just being here, and engaging in a very civil and candid 
conversation. We haven't usually had that from the Secretary of 
Defense.
    So, let me get right to the point, and I'd mentioned to you 
it earlier. It goes to the support of the troops, and the 
support of the troops--not only there--but as they come home, 
and the medical care.
    Like you, I was absolutely shocked about the Washington 
Post articles describing the squalid conditions that our out-
patients were finding themselves living in, and the broken down 
system of casework, out-patient appointment-keeping, and so on.
    I want to thank you for going, personally, to Secretary 
Harvey, and to General Cody for your immediate and swift--and I 
believe--compassionate response.
    Twenty-two thousand of our military wear Purple Hearts--
22,000. Now, that's a tribute to our acute care. I think 
everyone would, just has to give kudos from the Army medics, 
the military medics in the battlefield, all the way through the 
doctors and nurses, to Germany, back to Walter Reed, in 
Baghdad. How are you--and ward 57, that we've all visited. So, 
I believe that our acute care is absolutely working, and is 
stunning. But, there seems to be a complete breakdown when it 
comes to outpatient care, and both--and the follow-up that our 
military needs.
    Now, what it seems to be, is that our troops faced one 
enemy in Baghdad, and then a bureaucratic enemy. Maybe you 
didn't see, but over the weekend there was another Washington 
Post article called, ``Twice Wounded,'' about one of our 
military--tracing the case of our military dealing with the 
disability benefit quagmire, where the disability benefit, it 
seems to people, seem to be in an adversarial relationship with 
our soldiers.
    This week's Newsweek has a front-page feature thing called, 
``Failing Our Wounded.'' This young soldier is alive because of 
the brilliance of our acute care. But at the same time, then, 
we've not only got to save their life, but give them their life 
back. So, here goes my question.

             TIMELINE FOR IMPROVING CARE OF WOUNDED TROOPS

    First of all, I'm worried that what we saw at Walter Reed 
is only the tip of the iceberg. I was so glad you've included 
Naval Bethesda in looking at this, but could you tell us, then, 
in terms of factfinding on what is wrong with facilities, 
casework management, out-patient care, as well as the linkage 
to the VA. And then what is the timeline and remediation plan 
you're going to have at DOD, and then to us. Can you kind of 
take us through that?
    Secretary Gates. My hope is that, that this group of 
outside observers will--first of all, I----
    Senator Mikulski. And it's a good group--Togo West, and 
John Marsh--good guys.
    Secretary Gates. I asked them to look, not just at Walter 
Reed and Bethesda, but told them that they could have access to 
any other facilities that they wanted to look at.
    I'm very concerned about this, and frankly, I was quite 
explicit in my press conference at Walter Reed last Friday that 
accountability on this will not be limited to a couple of non-
commissioned officers (NCO) and a junior officer, once we know 
the facts.
    Admiral Giambastiani and I met with five soldiers to talk 
about their out-patient care, and they couldn't have been more 
complimentary about their caseworkers--these are all out-
patients----
    Senator Mikulski. If they have one.
    Secretary Gates. They couldn't be more complimentary, but 
their concern--and they talked about how many hours a day they 
worked, and 7 days a week, and so on and so forth--the problem 
is there aren't enough of them.
    So, I guess I just want to make sure that people understand 
there are a lot of dedicated people trying to make this work, 
and my concern is that they have a bureaucratic problem that 
even the administrators have to fight, not only the patients, 
but also lack the resources. And that's what I want this group 
to look at, as well as the whole process, as we indicated.
    Part of the problem we have, frankly----
    Senator Mikulski. Mr. Secretary, can I jump in?
    Secretary Gates. Yes.
    Senator Mikulski. First of all, we salute the independent 
commission, and I'm glad you're doing it. Senator Murray and I 
also sent a letter also asking that you make use of the 
inspector general in our letter to you this.
    But, as I understand it, is this report going to be done in 
45 days?
    Secretary Gates. Yes, ma'am.
    Senator Mikulski. So that we can--so it's not going to be a 
commission that goes on. So that, in 45 days, you're going to 
have the independent commission report, and then you'll also, I 
presume, be using the tools of the inspector general. Again, 
for another type of independent review, particularly on things 
like disability benefits that are so complicated. Can we expect 
that in 45 days?
    Secretary Gates. Part of the problem here, and what I 
started to say was----
    Senator Mikulski. I didn't mean to interrupt you.
    Secretary Gates. No, that's okay. But----
    Senator Mikulski. I think what the people want is a sense 
of urgency from all of us.
    Secretary Gates. I understand. And, I picked a shortened 
deadline for a purpose. But the problem is that, for example, 
in that Newsweek article, much of that Newsweek article is not 
about Walter Reed, but is about the Department of Veterans 
Affairs. And----
    Senator Mikulski. That's our whole point.
    Secretary Gates [continuing]. And the American people don't 
differentiate. The question is, how do we take care of the kids 
who are wounded in battle? And, it doesn't matter if it's the 
Department of Defense or Veterans Affairs. I need to find out, 
first of all, what those linkages are, and I need to find out 
where the weaknesses are, and we need to tackle this as a 
Government, in terms of end-to-end care for these kids--from 
the battlefield, to when they get back to their hometown, and 
their local VA Hospital, and so on. And I intend to pursue that 
with the Secretary of Veterans Affairs, and the White House.
    Senator Mikulski. What--I'm sorry.
    Secretary Gates. And we will use all of the tools available 
to us, to try and identify what the nature of the problem is, 
and--and as far as I'm concerned, and I'd wager, as far as the 
Congress is concerned, across the entire political spectrum--
resources are not an issue here. We will provide what is 
necessary to take proper care of these young men and women.
    Senator Mikulski. Well, I know my colleague will be 
following up on the issue of veterans' care, where she herself 
is a national expert.
    First of all, I want to thank you for at least having a 
timeline--I just need to finish my sentence, Mr. Chairman--
following up on the timeline that you've outlined, and so on.
    I really, also, want to thank you for the commitment to 
accountability. For too long in this war, we've seen good old 
people be blamed, while we see generals go on to get medals and 
book deals. So, I wasn't real happy seeing Kiley's comments. It 
was the typical ``cover your brass,'' we've now--the articles 
are accurate, but we've got to reset your mind. Reset our mind 
about mold, reset our mind about waiting, and sleeping, in 
lobbies, using Honduran taxi drivers to be the translators--you 
tell me what we need to reset. So, thanks to you, we're going 
to count on your leadership, but I think we need some new 
leadership. So, we look forward to working with you, and we 
appreciate the vigorous way that you've gone about this.
    Chairman Byrd. Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman.
    And thank you, all, for the long time that you're spending 
with us. I think that it is very important that we look at 
this, that we have the supplemental before us, on an expedited 
basis, because we know the Department needs the money.

                         MILITARY CONSTRUCTION

    I want to go back to the military construction, because I'm 
the ranking member--Senator Reed is the chairman now, I've been 
the chairman and the ranking member before--and I want to go 
back to the $3 billion that was taken out of the continuing 
resolution for the rest of this year, and ask you, Mr. 
Secretary, if there's a delay in the $3 billion, because I am 
trying to fashion an amendment that would get you where you 
need to go.
    I want to ask you two questions. Do you need the full $3 
billion from now until the first of the fiscal year? And 
second, if you don't have some percentage of the $3 billion, 
what does that do to the troops that are coming home from 
Germany, and possibly even Iraq, scheduled for this year--I 
understand there were 12,000 in the rotation that were to come 
home, of the roughly 70,000 that were planned to come home from 
overseas. And I guess, the third part of the question is, not 
only did we have housing needs for them, but it was the 
training constraints in overseas bases that really caused the 
Department of Defense originally to say they were going to 
bring these troops home.
    So, my question is, with the $3 billion cut that was taken 
out of the continuing resolution, how much of it do you need in 
this supplemental, and second, are we going to have a delay in 
the troops coming home from Germany, and what is that going to 
do to their training?
    Secretary Gates. Senator, rather than try and answer those 
questions off the top of my head, let me get back to the folks 
at the Department, get a specific answer for you, and get it to 
you right away.
    Senator Feinstein. All right, thank you.
    [The information follows:]

    The Department needs the full $3.1 billion request in fiscal year 
2008 for BRAC 2005 funding. BRAC and global defense posture realignment 
have a symbiotic relationship and are mutually reinforcing. The 
possible reduction in BRAC funds would have adverse impacts on force 
posture changes and our desired level of military presence overseas. 
Delays in completing BRAC and overseas implementation plans could 
result in postponing scheduled redeployments of heavy division units 
from Europe to the United States, and will impede our ability to 
realize savings, organizational and operational efficiencies of the 
force, and overall execution of our strategy to reduce legacy Cold War 
basing structures, forces, and presence.
    Examples of fiscal year 2007 Military Construction with urgent 
operational links:
  --Stationing and conversion of--1/1, 2/1, 3/1 Armor Division from 
        Germany to (Fort Bliss) and 3/1 Infantry Division (Fort Knox).
  --Stationing of the 7th Special Forces Group--Eglin AFB, FL.
  --Barracks complexes--at Forts Bliss, Benning, Riley and Shaw AFB.
  --Operations and Maintenance facilities--at Forts Carson, Knox, 
        Bliss, and Riley.
  --Training Ranges and associated facilities--at Forts Benning, Bliss, 
        and Riley.
    For Reserve Component facilities, all fiscal year 2007 Military 
Construction projects and follow-on Military Construction (2008-2013) 
are synchronized with modular force build, operational rotations, BRAC, 
and Global Defense Posture Review.

    Senator Feinstein. All right, thank you. I will rely on 
your answer to Senator Cochran that it is what you--you do need 
all or part of it----
    Secretary Gates. Absolutely.
    Senator Feinstein [continuing]. If you're going to stay on 
schedule.
    Secretary Gates. Absolutely.
    Senator Feinstein. Because we, Congress, set a 6-year 
deadline for BRAC, and now we are delaying you by not giving 
you the money that you have asked for, for the construction 
this year. I'm very concerned about it, and I hope that we can 
correct it, and I need the information about what we need to 
do.
    Secretary Gates. Thank you, ma'am.
    Senator Feinstein. The next question that I'd like to ask 
you is, something that hasn't been brought up here, but the 
North Korean agreement, Madam Secretary--I thought the fact 
that the administration stuck to the need for multilateral 
talks with North Korea--having seen that the first framework 
agreement was a disaster, because we sent the oil, and we 
didn't require the North Koreans to show that they were living 
up to their part of the agreement--it doesn't seem to me that 
the North Korean agreement that has just been announced, will 
have that possibility, because it is multilateral, and 
countries that are trading with North Korea, like China, will 
be a part of the requirement that they step up to the plate, 
and do what they say that they're going to do. And I commend 
you for that.

                   MULTILATERAL DISCUSSIONS WITH IRAN

    My question is, is that a model for Iran?
    Secretary Rice. Thank you, Senator. It actually is the 
model that we are trying to use for Iran, because the EU-3, the 
British, the Germans, and the French, plus Russia, China, and 
the United States, are, in fact, joined together in having 
offered Iran a package of incentives if they are prepared to 
suspend their enrichment and reprocessing activities, and come 
to the negotiating table. So, again, you would have a 
multilateral approach.
    And, when we have said that we are prepared to reverse 27 
years of American policy and meet with the Iranians, it is of 
course, in the context of that multilateral approach. And, I do 
believe that we are stronger when we are able to bring to the 
table a group of countries that have the right set of 
incentives--and the right set of disincentives--at their 
disposal to both bring about agreement, and then to hold a 
nation accountable to live up to the terms of those agreements.
    So, if we can get the Iranians to suspend their enrichment 
and reprocessing activities, it would indeed, put that 
negotiation also in a multilateral context.
    Senator Feinstein. We also think that some of the 
neighboring countries that seem to be concerned about Iran 
having a nuclear weapon, but have not really stepped up to the 
plate fully, could be a constructive part of any negotiating 
group. Do you see any movement toward that beginning to happen?
    Secretary Rice. Well, I think the U.N. Security Council 
Resolution 1737, of a couple of months ago, has given countries 
a basis on which to begin to act against Iranian activities 
that might support their nonproliferation activities. And, you 
are starting to see country after country, now, pass either 
legislation, or put forward policies, that implement the 
Security Council resolution. So, I think you are getting a 
broader number of countries. But the neighbors of Iran--
particularly countries in the gulf, and also in the broader 
Middle East, are very concerned about an Iranian nuclear 
weapon. I think it is why you are seeing talk about civilian 
nuclear programs in places like Egypt and Saudi Arabia. So we 
are encouraging them, if they are, indeed, concerned about a 
nuclear weapons program, to be more vigilant in the kind of 
trade and assistance that they're prepared to engage in with 
Iran.
    Senator Feinstein. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Byrd. Senator Murray.

                TREATING THE WOUNDED AND BRAIN INJURIES

    Senator Murray. Mr. Chairman, thank you.
    And, thank you to our panelists. You know, we've heard a 
lot about ``support our troops'' in debates around here. I just 
have to say that I'm one of those who voted against the war in 
Iraq, because I felt that there were too many unanswered 
questions. And today, watching all of the reports about what's 
happening, both within our VA system and of course in the last 
few weeks here, it seems to me, who has really paid the price 
of this war is our troops. They went into Iraq without the 
proper equipment and supplies; they come back and have been 
left in limbo in really deplorable conditions at Walter Reed, 
as Senator Mikulski talked about; and they get into the VA and 
get stuck in long waiting lines to get healthcare benefits and 
to see a doctor. I just think that is really a crime.
    And it's unbelievable to me, looking at this supplemental 
request, and this pie chart, that we're not asking in this 
supplemental for the additional dollars we need to take care of 
these troops. It's not just a matter of putting a little more 
paint on the wall--although, I really commend you, Secretary 
Gates, for what you've done in looking at this--but it is 
really asking the question, Are we doing everything we can, 
whether they're still in DOD, or they've been separated into 
VA, how much is this going to cost, and do we have the 
resources to do it?
    Case in point is the issue of traumatic brain injury (TBI). 
I think we're going to see that more and more as the signature 
injury of this war. Some are estimating that 10 percent of our 
returning Iraq and Afghanisan war veterans have suffered from 
traumatic brain injury. And one of the really big problems is 
that it's an unseen wound, and it's often misdiagnosed. In many 
cases, unless a service member is involved in an IED incident 
is bleeding, they're not documented as having been involved in 
an explosion. So, it's a result of that that the actual number 
of Iraq and Afghanistan war veterans with TBI could be even 
higher than many of the statistics indicate that we've seen so 
far.
    It's pretty clear to me that our system is not catching all 
of the TBI patients in this war, and Secretary Gates, I want to 
ask you this afternoon, Would you support a policy to require 
the Pentagon to keep track of where and when a service member 
is exposed to an IED incident, so we can improve screening and 
treatment for traumatic brain injury?
    Secretary Gates. I don't know about the specific 
implications of it, but certainly in principle, I would be 
supportive of that.
    Senator Murray. Well, I would like to know if you would 
follow up on that and put it in place. It's my understanding 
that the Defense and Veterans Brain Injury Center is refusing 
to give us any data on how many soldiers have actually suffered 
from brain injuries in Iraq and Afghanistan. They've been 
saying they don't want to disclose the results because it would 
put the lives of those fighting at risk, which I found pretty 
preposterous.
    But, this information was collected at taxpayer expense and 
could really help us get a handle on this problem, know how 
much we need, and how we can best treat it. I would like to get 
a commitment from you today to release that critical 
information, so we know that we are treating those men and 
women, that they don't go home not knowing that they have had 
traumatic brain injury, and that we can provide the dollars we 
need, within this supplemental or otherwise, to make sure these 
individuals are taken care of and tracked. Can you tell me that 
you will release this information?
    Secretary Gates. Well, again, I don't know the reasons why 
it hasn't been released, or the specifics. This is the first 
I've heard of it. But, I will certainly look into it, and if 
there's no compelling reason, absolutely.
    Senator Murray. When can I get an answer from you on that?
    Secretary Gates. Certainly within a week.
    Senator Murray. It's absolutely critical that we know what 
those numbers are. As I said, TBI is a signature issue of this 
war, many people are beginning to predict. And when we're 
sending those soldiers home without knowing that they've been 
injured, or without us providing the resources they need, I do 
not think we are doing our job to support the troops. So, I 
look forward to hearing from you on that, as soon as possible, 
and I appreciate that.
    I also wanted to ask about a report that was released 
Sunday, titled ``The Psychological Needs of U.S. Military 
Service Members and Their Families.'' These are members who are 
still in the DOD system, not in the VA system. And it really 
highlighted the need for mental health services for our troops 
and for our families. It was really a long list of needs. I'm 
not sure if you've seen it or not, but it was very discouraging 
to me. There was no well-disseminated approach to providing 
mental health care to service members and their families, 
there's no coordinated approach for providing care as service 
members transition from military health system into the VA, and 
about 40 percent of the slots for psychologies in the Army and 
Navy are vacant.
    This is a huge issue. I was out at Fort Lewis last week, in 
my home State, Secretary Gates, you know it well. I got an 
update on some of the programs they're doing there, I learned 
about a new program for spouses of deployed soldiers, but I 
would like to find out from you what the Department of Defense 
is doing for the whole service member, including mental health 
services for our troops and their families. And, are we 
providing enough dollars for that?
    Secretary Gates. I will get information to you.
    [The information follows:]

    The Defense and Veterans Brain Injury Center (DVBIC) has 
much of the incidence information on traumatic brain injury 
(TBI), but not all. As of the end of December 2006, 1,950 
Service members (Operation Enduring Freedom: 5 percent, 
Operation Iraqi Freedom: 95 percent) have been seen in the 
DVBIC. Of these, 67 percent were assessed as having mild TBI 
(post-concussive syndrome), 4 percent were penetrating, 10 
percent severe, and 13 percent moderate. These data do not 
include mild cases for those soldiers who never left theater.
    The Department's approach to providing mental health care 
to its beneficiaries is multifaceted with multiple points of 
entry. The Military Health System provides robust mental health 
benefits at our military treatment facilities (MTFs) and in 
partnership with civilian TRICARE network providers. 
Transitioning Service members and their families also have six 
months of TRICARE benefits when leaving military service, 
including TRICARE Prime benefits when living in a TRICARE Prime 
Service area.
    The American Psychological Association provided a paper 
expressing concerns about mental health needs of Service and 
family members and seamless transition of care to the VA. They 
also speculated upon staffing levels of psychologists. While 
this paper contains some factual errors, we share their 
interest in ensuring that the mental health needs of our 
Service members and their families are met. The assertion in 
their report that 40 percent of active duty psychologist slots 
are vacant is not correct. Individual Service branches 
continuously adjust the balance of their health care 
professional specialties to best meet their mission 
requirements with various incentive programs. In addition to 
uniformed personnel, the Department of Defense (DOD) employs 
hundreds of civilian psychologists and utilizes civilian 
network providers to meet needs beyond local MTF capacity.
    The DOD has a broad range of programs designed to sustain 
the health and well-being of each and every military and family 
member in the total military community. A continuum of care 
encompasses (1) prevention and community support services; (2) 
early intervention and prevention to reduce the incidence and 
chronicity of potential health concerns; (3) service-specific 
deployment related preventive and clinical care before, during, 
and after deployment; (4) sustained, high-quality, readily 
available clinical care along with specialized rehabilitative 
care for severe injuries or chronic illness, and transition of 
care for veterans to and from the Veterans Health 
Administration system of care; and, (5) a strong foundation of 
epidemiological, clinical, and field research.
    Services available at military installations include health 
and wellness programs, stress management, family readiness and 
community support centers, family readiness groups, ombudsmen, 
volunteer programs, legal and educational programs, and 
chaplains, among many other community programs.
    Early intervention and prevention programs include pre-
deployment education and training, suicide prevention training, 
Military OneSource, the Mental Health Self Assessment Program, 
National Depression and Alcohol Day Screening, and health 
fairs. DOD has formed a strong partnership with the VA and 
other Federal agencies and professional advocacy groups to 
provide outreach and prevention programs available to Reserve 
and National Guard members. A congressionally-mandated pilot 
study using the Internet to support Service and family members 
with resources to identify and help those with Post Traumatic 
Stress symptoms and other mental health conditions is currently 
being developed by VA and military providers, and will include 
Madigan Army Medical Center at Fort Lewis, Washington for 
initial pilot studies.
    Medical conditions that may limit or disqualify deployed 
Service members are continually assessed, while screening, 
assessment, and educational programs take place across the 
entire deployment cycle. A spectrum of prevention, stress 
control, and mental health care are available in theater. 
Expanded clarification of deployment limitations for mental 
health conditions and psychotropic medications were put into 
place in November 2006, to ensure consistent standards across 
all branches of Service.
    A post-deployment health assessment and education process 
is conducted upon returning from deployment to identify health 
concerns that might have arisen. An additional post-deployment 
health reassessment, with additional education, takes place 90 
to 180 days after deployment to identify any issues that might 
arise in that timeframe. Periodic health assessments are also 
conducted to identify any health issues a person might have 
prior to entering the pre-deployment cycle. A Mental Health 
Self-Assessment is also available 24/7, as an additional tool 
for family members and Service members.
    The Service-specific combat stress and deployment mental 
health support programs provide support tailored to the 
Service's mission and risk factors their personnel might face. 
Cross-functional planning teams bring together subject matter 
experts from across the Services, the Joint Staff, and DOD.
    The Military Health System is second to none in its ability 
to deliver timely, quality mental health and behavioral health 
care. This includes Behavioral Health in Primary Care, Mental 
Health Specialty Care, Clinical Practice Guidelines, and ready 
access to high quality, occupationally relevant primary care, 
along with model and demonstration programs designed to 
continuously learn and improve the system of care delivery. In 
addition, walk-in appointments are available in virtually all 
military mental health clinics around the world. Because no two 
individuals are exactly alike, multiple avenues of care are 
open to our military community to create a broad safety net 
that meets the preferences of the individual. DOD does not rely 
on one single method or program to care for our military 
members and their families.
    Per Section 723 of the National Defense Authorization Act 
for Fiscal Year 2006, a DOD Task Force on Mental Health has 
been examining the mental health care delivery system of the 
Department for the past 11 months. For this task force, DOD has 
funded over 30 site visits around the world and several series 
of open hearings around the country for testimonies and 
deliberations. DOD has responded to a substantive data call to 
provide detailed information about all aspects of mental health 
delivery from both DOD and Service branch levels. Veterans' 
Service Organizations have also made substantive input to this 
process over several hearings.
    The DOD Task Force on Mental Health report is due on May 
15, 2007. We will consider each of the recommendations 
seriously, including their cost implications, and respond to 
Congress no later than six months after receiving the task 
force report.

                           VETERANS BENEFITS

    Senator Murray. Well, okay, this is a huge issue to me 
because I have two Stryker brigades and a third is forming 
right now. I know those troops well. I've sat down with them 
and their families. And under the President's proposed surge 
that is now occurring, the 4-2 is going to deploy a couple of 
weeks early, and the 3-2, which was deployed in June for 1 
year, has now been extended. So, these are people in my State, 
and, I am deeply concerned that we are--both in my State and 
across the Nation--supporting our troops with real dollars. So, 
I look forward to answers from you very quickly on this.
    And while I'm talking about my Stryker brigades, I'm very 
concerned that as we extend the deployment of the 3-2, and we 
send the 4-2 over early, do we have the adequate supplies and 
equipment for those troops? Are they going to be going to 
battle without what they need?
    Secretary Gates. Let me ask General Pace to answer that 
question.
    General Pace. Senator, first if I may, thank you for your 
tenacity on all of the veterans benefits, and the way that 
you've tracked that. There is a lot going on right now on the 
mental health side, thanks to what you've already done, and 
there's more than can be done.
    Senator Murray. Well, before you answer this question, the 
huge problem is that everybody falls into this big crack 
between DOD and VA, and the transition services, and we are way 
far behind. But, I'd like your answer on the Stryker brigade.
    General Pace. Yes, ma'am. All of our troops--Stryker 
brigades, infantry brigades, regardless of how they're going 
over--will have the proper equipment. They'll be properly 
trained, they'll be properly manned, they'll be properly 
equipped before they get sent into a combat zone.
    Senator Murray. Mr. Chairman, my time is up, but I 
appreciate the responses.
    Secretary Gates, I look forward to getting your responses 
on those, thank you.
    Chairman Byrd. Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.

                    AMENDMENTS ON TROOP DEPLOYMENTS

    General Pace, I'll address this question to you. 
Congressman Murtha, who is an extremely highly regarded member 
of the Congress, I served with him, I respect him immensely--
has said that he's going to develop an amendment, and I'll 
quote what the purposes of the amendment are. Quoting 
Congressman Murtha, ``To be sent to battle, troops would have 
to have had 1 year's rest between combat tours. Soldiers in 
Iraq could not have their tours extended beyond 1 year, and the 
Pentagon's stop-loss policy, which prevents some officers from 
leaving the military when their service obligations were up, 
would end. Troops would have to be trained in counter-
insurgency and urban warfare, and sent overseas with the 
equipment they used in training.'' He said that the practical 
purposes of this are to make it impossible to continue to 
maintain the troops levels that are in Iraq today. That's my 
paraphrasing of his statement of what his purpose is, but I 
believe it's an accurate paraphrase, and the quote was accurate 
as to his proposed amendment.
    Does not that type of an amendment represent the functional 
equivalent of the Congress taking operational control over the 
theater of war?
    General Pace. Sir, I can tell you what the effect is, and 
that is, if the 1-year rest at home, the no extensions in the 
battlefield, and the no-stop loss are implemented--we have done 
our homework on that, and we know that based on those--if those 
are the rules, that instead of being able to have the 20 
brigades on the ground, in Iraq that we require, that we would 
at least--we would have somewhere between 14 brigades and 19 
brigades, at most, and that there would be gaps on the 
battlefield between the brigade that left, and then wait for 
the brigade that was coming in. So, we would have--it would 
have enormous effect on the battlefield, with regard to what's 
required, versus what's available.
    Senator Gregg. Well, if the Congress were to pass a law to 
that effect, does not that mean that Congress is managing the 
battlefield?
    General Pace. Sir, it's not my judgment to make about what 
Congress is doing or is not doing. I can simply tell you what 
the effect is. And the effect is damaging on the battlefield.
    Senator Gregg. Well, Secretary Gates, since you were a 
political appointment, maybe you could answer that question. Is 
not that--I mean, I think the answer was given, even though it 
was not specific--but, if that means that the Congress, by law, 
is limiting the number of brigades on the field of battle, and 
that you have no authority to change that, then the Congress 
has basically taken operational control over the battlefield, 
has it not?
    General Pace. Sir, I'll step up to the answer, I apologize, 
I don't mean to be obtuse. That would have very direct, 
operational effect on the battlefield.
    Senator Gregg. And, so you agree with that, Secretary 
Gates?
    Secretary Gates. Yes, sir.
    Senator Gregg. Well, then I would ask you, Secretary 
Gates--who is your Commander-in-Chief?
    Secretary Gates. The President.
    Senator Gregg. And General Pace, who is your Commander?
    General Pace. The President is, sir.
    Senator Gregg. I assume the Secretary intercedes 
occasionally?
    General Pace. You said my Commander-in-Chief, sir.
    Senator Gregg. That's correct.
    But, what would be the situation if the Congress has taken 
operational control of the battlefield, and your Commander-in-
Chief has given you a different directive?
    General Pace. Sir, as I understand it, my President has the 
authority to use the resources of the Nation to fight this 
Nation's battles. And I am not a congressional scholar, I mean 
a constitutional scholar--but it's my belief that given the 
mission, that he has the food and forage responsibilities and 
authority to resource as he needs fit to accomplish the 
mission.
    Senator Gregg. I appreciate that, and I think that's the 
correct answer. But, I think the actual answer--and the correct 
answer from your viewpoint. But, the actual answer is that we 
would have a constitutional crisis. Congress would basically be 
telling you, as General, that you could not put any more than 
14 to 19 brigades in the field. The Commander-in-Chief would 
have told you that he wanted 20, and the law would be that you 
could only use 14 to 19, and the Congress would have taken 
operational control of the battlefield, as you have reflected.
    I don't think when our Founding Fathers put this whole 
thing together, that they ever perceived that the Congress was 
going to get that involved in the day-to-day activities of a 
field commander. I'm not a general, I'm not a lieutenant 
colonel, I'm not a captain, I'm not a private who has to carry 
out that order. I just don't see that as being our 
responsibility as a Congress. I think our responsibility as a 
Congress is to assure that when there is a decision made to 
send soldiers into the field, that they will be supported with 
all of the resources that the Government can possibly give 
them, and that they need.
    I was interested, Secretary Rice, in your exchange with 
Senator Harkin, about fundamentalist Islam being the threat. I 
don't see how anyone could not perceive that fundamentalist 
Islam is the most significant threat which our Nation faces, 
and potentially has ever faced, should they get their hands on 
a nuclear weapon, or a weapon of biological destruction. 
Because they've shown that they have no reservation about 
attacking our homeland. They're not organized in the sense of a 
nation-state, but they are certainly organized in the sense of 
a religious philosophy. It is fanatical. And, throughout time, 
we've seen that fanatical religious philosophies can reap huge, 
huge chaos and destruction.
    So, I guess I'd just like to hear your thoughts on that, 
again. Because I just found it sort of astonishing that we 
would not perceive them as our number one threat. That is, our 
number one threat as a Nation.

                 AL-QAEDA, GREATEST THREAT TO HOMELAND

    Secretary Rice. Well, Senator, I made the statement that I 
think al-Qaeda is the greatest threat to our homeland. It is a 
terrorist organization, it does not have armies, it does not 
have airplanes, but I think we experienced on September 11 what 
damage it can do. In fact, it is the most devastating attack on 
our territories since Pearl Harbor--really, since 1815, the 
most devastating attack on the mainland. So with all due 
respect--I'm sorry, yes?
    Senator Gregg. My time's running out, but what would you 
think if they had their hands--if they got possession of a 
nuclear weapon, or a weapon of mass destruction, such as a 
chemical bomb. Do you think they would use it on, in the United 
States?
    Secretary Rice. I think they would use it in the United 
States, and I think you would have a catastrophe of many, many, 
many greater times than September 11 using a weapon of mass 
destruction. I think there is no doubt that al-Qaeda has tried 
to get them. They continue to try to get them, and it is that 
nexus of terrorism and weapons of mass destruction that would 
be an enormous threat to our homeland.
    Senator Gregg. And is not the source of their power mostly 
residing in the Middle East?
    Secretary Rice. Yes, Senator. My point was that--we can--we 
are trying to do a lot to defend the homeland. Homeland 
Security is doing a great deal, but, in fact, because we have 
to be right 100 percent of the time, we have to go on the 
offense and the circumstances that produce them are in the 
Middle East. That is where al-Qaeda was born, and that has to 
be dealt with, if we are not to face a constant terrorist 
threat well into the lives of our children and grandchildren.
    Senator Gregg. Thank you, thank you Mr. Chairman.
    Chairman Byrd. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Secretary Rice, let me respond, just for the record, to two 
points that you made.
    First, I think there's ample evidence from the inspector 
general's reports from at least a dozen hearings that have been 
held--with both reconstruction funding, the RIO contracts and 
LOGCAP projects or contracts, that there is some of the 
greatest waste, fraud, and abuse that we have ever seen in the 
history of this country. And I would refer you to the highest, 
highest-ranking contract official in the U.S. Corps of 
Engineers, which handled the RIO and the LOGCAP contracts. 
Here's what she says, ``Publicly, I can unequivocally state 
that the abuse related to the contracts rewarded to KBR 
represents the most blatant, improper contract abuse I have 
witnessed during the course of my professional career.'' That 
doesn't deal with reconstruction. That deals RIO and LOGCAP, 
but I would refer you to inspector general's reports, and you 
properly pointed to the Parson's contract and others.
    All I can say to you is, I think there is rampant waste, 
fraud, and abuse in all three areas. And I think the evidence 
is substantial.
    One additional point, if I might, one of my colleagues 
asked you about the sectarian violence. You said that is just 
one of the areas of violence and you quickly referenced to al-
Qaeda. The national intelligence estimate just released, points 
out that the sectarian violence is the dominant violence in 
Iraq. And I don't, I don't know what you intended with that; 
but clearly the national intelligence estimate speaks to this, 
and the dominant violence in Iraq is sectarian violence.

               MANAGEMENT OF IRAQ RECONSTRUCTION FUNDING

    Secretary Rice. Senator, if I may respond on both.
    First of all, I referenced the Parson's circumstance, and 
that obviously was a specific contract. I was asked about the 
reconstruction funds that were provided.
    Senator Dorgan. I understand. I made that point.
    Secretary Rice. And KBR, RIO and LOGCAP are not a part of 
reconstruction funding. I talked myself with the SIGIR head, 
and while there are certainly questions about whether or not we 
have met the targets and goals that we had intended. I do not 
think that there are arguments about widespread abuse in the 
IRRF program, but I will get a more formal answer for the 
Senator.
    [The information follows:]

    This is in response to the questions you raised with 
Secretary Rice during her testimony before the Senate 
Subcommittee on Appropriations and Foreign Operations on 
February 27 concerning the KBR RIO and LOGCAP contracts, as 
well as the Parsons contract to construct primary health care 
centers throughout Iraq.
    As Secretary Rice stated in her testimony, the KBR RIO and 
LOGCAP contracts were not funded with Iraq Relief and 
Reconstruction Fund (IRRF) monies. These contracts were issued 
during the tenure of the Coalition Provisional Authority. The 
head of the Special Inspector General for Iraq Reconstruction 
(SIGIR), Stuart Bowen, has repeatedly highlighted in testimony 
and public statements that fraud and abuse have played a very 
small role in American reconstruction efforts in Iraq under the 
IRRF program.
    Several audits have been conducted on the KBR RIO contract, 
including audits by SIGIR, the Defense Contracting Audit Agency 
and the International Audit and Monitoring Board for Iraq 
(IAMB). It is our understanding that the Department of Defense 
has resolved most, if not all, of the questioned costs in this 
contract and has reduced the amount paid to KBR. For specific 
information regarding the KBR RIO or LOGCAP contracts, we would 
suggest you contact the Department of Defense, which is better 
placed to provide detailed information.

                        IRAQ SECTARIAN VIOLENCE

    Secretary Rice. I have to say that as to the sectarian 
violence, while it is true, as Secretary Gates has said, that 
we have in effect, four different sources of violence--I think 
we have to remember that the tremendous spike in sectarian 
violence came as the result of a deliberate strategy by al-
Qaeda to do precisely that.
    The Golden Mosque bombing, which most believe was inspired 
by al-Qaeda, the Zarqawi e-mails that we have found, in which 
he said that he intended to set off civil conflict between Shia 
and Sunnis. I think we have to recognize that there is even an 
al-Qaeda hand in the sectarian violence, particularly from the 
time of the bombing of the Samarra Mosque.
    Senator Dorgan. Well, Madam Secretary, the national 
intelligence estimate is pretty clear about what kind of 
violence exists in Iraq, the dominant violence is sectarian. 
And the transference to al-Qaeda with respect, I understand the 
attempt, but I don't believe that comports with the national 
intelligence estimate.
    I want to mention two additional points if I may. Well, I 
have very limited time, I'm sorry. The issue of al-Qaeda, the 
top intelligence expert in the country said they continued--he 
said, as you suggested Madam Secretary, it's the terrorist 
organization that poses ``the greatest threat to U.S. 
interests, including to our homeland. They continue to 
maintain,'' I'm quoting now, ``active connections and 
relationships that radiate outward from their leader's secure 
hideout in Pakistan.'' One wonders if we had soldiers to surge 
somewhere, if we would not have wanted to surge and eliminate 
the leadership of al-Qaeda, Osama bin Laden and others, who 
have boasted they are the ones that murdered Americans. They 
have now been apparently in the hills of Pakistan for some 5 
years. And whatever surge exists apparently doesn't exist with 
respect to the leadership of al-Qaeda that is so-called, ``the 
greatest threat to U.S. interests.''

                          FAILING OUR WOUNDED

    And let me make one final point, and then I'll be happy to 
have you respond. And let me thank all of you for being here 
today to respond to questions. But I hold up Newsweek today, it 
says, ``Failing Our Wounded.'' Inside it says, ``Forgotten 
Heroes.'' It's a picture of a young woman with no legs. This is 
an embarrassment to this country, and Mr. Secretary this is 
about resources--it's not about resources. The fact is, I asked 
the same questions of your predecessor, at a similar hearing, 
with respect to the urgent supplemental. This supplemental 
comes to us--there's not a penny in it as I understand it--not 
a penny of it, in this supplemental dealing with veteran's 
issues.
    And it's not just about a building on the Walter Reed 
grounds. This story, and the stories many others of us have 
heard repeatedly, is about the lack of resources in the whole 
system.
    A mother called me last week. She said, ``My son came home 
from Iraq. He was substance dependant. He was lying under his 
covers at night shaking with nightmares, all kinds of severe 
emotional problems and we couldn't get help for him at the VA 
Center. We went to private psychiatrists. It's been 1 year and 
he's much, much better now.'' And last week she said he got his 
alert notice for a June call-up to go back to Iraq.
    The point is, it's a big, big issue. And this sort of 
story, I think, is an embarrassment to the entire country. And 
I hope--I hope very much--that we will not pass a supplemental 
out of this Congress without including funding for these folks. 
Yeah, they're veterans, but they're also soldiers. And there 
should be a continuum of care, whether they're in the active 
duty, at Walter Reed, or transferred to some other facility. 
So, I wanted to say that because I feel very strongly. It needs 
to be said. I'm know--I'm not suggesting you don't feel the 
same way and feel the same passion about this. That's not my 
suggestion. I just think we have to publicly describe what is 
happening here, and take every step that's necessary to fix it, 
and fix it now.
    Secretary Gates. Senator, I couldn't agree with you more. 
And when I referred to resources not being a problem, what I 
meant was that we will find the resources, as we diagnose 
what's wrong with this system, and what has led to some of 
these stories--both in the Department of Defense and, 
apparently, in Veterans Affairs. I think there's a mutual 
commitment on the part of the administration and the Congress 
to do what's right by these young people.
    Senator Dorgan. Will you request the funding? Will you ask 
the administration to request the funding, whether it's active 
duty or veteran's needs?
    Secretary Gates. Once we've identified the problem, if we 
don't have enough money, yes sir.
    Secretary Rice. Senator----
    Senator Dorgan. Madam Secretary, I'm sorry I interrupted 
you.
    Secretary Rice. That is quite all right, Senator.
    No, first of all, just on the sectarian violence. 
Obviously, the sectarian violence is a huge problem in Iraq, 
and particularly in Baghdad, and it is the reason that the 
President focused his strategy on trying to help the Iraqis in 
Baghdad.
    But I think we should not lose sight of the fact that in 
provinces like Diyala and Anbar, we are talking about al-Qaeda, 
and a combination of insurgents and al-Qaeda, that is really 
the source of much of the violence against our forces. So I 
just want to be clear.
    It is not that I am arguing that sectarian violence is not 
a major--even the major--problem, but we do have a significant 
al-Qaeda problem, and there was union of those problems in al-
Qaeda's determination to try and bring about more sectarian 
violence.
    Senator Dorgan. And was there any discussion anywhere in 
the administration about surging against the al-Qaeda 
leadership and perhaps eliminating the al-Qaeda leadership?

                    ELIMINATING AL-QAEDA LEADERSHIP

    Secretary Rice. Well, perhaps General Pace should speak to 
this, Senator. But I am rather dubious that the surge of 
American forces into the federally administered tribal areas 
(FATA) of Pakistan, those tough mountains of places like North 
Waziristan, would have been a workable strategy.

                          ATTACK INTO PAKISTAN

    General Pace. Sir, one of the most difficult problems we 
face in this war is, How do you attack an enemy inside of a 
country, with which you're not at war?
    Chairman Byrd. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Hello to all three of you, and since I'm getting tired I 
wonder how you feel. So, that probably means that I should 
hurry up.
    Let me ask any of you, or each of you, or all of you: I as 
one Senator have decided that I support what the President has 
decided he would try to do under the leadership of the new 
General that was confirmed by the Senate, overwhelmingly.
    Now, since we are going to be involved in something 
different--in some respects different we were told by the 
President, and by some of you on various occasions, that this 
change would be evidenced by certain things happening that 
weren't happening before, that could be measured and reported 
to the American people. Some of those were called benchmarks. 
Some of those events were given other names. This indicates 
that you would, in your respective capacities as leaders, see 
to it that information was put together in such a way that we 
the Congress and the American people--could discern that things 
were happening that are prompted by this new approach, so we 
can see if the new plan has a chance of succeeding. Am I all 
right so far? Is that an all right statement? And General Pace 
that's an all right statement? Only you and I know your real 
name, right?
    General Pace. It is, sir.
    Senator Domenici. Yes.
    Now, could I ask, let's use the word ``benchmark'' for a 
minute. Iraq is expected to spend $10 billion of its money in 
reconstruction efforts, right? I note for the record everyone 
said yes. Now, who's in charge, and in what manner will this 
$10 billion in reconstruction efforts be monitored, so that in 
4 months, the chairman might call a meeting and say, ``We want 
to find out what happened to the benchmark of $10 billion.'' 
Tell us, how are we going to do that?

                    IRAQ RECONSTRUCTION COORDINATOR

    Secretary Rice. Yes, Senator, that is the responsibility of 
the Embassy, and we have a person out there now Ambassador Tim 
Carney--whose responsibility it is to work with the Iraqis on 
budget execution, and making certain that $10 billion is spent 
for projects that are supportive of the general goals that we 
and the Iraqis have agreed on.
    Senator Domenici. Now, Madam Secretary, I take it then that 
in a round about way in terms of hierarchal responsibility, you 
are the one responsible. Is that correct? It's yours.
    Secretary Rice. It is mine. It is my responsibility.
    Senator Domenici. Sure. Now, ma'am let me ask--are you 
serious enough about this that you are truly having somebody do 
it, so that in 3 months we won't say, ``Oh, nobody knew how to 
do it,'' but rather you'd be able to tell us if it fell apart 
or it's ongoing.
    Secretary Rice. Senator, I will track it very closely. It 
requires us to help the Iraqis develop the capability to spend 
the money. The problem has been their inability--just in terms 
of budget execution--to spend the money. But they have passed 
the budget, they have made the allocations, we have a person 
out there who is working with them. We want to help them get 
the money to the right places, including to the provinces, and 
we will be able to report to you on how it is going as they 
move along.
    Senator Domenici. Now ma'am, and any of the others of you, 
let me say--since there is a chance that this change might 
work, I want to say to you that I think it's very, very 
important that whatever commitments were made about 
differentiating this new thrust that you truly try to do them, 
to mark them, to make sure that if they're not working, that it 
be noted early and often. Do you all feel that way? Is it 
important to you that the things that are supposed to be 
different, and handled differently, are really going to be 
watched? And is the military going to be involved in that 
General?

                           IRAQI COMMITMENTS

    General Pace. Sure, we will be. And, in fact, the briefings 
that will begin this week on Thursday to the full Senate and to 
the full House, closed session, will be focused on the 
commitments that have been made by the Iraqis, the commitments 
that have been made by us. Where are we? What steps have been 
taken? What have the effects of those steps been? And what's 
going to happen next?
    Senator Domenici. I got it. Thank you very much. Thank you 
Mr. Chairman.
    Chairman Byrd. Thank you. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Madam Secretary, you were right to cite the talent and 
courage of many individual Foreign Service offices. I had the 
occasion to run into John Weston in Fallujah and he was a one-
man band, but that was the problem. He was the only person out 
there, really. And, institutionally, the State Department many 
times, I feel, have overpromised and underperformed. Let's take 
the PRTs, for example.
    You said that you achieved your goal of 10 PRTs. In 
November 2005, you announced a goal of 15 PRTs. What happened 
to the five PRTs, and how confident can we be that this new 
goal will be achieved?

                  IRAQ PROVINCIAL RECONSTRUCTION TEAMS

    Secretary Rice. Well, Senator, we did decide to take a hard 
look at how we could roll the PRTs out. I think we said up to 
15 PRTs, I believe.
    The big problem in many of these cases, is to provide 
adequate security for people in these very difficult areas in 
conjunction with the military. So we and the military sat down 
and began to roll out these PRTs one at a time. We finally 
settled on 10, I think 7 American--3 that are led by others--
and we now believe that 20 is the appropriate number.
    We will have all of the State Department people that we 
need for those PRTs available for duty in those 10 new PRTs. We 
have identified them, we are ready to go.
    Senator Reed. So you have 10 PRTs that are fully staffed?
    Secretary Rice. Ten PRTs that are operational and staffed.
    Senator Reed. Operational and staffed. You hope to have 10 
more?
    Secretary Rice. That is correct.
    Senator Reed. Is that a hope, or a commitment?
    Secretary Rice. No, we are committed to having 10 more. We 
have identified the State Department personnel who will lead 
those PRTs. The goal now is to identify other kinds of 
specialists who need to populate those PRTs. We do not have 
those specialties at State. We will have to get them from other 
Government agencies, or from the civilian population at large.
    Senator Reed. Thank you, Madam Secretary.
    But, I think what I'm hearing is you've got State 
Department people identified, but you don't have full teams 
identified.
    And let me just raise another issue. A few weeks ago when 
it was announced, the surge, you've indicated to the Department 
of Defense that 40 percent of the 300 State Department 
positions that were to be added would have to be filled by 
military personnel?

                           IRAQ PRT STAFFING

    Secretary Rice. That is because those are not State 
Department positions in the sense that I have the personnel to 
fill them. The State Department was asked to recruit for the 
positions from the civilian population. Senator, it is an 
extremely important distinction, because we have filled the 
positions that State has the expertise to fill.
    Senator Reed. Let me just step back now. I think what 
you're saying, is that either you're the recruiting agent, but 
essentially have not yet mobilized the full national authority 
to go and staff these teams.
    Secretary Rice. What I need, Senator, is the money.
    Senator Reed. Is the money in this budget?
    Secretary Rice. The money is requested in this 
supplemental. I can then let the contract for civilian 
personnel, who are not in the U.S. Government. We have 
identified--we are in the process right now of identifying--
those people and recruiting them. But for reasons having to do 
with the law, I cannot sign the contract until I have the 
money. So if we can pass the money in this supplemental we will 
be able to recruit the appropriate civilian personnel to go out 
to the field.
    Senator Reed. So these will not be Federal employees, they 
will be contractors.
    Secretary Rice. Some of them will be Federal employees. We 
will get some from U.S. domestic agencies, and we have asked 
that we have the capacity to reimburse, for instance, the 
United States Department of Agriculture, or the Justice 
Department, or Homeland Security.
    Senator Reed. Have you previously asked for this type of 
money, going back to last year?
    Secretary Rice. We did it on a nonreimbursable basis 
before. We believe that given the numbers that we needed, it 
was better to do it on a reimbursable basis, and so if I can 
get that authority and that money we can do this. But Senator I 
just----
    Senator Reed. Madam Secretary, my time is very short.
    Mr. Secretary, have you been tasked to provide personnel 
to, under the auspices of the State Department for these PRT 
teams?
    Secretary Gates. Yes, sir. On a temporary basis I think 
we've identified 129 people who will participate in the PRTs.
    Senator Reed. So they'll do that. And that takes away from 
your ability--I presume these are civil affairs officers, 
translators, people with some expertise.
    Secretary Gates. Yes, sir.
    Senator Reed. And that takes away your ability to staff 
your units that are going into these neighborhoods in small 
unit groups, that need essentially the same type of personnel.
    And I would add in my discussion with General Schoomaker, 
when he came up--he's the, generating these forces--he was not 
able to give us assurance that he could fulfill the civil 
affairs slots, and the translator slots.

                          RETIREES/VOLUNTEERS

    General Pace. Sir, that's true. We are looking to the 
retired community, and a Reserve volunteers, first. And, if 
we're not able to fill those 129 spots from the retirees, and 
the volunteer Reserve, and Guard, then we will have to go to 
active duty forces, but we are committed to filling these 
spots.
    Senator Reed. Well, it just seems to me that this is more 
of the same, and there's reasons about security and contracting 
and money. But we have known for several years that if we 
didn't get these PRT teams in the field, not just 10, but 
upwards of 18 or 20, that the likelihood this whole mission 
would fail. And we're still messing around, trying to find 
people to fill these teams. Thank you.
    Chairman Byrd. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I have to remind myself--I think it's maybe not a bad idea 
to remind all of us--that we do deal with a voluntary military. 
And in light of that, General Pace, I'd like to thank you, and 
the men and women in our armed forces, for being willing to put 
their lives on the line, and fight for freedom, and the great 
job that they're doing throughout the world.
    I would also like to thank Secretary Gates and Secretary 
Rice. I think you're trying to do a good job, and I appreciate 
your efforts, it can't be easy in these times.
    Having said that, I want to direct my first question to 
Secretary Rice. We had some discussion earlier on, about the 
negotiations that were going on in the area. We talked about 
Syria and Iran negotiating with Iraq and the role that you're 
playing with that. I read in--I think it was this mornings 
clips, or maybe yesterday--where there are some negotiations 
going on between the Kurds in Iraq, and Turkey. Can you 
elaborate on where that's taking us, and what that's about?

                    TURKEY-IRAQ SECURITY DISCUSSIONS

    Secretary Rice. Yes, Senator. That is concerning the 
existence of an organization that we list as a terrorist 
organization, the PKK, which has operated on the border between 
Turkey and the Kurdish ports of Iraq, and is responsible for 
attacks into Turkey.
    We developed with the Turks a trilateral grouping, a 
trilateral commission, to try and deal with the problem of the 
PKK. Because, obviously we do not want--and the Iraqi 
government does not want--attacks coming from the territory of 
Iraq into Turkey.
    So when we speak of negotiations, it is really discussions 
between the Kurds and the Turks, and the Iraqi government. The 
United States is facilitating these discussions, and I have 
retired General Ralston as an envoy to do this, to try and 
mitigate those circumstances and try to--to the degree that we 
can--diminish the ability of the PKK to attack Turkish 
territory.
    Senator Allard. Thank you.
    I've had an opportunity to have some very candid 
conversations with men and women who've come back from Iraq. 
They returned to Fort Carson, in Colorado, and they relate to 
me that they feel like they're making a difference in the 
country. They talk about building up the infrastructure, the 
relationship with Iraqis and everything. But if they seem to 
have some hesitancy, that has to be in the area of how invested 
the Iraqi forces are in making their own government work. And I 
was wondering maybe, if Secretary Gates, or maybe General Pace, 
or both of you, could help me respond to that concern that's 
raised by those soldiers.

                       IRAQI BATTLEFIELD SUCCESS

    General Pace. Sir, I think it's a valid concern that is 
getting better. I think that many Iraqi youth are hedging their 
bet--had been hedging their bet--as far as whose going to come 
out on top on this: the local militias, or the central 
government, or some other entity. But, as the training of the 
units has improved, and as they have had success on the 
battlefield--the Iraqi army, especially--has been getting much 
better, both in performance and in retention, and in their 
capacity to control operations in the field.
    So, I do understand that there are still some units in the 
Iraqi army that are not as proficient on the battlefield as we 
would like, but about 92 of their battalions now are either in 
the lead, or operating on their own. Another 27 are operating 
side by side with us, and about 19 or so are in the building 
phase. So, they are getting better, but they do need more 
assistance.
    Secretary Gates. Senator, I would just add, on my trips to 
Iraq, I generally meet with our troops and have breakfast. And 
on my first trip, I met with some of our sergeants and others 
who are imbedded with the Iraqis. And they basically made the 
comment that General Pace made a little earlier, that success 
breeds success. And that, when these guys go out and fight with 
the Americans and they're successful, then all of a sudden they 
carry themselves a little bit differently. They get some pride, 
and they're more aggressive next time. And they begin to even 
want to look like the American soldiers, with the wraparound 
sunglasses and things like that--and they want to emulate our 
soldiers as they go through this experience with them. So, I 
think that this imbedding and this support role has the 
opportunity to accelerate that process of the Iraqi forces 
gaining confidence and capability, as well.
    Senator Allard. One other area that I want to approach 
during my time here. In the last few weeks--or at least the 
last week--there's been some discussion in the papers about 
limited use of IEDs combined with chlorine gas for a makeshift 
chemical weapon. And this, apparently, is being prepared or has 
been used against some Iraqi civilians and our troops. Are our 
men and women prepared and equipped for a much wider spread of 
such devices, if it were to occur?
    General Pace. Sir, we do have the protective equipment we 
need. We need to make sure that we learn the lessons from those 
several attacks that have taken place, that we learn the 
enemy's tactics and techniques and make sure that our folks on 
the ground know about it, to include those who are training up 
right now to go. But we do have the protective equipment. We 
need to make sure we share that training.
    Senator Allard. My time's expired. I just have one more 
question on Basrah. May I ask the question, Mr. Chairman?
    Chairman Byrd. Your time has expired.
    Senator Allard. I'll--we'll send you a question on Basrah. 
Thank you.
    Chairman Byrd. Senator Kohl.
    Senator Kohl. Thank you, Senator Byrd.
    Secretary Gates, Secretary Rice, and General Pace--I 
believe everyone agrees that Iraq is an enormous problem for us 
and that by anyone's reckoning, it's been badly mismanaged. 
Republicans and Democrats alike are desperately searching for a 
way out that leaves behind a stable Iraq and allows the men and 
women in our military--who have done a magnificent job, and 
been stretched to the breaking point--to come home.
    I also think we agree that the answer to our problems can 
not be found down the barrel of a gun. Changes that need to be 
made are more political than military. Our hopes increasingly 
focus on our diplomatic efforts. Iraq's neighbors must be more 
invested in quelling the country's violence, and Iraqis 
themselves need to believe in their government, and to take 
charge of their own security.

                         ALTERNATIVE STRATEGIES

    Secretary Gates, a few weeks ago you said that if the surge 
did not work, that you were considering ``alternatives.'' What 
concerns me about that statement is that it implies that there 
will be no end to our commitment. I'm worried that there is no 
point at which this administration would look at the situation 
in Iraq and say that it can not continue the way it is. Who 
knows, the administration could change strategies several more 
times. Is that right? Are you proposing an open-ended 
commitment with constantly changing strategies if necessary? 
And if not, Secretary Gates, when do we run out of 
``alternatives?''
    Secretary Gates. Senator, I think the President, in 
December, essentially said, it can't go on like it is. And, I 
think there was general agreement--both within the 
administration, and here on the Hill--that whatever, that the 
strategy we were following at the time wasn't working.
    The dilemma we all face is, we all would like to bring our 
troops home, but I think a very large preponderance of opinion 
also is, that if we leave Iraq in chaos that we are just 
storing up even worse problems for ourselves in the future--not 
only in the region--but more broadly.
    So, my view is that we will know within a few months 
whether or not this strategy is working. As I say, the early 
signs are somewhat encouraging. That is certainly the message 
we're getting out of the field.
    So, I would say to you--No, it clearly can't go on forever. 
The President himself has said that the patience of the 
American people is limited. And so, I think that you take those 
things into account when--if down the road this hasn't worked--
you begin to think about the alternatives. The alternatives 
clearly involve, Where do we go next? In terms of both the 
limited patience of the American people to continue dealing 
with this, but also the imperative need in terms of national 
security of the United States, that would not leave Iraq in 
chaos.
    Senator Kohl. Okay, I understand what you're saying, and I 
understand how difficult it is to be precise in a situation 
that is so imprecise.

                 BAKER-HAMILTON REPORT RECOMMENDATIONS

    But I would like to ask you another question. Secretary 
Gates, you were a member of the Iraq Study Council--the Iraq 
Study Group, I'm sorry--almost until the very end. And their 
report recommended moving away from the security mission in 
Iraq, and toward a training and support role, number one. 
Number two, engaging Iran and Syria on Iraq; and number three, 
the group believed that we could withdraw most of our troops by 
2008.
    You were a member of that group until almost the very end. 
And that was a unanimously signed report. You no longer were 
there when that report was signed. How do you reconcile the 
recommendations of the Iraq Study Group with the strategy the 
administration is pursuing now? And where do you stand on the 
recommendations in that report--which were as I say, 
unanimously signed--but you had left by that time.
    Secretary Gates. Yes, sir. I had, I actually left just 
prior to the first meeting that they had when they began to 
come to their conclusions, or began to draw their conclusions.
    First of all, I would note that Secretary Rice announced 
earlier in the hearing that there will be a regional conference 
involving Iran and Syria and so on, and so the diplomatic 
strategy proposed by the Baker-Hamilton Group, I think, is in 
train.
    The study also provided that there were circumstances under 
which a surge of troops might be useful, and particularly if 
there was a specific mission and frankly this was the attitude 
of our senior officers. If there is a specific mission that 
would warrant having some additional troops, then we're willing 
to take that approach--then they were willing to entertain that 
possibility.
    We've talked earlier in the hearing about the fact that--
Senator Alexander asked a number of questions relating to 
this--that in some very important respects, the 
administration's policy at this point embraces the principal 
recommendations of the Baker-Hamilton Group.
    Senator Kohl. Thank you, Senator Byrd.
    Chairman Byrd. Thank you, Senator.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Secretary Rice, Secretary Gates, General Pace, thank you 
for your great service. I know it's a difficult time and it's a 
difficult topic. And Secretary Gates, you may be, desire us to 
be back at Texas A&M with a good basketball team and all, now 
with the difficulties you're facing here.
    Secretary Gates. Lousy timing, Senator.
    Senator Brownback. Let me ask you a couple of questions on 
a series of issues, if I could.

                       ENCOURAGING SIGNS IN IRAQ

    First, General Pace--Secretary Gates was talking about 
encouraging signs from the initial surge report, and I was 
looking at a Stars and Stripes article today. What can you 
identify as--are there some things that you look at? I know 
we're only days into this, but that look at encouraging signs?
    Secretary Gates. Several, sir. And I will just tick them 
off as they come to my head.
    One, Lieutenant General Aboud, who was selected by Prime 
Minister Maliki, has been a very balanced leader, and all of 
his leaders below him have been selected by a team of Iraqi and 
U.S. leaders who have ensured that they will be balanced in 
their approach to getting criminals off the streets, regardless 
of whether they're Sunni, Shia or Kurd.
    Next, the Iraqi units that were promised to be brought to 
the capital, three brigades consisting of nine battalions, each 
battalion being 500 or 600 troops. Seven of those brigades 
have, in fact, arrived. The next two will arrive over the next 
10 days to 2 weeks. There's been a little bit of mix in that, 
with regard to one unit showed up as low as 45 percent manning. 
Several showed up in the 70s, but the last two are almost 90 
percent in their manning. So, the Iraqi government has been 
learning--as they've been moving their people for the very 
first time from one part of the Nation to another--on how to do 
that, and how to make sure they show up in whole cloth.
    The first operations against Sunnis was done by the Iraqi 
army, and was done with the support of the coalition forces. 
The first operations against Shia was done by the Iraqi army, 
supported by the Iraqi police, and supported by the coalition. 
And so the operations that have taken place so far have been 
balanced in approach to the problem. They have been done very 
well. They have been done by Iraqis in the lead, and to this 
point in time--all the promises that were made by the Iraqi 
government have been fulfilled.
    Senator Brownback. Good. Although you read some of the news 
accounts and it looks like the violence levels are still, and 
they are quite high, but I'm glad to hear that you tick off a 
series of things. Because--while I've not been supportive of 
the surge--I hope it goes well. And we need this to succeed as 
much as possible.
    Secretary Rice, on President Musharraf's meeting with the 
Vice President yesterday--I was in Afghanistan and Pakistan 
about 6 weeks ago, and it does seem like, I mean, this is all--
not all, but mostly--coming from the Pakistani side. And his 
agreement with the leaders in that region, the warlords, not to 
go in. Are we going to have some luck with--or I shouldn't say 
luck--but are we going to have some success in getting this 
dealt with, on that Pakistani frontier area? From what you 
heard back from the meetings yesterday with the Vice President?

             PAKISTAN'S FEDERALLY ADMINISTERED TRIBAL AREA

    Secretary Rice. Well, I have--the Vice President will come 
back, I think, and report to the President on what he learned. 
But I do think that we need to remember that the Pakistanis 
have a very strong interest also in not having extremism breed 
in the federally administered tribal area. After all, al-Qaeda 
has had a couple of attempts on President Musharraf's life, and 
so, I am certain that the cooperation remains good.
    The FATA is very, very tough and we do have some concerns 
about the plan that was put into place to which you are 
referring, Senator, and about how it is working. I believe we--
in part Secretary Gates, who may want to speak to this because 
he was out in Pakistan, and in part Vice President Cheney, who 
went out to follow up--believe that we have the commitment of 
the Pakistanis to fight these extremists because they threaten 
Pakistan, as well.
    We have had some problems with the particular agreement 
that was signed between the Pakistani government and some of 
the tribal leaders and we have been working our way through 
ways to cooperate with the Pakistanis to make sure that does 
not become a terrorist safe haven.
    Senator Brownback. Well, we need to have that success.
    And two other things I want to mention very quickly. First, 
thank you on the issue of Sudan and what you put in the 
supplemental. I think that is critical. It's a broad base of 
support within the Congress. Food and support for the African 
Union troops, I think, is key for us to get any semblance of 
this under control from the genocide that it has been and 
continues to be. So, thank you for putting that in.
    And finally, I was in Ethiopia, as well, on this same trip, 
and I was pleased to see their effort of engaging in the war on 
terrorism in Somalia, in an area that has been a very difficult 
spot. I want to commend the troops, General Pace for, as far as 
any sort of support that we gave to the Ethiopians, and I hope 
we can support both Ethiopia and Somalia in important ways--
probably humanitarian ways--to help the rebuild so that this 
festering area doesn't continue, and I would just make that as 
a comment.
    Chairman Byrd. Senator Lautenberg.

                      BONUSES FOR DEPLOYED TROOPS

    Senator Lautenberg. Thank you, Mr. Chairman.
    And first, I want to note my admiration and respect for 
each one of you even though there may be some policy 
differences. I know how hard you work and how able each one of 
you is. And I would ask a favor of you, and that is forgive me 
if I ask you to be as brief as possible with your answers.
    And I will start with this, Secretary Gates, the families 
of reservists, in particular, are in financial distress with 
these long deployments that they're undergoing. Now, there are 
bonuses that are paid that amount to, I think, about 7.5 
percent over their base salary when they're in the combat 
environment. Is there something we could do to--that we might 
double or triple combat pay for our people serving in Iraq and 
Afghanistan? I don't know, did you miss the question?
    Secretary Gates. No, I got it. I was just confirming my 
recollection with General Pace. I'll double check this. But 
first of all, I think that we pay soldiers who are extended an 
extra $1,000 a month when they go beyond the length of their 
tour.
    Senator Lautenberg. What is a tour length?
    Secretary Gates. It depends upon the service. The marines 
have a 7-month rotation, the Army has a 12-month rotation, and 
generally they're extended for anywhere from 2 to 4 months--
generally speaking.
    But also, in some of the changes that I've made in Guard 
and Reserve policy, we're also looking at additional incentives 
to take it--to acknowledge the sacrifice that these families 
are making, in particular--as well as the soldiers, in terms of 
those who are called up early, and those who are extended, so 
that we can give them some recognition of the extra effort and 
the extra sacrifice that we know their families are making.
    Senator Lautenberg. I would hope that that is a review that 
can take place, because the financial burden on those who 
aren't on a base, where medical care is readily available, like 
they are often in the regular service.
    Madam Secretary, we've done a lot of economic assistance--
$22 billion in economic assistance failures, contracts, some 
misconduct--I believe that the Iraqis are sitting on tens of 
billions of dollars, of atone dollars. Why should we continue 
to suggest aid, after we've had the kind of experience that we 
have had?

                      IRAQ RECONSTRUCTION FUNDING

    Secretary Rice. Senator, I think we are through with the 
kind of major reconstruction effort that the IRRF was intended 
to be--the big national-scale projects. Those are almost coming 
to an end. They have achieved some--it has been difficult 
because of the security situation and because of the state of 
the infrastructure--but the monies now for that kind of 
reconstruction really have to come from the Iraqis. They have 
put $10 billion forward for reconstruction and infrastructure. 
They also are putting forward out of that $10 billion, $2 
billion to their provinces for job growth and smaller projects.
    The monies that we are requesting are for a different kind 
of assistance. They really are a part of our counter-insurgency 
strategy of having the provincial reconstruction teams out with 
local government, with communities, to help them to do smaller 
scale work that will help with job growth and that can marry up 
with Iraqi forces in an effective way.

        STATE-DOD COOPERATION ON PROVINCIAL RECONSTRUCTION TEAMS

    Senator, if you do not mind, I just have to say, because I 
think there was a misimpression left. We have completed the 10 
PRTs that were part of the original plan. The State 
Department's requirement to fill an additional 10 PRTs is a 
requirement that we received in January, as a part of the 
President's new surge. And we will do that, but we need the 
help of the Defense Department to bridge. These monies are for 
that purpose--it's for more local, diversified efforts.
    Senator Lautenberg. Okay, I see it as, kind of, one larger 
reserve.
    General Pace, what's the recruiting situation like these 
days? I know it's fairly aggressive on our part. What's the 
response?

                             ACTIVE SERVICE

    General Pace. Sir, the active services are all over 100 
percent. The Army's about 109 percent, the Marine Corps, about 
114 percent. Retention is the same--the Army's about 109 
percent, the Marine Corps, about 214 percent of their 
objectives.
    We are light in two places. One, the Navy Reserve is coming 
in at about 88 percent, but that's based on a decision made by 
the CNO to slim down the size of the Navy Reserve, and the 
other is the Army--not sure if it's the Army National Guard or 
Army--it's Army Reserve. The Army Reserve is at about 97 
percent right now, sir, as far as recruiting. But they're 
making up for the total numbers because their retention is 
stronger than it otherwise has been.
    Senator Lautenberg. Thanks. Mr. Chairman, I would like to 
be assured that written questions will get a response and that 
the record is kept open for that. I appreciate it.
    Chairman Byrd. The Senator is so assured. Senator 
Feinstein.
    Senator Feinstein. Thank you very much. Mr. Chairman, I'm 
sorry I had to leave. The Governor of California was here, and 
I had a meeting with him, and so I'm sorry.
    Madam Secretary, I noted with great interest, your regional 
initiative. I just want to thank you for it, congratulate you. 
I think it's really on the right track, and particularly 
involving Syria and Iran. So, thank you very much.

                         GUANTANAMO FACILITIES

    Secretary Gates, if I could, I want to ask you a question 
about Guantanamo. Last December, as the ranking member of 
Milcon-VA, I was informed that the Pentagon planned to invoke 
10 U.S.C. 2808 authority to expedite the construction of a 
permanent $102 million state-of-the-art courthouse and 
supporting facilities at Guantanamo. To make a long story 
short, I questioned the use of such authority, and I was later 
informed by Secretary England that based on the sensitivity of 
the issue and the significant opposition to invoking that 
section, DOD had decided to pursue funding through regular 
budget processes.
    When the President's budget was released, I noted with 
interest that there was no request in either the 2008 or the 
2007 supplemental for further construction at Guantanamo except 
for $1.6 million in facility upgrades. My question is this--
does the Pentagon still plan to construct a large, permanent 
courthouse complex at Guantanamo?
    Secretary Gates. The reason that got changed, Senator, is 
because I said so.
    Senator Feinstein. Good.
    Secretary Gates. It seemed to me that, by the time I 
received it the request was, I think, for $92 million and I 
basically said, ``This is ridiculous.'' And to be honest--and I 
guess because the hearing's at 3\1/2\ hours I'll be more candid 
than I probably should. I said----
    Senator Feinstein. I'm all for that.
    Secretary Gates [continuing]. We'll be handed our hat if we 
go up to the Hill for $100 million for these prisons--for these 
courthouses. What we intend to do is use some temporary 
buildings like we've used in Iraq. We will begin the court 
processes. The trials are likely to begin for the non-high 
value individuals in July. We will do that in the facilities 
that we already have, or those that are covered by the $1.6 
million. We will then turn to these temporary buildings, of the 
kind we've used in Iraq, and that we can disassemble, and we're 
looking at a, I think, a total figure for the entire complex--
we're trying to provide facilities not only for the trials 
themselves, but living conditions for the press, and for the 
clerks, and for the various others associated with trials going 
on--but, we're looking at a number that is a tenth of what we 
were originally contemplating.
    Senator Feinstein. But not in this supplemental and not in 
the 2008 budget?
    Secretary Gates. No ma'am. To tell you the truth I'm not 
quite sure where the money is at this point, but I can get back 
to you on that.
    [The information follows:]

    The Department will use relocatable buildings and portable 
equipment wherever possible to minimize costs for facilities at 
Guantanamo. We expect these costs to be a fraction of earlier 
estimates. We are currently preparing planning documents and 
cost estimates for these additional facilities and will brief 
the Congress as soon as those cost estimates are complete.

    Senator Feinstein. I'd appreciate that. Thank you very 
much.
    Over the past 4 years we've been told, time and time 
again--by both the Pentagon and White House--that once enough 
Iraqi security forces were trained, U.S. troops could come 
home. At one point, the goal was to train 325,000 Iraqis.
    The latest DOD document that I have seen shows that as of 
February 20 of this year, there were 323,180 Iraqi security 
forces trained, ``trained and equipped.'' What correlation do 
you now see between the number of Iraqi security forces 
trained, and the possible drawdown of U.S. troops from Iraq?
    General Pace. Senator, I was part of that course last year, 
around last January, had you asked me the size of the force and 
when we'd be able to draw down, I would have told you last 
January that we were going to train the 328,000--which we did--
we were going to equip the 328,000 by December--which we did--
and we were going to turn over to them the responsibility, 
which we did not.
    We did not, because in February of last year the Golden 
Mosque bombing and all the sectarian violence that ensued from 
that, we realized by around June that we were not going to be 
able to come down, even though we were training up the right 
number of Iraqis for the environment that we thought we were 
going to be in. The violence got out ahead of our ability to 
control it. That led us, then, to the reevaluation and the 
recommendations for the increase in the U.S. numbers of troops, 
more importantly the increase in good governance and the 
increase in economics.
    That, then, will allow us, with 328,000 Iraqis plus the 
42,000 more that Prime Minister Maliki is budgeting in his 
budget, that will allow us, then, to have the right number of 
troops--but they're going to need our help--to get the security 
situation. But, I was part of the group that would have told 
you 1 year ago that--13 months ago--that we could have been 
down substantially by the end of December, and then the enemy 
voted the way they did.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.

                      HOW THE WAR IN IRAQ WILL END

    Chairman Byrd. Thank you, Senator Feinstein.
    Senator Gates--Secretary Gates--do we have a plan that 
explains how the war in Iraq will end in terms of the presence 
of U.S. combat forces, and in terms of our long-term 
relationship with Iraq? In other words, Mr. Secretary, what is 
the happy ending to this ill-considered war, and when will it 
occur? What are the greatest obstacles we have to overcome?
    Secretary Gates. Mr. Chairman, I think that the outcome we 
would hope for is that in the coming months we are not only 
able to reduce the overall level of violence in Baghdad, but in 
the space that is bought for the Iraqi government in that 
respect, by their own troops and with ours in support, that 
political reconciliation can go forward. And there are some 
early signs on that, as Secretary Rice mentioned earlier, on 
the hydrocarbon law and so on.
    That economic development will proceed and there are 
several initiatives associated with that, in addition to the 
provincial reconstruction teams that we've been talking about. 
And as this violence is quieted over the months, we will be 
able to begin--as we had hoped to do so last year--drawing down 
our forces with the Iraqis remaining in charge and keeping 
security in these neighborhoods.
    I believe we will need to have some kind of a military 
presence in Iraq for some prolonged period of time, but at a 
fraction of the level of forces that we have now. Partly 
because the Iraqis are going to continue to need help with the 
logistics and communications and intelligence and various other 
aspects and training. I believe that we, clearly, have no 
desire for permanent bases in Iraq. And I think the outcome of 
this, if this plan works out as we hope, will be that an Iraqi 
government that can, in fact, sustain itself and defend itself 
and be an ally of United States in the war on terror, and at 
the same time a barrier to Iranian influence in the region, 
rather than a bridge for it.
    Chairman Byrd. You say that you think we'll have a presence 
in Iraq for some time to come. Can you tell us a little more 
about that? How long?
    Secretary Gates. I think that at a very much reduced level 
we will probably have some presence in Iraq, as we have had in 
Korea, and Germany, and a variety of other places around the 
world where we've been at war, for a prolonged period of time, 
a number of years. But as I say, at a fraction of the level of 
troops that we have there now.
    I thank the witnesses. I thank the witnesses for their 
testimony. Are you tired, Secretary Rice?
    Secretary Rice. No, Senator, but I am hungry.
    Chairman Byrd. You're not tired?
    Secretary Rice. No sir, but it is dinner time for all of 
us.
    Chairman Byrd. The Committee is expecting to mark up the 
supplemental bill on March 20.

                     ADDITIONAL COMMITTEE QUESTIONS

    Do any of the witnesses have anything further? Let me thank 
the witnesses for their testimony. You have been patient. I 
know that you are tired. You have done a good job.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted to Hon. Robert M. Gates
             Questions Submitted by Chairman Robert C. Byrd

   JUSTIFICATION OF THE FISCAL YEAR 2007 SUPPLEMENTAL BUDGET REQUEST

    Question. In the past, this Committee has expressed concerns about 
the lack of detailed justification materials in support of supplemental 
budget requests. While the Department has provided much improved 
materials along with the fiscal year 2007 Supplemental budget request 
and is to be commended for its efforts, I believe there is still room 
for improvement.
    Secretary Gates, will the Department work with the Committee to 
ensure that the Committee receives all the information it requires in a 
timely manner for this and the fiscal year 2008 Budget request?
    Answer. It is my understanding that for the fiscal year 2007 
Supplemental request and the fiscal year 2008 Budget request, the 
Department submitted almost all of the required detailed justification 
during the first week of February 2007.

                    MONTHLY COST OF THE WAR IN IRAQ

    Question. The explanatory material which accompanies the fiscal 
year 2007 emergency supplemental request lists the cost of the war in 
Iraq at $8.6 billion per month, up from $7 billion per month in fiscal 
year 2006, and $5.9 billion in fiscal year 2005.
    Secretary Gates, why does the cost of the war continue to increase? 
Does the fiscal year 2008 supplemental appropriations request 
anticipate further increases to the cost of the war in Iraq? If so, how 
much do you estimate the war in Iraq will cost each month in the next 
fiscal year?
    Answer. The major drivers in the increased cost of the war are the 
cost to replace and repair equipment and the cost to train and equip 
the security forces. Military operations costs have increased some as 
force levels and pace of operations have changed in theater. The cost 
of repairing and replacing equipment continues to increase as more 
equipment is lost due to battle damage and it is no longer economically 
feasible to repair. Accelerating the training and equipping of the 
Iraqi Security Forces so that they can assume responsibility for 
providing for the security of Iraq also drives an increase in cost. In 
addition, we continue to ensure that U.S. forces have the best force 
protection equipment available. The fiscal year 2008 budget request for 
the Global War on Terror for activities supporting operations in Iraq 
is $109.7 billion--or roughly $9.1 billion per month--this includes 
costs for military operations, equipment procurement, construction, and 
training and equipping Iraq Security Forces.

                  EXPANSION OF AUTHORITIES AND FUNDING

    Question. The supplemental includes $300 million in continued 
funding for Coalition Support Funds in addition to the $900 million 
previously provided in the fiscal year 2007 Bridge supplemental. These 
funds reimburse partner nations that support our efforts in Iraq and 
Afghanistan.
    Secretary Gates, the supplemental requests for coalition support 
continue to rise. It seems we are only able to secure coalition support 
with the commitment of these funds. Since this is not the road we want 
to continue on for future conflicts, where do we see an end to this 
funding?
    Answer.
  --Coalition Support Funds are critical to the United States' success 
        in the global war on terror, helping to multiply the force and 
        save money. Without a means to reimburse Pakistan, Jordan, and 
        other key cooperating countries, U.S. forces would be required 
        to conduct these military operations, which could require 
        additional U.S. forces to be deployed. In some instances, U.S. 
        forces may not be as effective as the indigenous forces can be.
  --Many countries, including several of the newer NATO countries, have 
        an intense desire to participate in U.S. military operations 
        but do not have the economic means to finance their logistical 
        support. With Coalition Support Funds, the United States is 
        able to financially assist these countries in fighting the 
        global war on terror and at the same time reduce the numbers of 
        U.S. soldiers required for this fight.
  --Use of Coalition Support Funds to reimburse other nations for their 
        support to U.S. military operations generally saves money 
        because most countries have lower operational costs than U.S. 
        troops.
  --Finally, with the United Kingdom reducing its forces in Iraq, the 
        use of Coalition Support Funds is expected to increase to 
        reimburse replacement countries for necessary logistical 
        support previously provided by the United Kingdom. If Coalition 
        Support Funds are not available, U.S. forces may be required to 
        fill those gaps.
  --For these reasons, the Department will continue to need Coalition 
        Support Funds to support the global war on terror into the near 
        future.
    Question. The fiscal year 2007 National Defense Authorization Act 
continued a provision granting the Secretary of Defense the authority 
to train and equip partner nations in our efforts in the Global War on 
Terrorism. The authority allows the Department of Defense to use up to 
$300 million from O&M accounts for this purpose and the fiscal year 
2007 Defense Appropriations Act subjected this provision to our prior 
approval reprogramming procedures. The President requests the full $300 
million for this Global Train and Equip authority in the fiscal year 
2007 supplemental request without following prior approval 
reprogramming procedures.
    Secretary Gates, to date, the Department has only sought this 
authority for activities in Lebanon. What is the planned use for the 
full $300 million?
    Answer. The Department has not yet used any of the fiscal year 2007 
Global Train and Equip authority. Currently, the Departments of Defense 
and State are finalizing the prioritization of $300 million in projects 
for fiscal year 2007. Proposals from Combatant Commanders and U.S. 
Embassies total more than $800 million. Once the projects are approved 
by the Secretaries of Defense and State, the Department of Defense will 
notify the Congress as required by law. The Department of Defense 
expects to use the entire $300 million of authority in fiscal year 2007 
and asked the Congress to provide the necessary funding when it enacts 
the fiscal year 2007 Supplemental.
    Question. Secretary Gates, when this authority was first granted, 
the Department requested a change that took the President of the United 
States out of the required approval process. Now the Department is 
seeking to take Congress out of the approval process by avoiding the 
reprogramming requirement. Why are you attempting to circumvent 
congressional oversight on activities that could be extremely 
controversial?
    Answer. The Department does not believe it is attempting to 
circumvent congressional oversight. The Global Train and Equip 
authority requires the Department of Defense to notify Congress 15 days 
prior to initiation of any program. The notification includes the 
source of funds and is provided to the same committees as a 
reprogramming action thus ensuring Congressional oversight of all 
aspects of the program, including the funds that will be used to 
finance the train and equip programs. In the fiscal year 2007 
Supplemental, the Department is requesting dedicated funding to support 
train and equip programs to ensure resources are available exclusively 
for this program. The Department will still be required to provide 
Congress with the 15-day notification prior to initiating any program.

                              GLOBAL LIFT

    Question. The President requests $50 million for a new global lift 
and sustain authority. These funds would finance operations outside of 
Iraq and Afghanistan. The specific use of these funds is not delineated 
in the request.
    Secretary Gates, what is the planned use for this funding?
    Answer. The Department of Defense has requested $50 million in the 
GWOT Supplemental of the $100 million of global lift and sustain 
authority in fiscal year 2007 providing lift and sustainment to 
eligible coalition partners supporting combined military operations in 
Bosnia, Kosovo, the Philippines, and elsewhere. These funds will be 
expended in the fourth quarter of fiscal year 2007. The Department has 
requested $50 million because of the need to coordinate requirements 
for global lift and sustainment from the Combatant Commanders and to 
ensure proper documentation and approval of those requirements in line 
with the legislation authorizing the program. If requirements exceed 
$50 million, the Department will identify sources within the 
appropriated resources.

               IMPACT OF SUPPLEMENTALS ON THE BASE BUDGET

    Question. Secretary Gates, I have repeatedly expressed my concerns 
over the Department's continued reliance on supplemental budgets for 
the war when in fact many of the war's costs--such as costs for 
military personnel--are quite predictable and could thus be included in 
the regular defense budget. Yet the Department continues to seek 
supplemental funding for the war.
    Why is the cost of war not included in the regular defense budget?
    Answer. The cost of the war is included in the President's fiscal 
year 2008 submission to Congress. The Department of Defense's fiscal 
year 2008 Global War on Terror (GWOT) request includes $141.7 billion 
for war-related costs.
    Question. It is my understanding that the guidance given to the 
Services when assembling this supplemental request was broader than 
guidance provided for previous supplementals. Consequently, it appears 
that certain items that have previously been funded in the regular 
budget have migrated into the supplemental budget request.
    Secretary Gates, why was the guidance for the fiscal year 2007 
supplemental budget request expanded compared to previous supplemental 
requests?
    Answer. That guidance was issued before I arrived. It is my 
understanding that in his October 2006 memorandum, Deputy Secretary of 
Defense England expanded the ground rules to capture the Department's 
overall efforts related to the Global War on Terror (GWOT) and not 
strictly limited to OIF and OEF theaters of operation. This widening of 
the scope was done not to provide a new avenue for funding of base 
programs. These ground rules focused on including the Department's need 
to reconstitute forces and accelerate specific force capabilities and 
to make available necessary funds for Combatant Commanders to address 
worldwide emerging terrorist threats outside of Iraq and Afghanistan 
that are part of the broader GWOT.
    Question. What are the criteria for funding requirements in the 
supplemental request instead of the regular baseline budget?
    Answer. The general criterion that the Department uses to submit 
requirements for the global war on terror supplemental funding is that 
the requirement should only be for the incremental costs above the 
baseline funding. This means that if it were not for the global war on 
terror, these costs would not be incurred. This includes not only the 
operations costs but also replacing and maintaining equipment that has 
been lost or worn out and it is no longer economical to repair it. The 
Department also includes force protection requirements to ensure that 
U.S. Forces are protected with the best possible equipment available. 
Supplemental requests have included other unforeseen, emergency 
requirements that may not appear to be directly related to GWOT, but 
have emerged as must fund requirements. Once the Department has an 
opportunity to budget for these requirements lead-time away, it does 
(e.g., growing the Army and Marine Corps force structure).
    Question. Mr. Secretary how is the Department's continued reliance 
on supplementals affecting the strategic programming and planning 
process that informs the formulation of the regular budget?
    Answer. The Department is not continuing to rely on supplementals. 
The cost of the war is included in the President's fiscal year 2008 
submission to Congress. The Department of Defense's fiscal year 2008 
Global War on Terror (GWOT) request includes $141.7 billion for war-
related costs. The Department continues to use a strong strategic 
programming and planning process to formulate its annual budgets.

                            FORCE PROTECTION

    Question. The fiscal year 2007 supplemental request contains $8 
billion for force protection. Of the $8 billion, $1.6 billion is 
specifically for body armor.
    Secretary Gates, what body armor equipment is being bought with the 
fiscal year 2007 supplemental request? Are these replacement items, or 
are there still forces that are without the required protection level 
for all combat operations?
    Answer. The $1.6 billion requested in the fiscal year 2007 
supplemental for body armor includes $347.6 million specifically for 
body armor (``equivalent whole set'' quantities and replacement items), 
and $1,291 million for ``other protective gear.''

                               BODY ARMOR SAPI/E-SAPI EQUIVALENT SETS, QUANTITIES
----------------------------------------------------------------------------------------------------------------
                                                                                                          DOD
                                                   Army       USMC       Navy       USAF      SOCOM      Totals
----------------------------------------------------------------------------------------------------------------
Fiscal year 2004 through fiscal year 2006         825,477     63,306      5,750    137,404     28,108  1,060,045
 baseline, title IX and supplemental..........
Fiscal year 2007 baseline.....................  .........     14,000        725  .........      7,562  .........
Fiscal year 2007 title IX.....................    202,846     25,000      3,300      6 062  .........    259,495
                                               -----------------------------------------------------------------
      Totals fiscal year 2004-2007 title IX...  1,028,323    102,306      6,475    140,704     41,732  1,319,540
                                               =================================================================
Fiscal year 2007 Supplemental.................     61,220  .........     10,000     30,000  .........    101,220
                                               =================================================================
      Totals fiscal year 2004-2007............  1,089,543    102,306     16,475    170,704     41,732  1,420,760
                                               =================================================================
Requirement, whole sets.......................    966,000     75,000      7,200    177,000      4,900  1,230,100
Above (+)/Below (-) Goal......................    123,543     27,306      9,275     -6,296     36,832    190,660
----------------------------------------------------------------------------------------------------------------

    With funds appropriated through fiscal year 2007, including Title 
IX, the Department has procured 1,420,760 sets, with both Small Arms 
Protective Inserts (SAPI) and Enhanced Small Arms Protective Insets (E-
SAPI) for all Active, Reserve and National Guard forces, both deployed 
and non-deployed. The fiscal year 2007 supplemental request procures an 
additional 101,220 ``equivalent whole sets,'' all E-SAPI, and 
represents a replacement program for older and worn out sets. While 
some body armor sets are constantly being replaced with better 
components, all deployed and next-deployers units have the required 
protection level for combat operations.
    For example, in fiscal year 2007, the Army used the $1 billion from 
the fiscal year 2007 DOD Appropriations Act, Title IX funding to 
acquire 264,000 sets of E-SAPI ($875 million); 7,700 ($10 million) for 
Air Save Body Armor; and Advanced Combat Helmets ($108.2 million). The 
current fiscal year 2007 Supplemental request will allow the Army to 
complete the fiscal year 2007 fielding of the projected Improved Outer 
Tactical Vest (OTV) with quick release. This acquisition results in a 
total of 671,000 sets of E-SAPI out of an overall requirement for 
966,000 body armor sets for all Army, Army Reserve, and Army National 
Guard units. This will meet all personnel assigned to combat 
operations, including next-deployers. The combination of the Title IX 
and supplemental funding will outfit 150,000 fiscal year 2007 
deployers, 88,400 next-deployers, and 25,600 for Reset. In addition, 
the Army will acquire 156,000 Improved Outer Tactical Vest (OTV) and 
conversion kits, as well as 306,000 Advanced Combat helmets. Similarly, 
fiscal year 2007 supplemental funding will buy the Navy and Air Force 
an additional 10,000 and 30,000 body armor sets, respectively.
    In addition, $1,291 million is requested for Other Force Protection 
equipment, as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
C3I Force Protection: Army--Bio Surety and Hotline......           126.3
Other Personal Protection:
    Army--Automated Biometrics ID System................           136.9
    Army--OEF/OIF/Horn of Africa/Philippines Uniforms,             488.7
     special/fire retardant clothing....................
    Army--Rapid Fielding Initiative (boots/gloves/                  72.1
     goggles/helmets/etc.)..............................
    Marine Corps--Special/fire retardant clothing and               20.0
     other gear.........................................
    Navy--Special/fire retardant clothing and other gear            44.1
    SOCOM--Special/fire retardant clothing and other                14.0
     gear...............................................
    USAF--Special/fire retardant clothing and other gear            66.0
Other Force Protection:
    AFIS--Joint Communication/Transformation............             3.5
    Army--Individual Chemical/Biological Countermeasures             7.4
    Army--Munitions Clearance...........................           124.3
    Army--Rapid Equipping Force.........................            67.5
    Army--Asymmetrical Warfare Group....................           102.6
    Defense Wide--Defense Critical Infrastructure                    9.3
     Program (DCIP).....................................
    Defense Wide--Rewards Program.......................             3.0
    Air Force--Personnel Security.......................             5.3
                                                         ---------------
      Total.............................................         1,291.0
------------------------------------------------------------------------

                 COMMANDER'S EMERGENCY RESPONSE PROGRAM

    Question. Secretary Gates, what are lines of distinction between 
projects funded through CERP and projects funded through the Iraq 
Reconstruction and Relief Fund (IRRF)?
    Answer. The Iraq Relief and Reconstruction Fund (IRRF) is an 
appropriation that provided funding for security, relief, 
rehabilitation, and reconstruction in Iraq. The IRRF was made available 
through September 30, 2006 and has been managed by the State 
Department. It was allocated among a variety of sectors, including 
security and law enforcement, water resources, electricity, etc., with 
a focus on relatively large, longer-term reconstruction programs and 
projects.
    By contrast, the Commander's Emergency Response Program (CERP) is a 
Department of Defense program designed to enable military commanders in 
Iraq and Afghanistan to respond to urgent, humanitarian relief and 
reconstruction requirements within their areas of responsibility by 
carrying out small-scale projects that will immediately assist the 
local population. The CERP complements security operations by giving 
military commanders a flexible source of funding that can create 
immediate effects for the Iraqi people and establishes goodwill between 
the military and the local populace. Examples of CERP projects include 
area clean-up, repair of battle damaged structures, supplies for 
schools and hospitals, seed for farmers, etc.

                        NATIONAL GUARD EQUIPMENT

    Question. It has been often reported that the National Guard units 
not deployed overseas are short of critical equipment, such as trucks, 
radios, and other equipment.
    Secretary Gates, how much of the $93.4 billion in the defense 
supplemental appropriations request is intended to address National 
Guard shortages here at home? What steps are being taken to see that 
new equipment for the National Guard will be distributed to units with 
the most urgent shortages here at home?
    Answer. The Army National Guard has $1.48 billion and the Air 
National Guard has $242.1 million included in the fiscal year 2007 
Supplemental request for equipment. For the Air National Guard, $237.2 
million was submitted by Air Force as part of the aircraft procurement 
requirements; along with $4.1 million for the Guard Operations and 
Maintenance Appropriation. Aircraft procurement and equipment funding 
will not be allocated to a specific state. The procurement funding for 
the National Guard is executed by the services; procured equipment is 
then allocated to units based their wartime mission requirements with 
consideration given to the states' emergency response requirements.
    Question. The number of National Guard troops deployed to Iraq has 
decreased since the initial invasion, but the continuing deployment of 
large numbers of Guard members still has an impact on Guard readiness. 
In December, General Schoomaker told the Commission on the National 
Guard and the Reserves that the Army may have to call upon our citizen-
soldiers more often as a short-term measure until the size of the 
active duty Army can be increased.
    Secretary Gates, of the troops now serving in Iraq, what percentage 
are members of the National Guard?
    Answer. There are currently approximately 15,200 Army National 
Guardsmen or 16 percent of the total Army forces serving in Iraq and 
over 1,400 Air National Guardsmen or 12 percent of the total Air Force 
personnel currently serving in Iraq.

                       NATIONAL GUARD DEPLOYMENTS

    Question. Secretary Gates, many members of the National Guard are 
concerned that more National Guard troops are going to be deployed to 
Iraq as a result of the surge and the troop rotations scheduled for 
next year. How many members of the Guard are having their deployments 
extended as a result of the surge?
    Answer. Approximately 4,000 Army National Guard soldiers have been 
impacted by the surge with the extension of the 1/34 Brigade Combat 
Team. The Air National Guard does not expect to have current or future 
deployments extended as a result of the surge. We do expect the number 
of CENTCOM requirements and mobilizations to be increased to support 
the surge.
    Question. Secretary Gates, do you expect the number of Guardsmen 
deployed to Iraq to increase this year? What about next year? If you 
expect more members of the Guard to either stay longer in, or deploy to 
Iraq, that will cause even more strains on Guard equipment. Are we 
resetting the Guard fast enough to counter this strain on National 
Guard equipment?
    Answer. The number of Army National Guardsmen deployed to Iraq is 
currently not projected to increase this year; however, there may be an 
increase in the number of Air National Guardsmen. The Army rotation 
program requirement for fiscal years 2006-08, called for 21,000 
National Guardsmen. However, through the remainder of this fiscal year 
and through fiscal year 2009, the Army National Guardsmen deployments 
will be sustained at about 23,500 troops. The pace of reset of the 
National Guard equipment is not optimal at this point in time but the 
Department is committed to reset the National Guard as quickly as 
capability allows.

                             RIVERINE FORCE

    Question. The supplemental requests nearly $30 million in emergency 
funds for equipment for the Naval Expeditionary Combat Command, also 
known as the Riverine force. This request comes one year after Congress 
rejected funds to equip the new Riverine force using emergency funds in 
the fiscal year 2006 supplemental appropriations bill.
    Secretary Gates, knowing that Congress did not approve emergency 
funds for a similar purpose last year, why should Congress look 
differently upon this request?
    Answer. The Navy Expeditionary Combat Command (NECC) was 
established in January 2006, per CNO Guidance of 2006 to serve as the 
single functional command for the Navy's expeditionary forces and as 
central management for readiness, resources, manning, training and 
equipping of those forces. NECC consolidates, aligns, and integrates 
diverse expeditionary capabilities and combat support elements to 
create consistent expeditionary practices, procedures, and requirements 
and logistics in the joint battle space. Specifically, NECC integrates 
the following capabilities: the Naval Construction Force, Explosive 
Ordnance Disposal, Mobile Diving and Salvage, Naval Coastal Warfare, 
Navy Expeditionary Logistics Support Group, Expeditionary Combat 
Readiness Center, Expeditionary Training Command, Maritime Civil 
Affairs Group, Combat Camera, and the Riverine Force.
    For clarification, the Riverine Force (comprised of Riverine Group 
[RIVGRU] ONE; and three deployable commands; Riverine Squadrons 
[RIVRONs] ONE, TWO and THREE) is an operational component of the NECC. 
Also, the Navy included $73.942 million in the fiscal year 2007 
Supplemental Request (principally Other Procurement Navy [OPN] and a 
small amount of Procurement of Ammunition Navy and Marine Corps 
[PANMC]), vice nearly $30 million, to support initial outfitting of the 
Riverine Force.
    Congress should look differently upon this request because Navy and 
RIVGRU ONE have fully assumed the riverine mission in OIF from the 
Marine Corps. Acceleration of initial outfitting of the Riverine Force 
is necessary to sustain this OIF and Global War on Terror mission. This 
request is considered justified due to factors such as the lack of 
equipment for the Riverine Force being available from existing stocks 
(beyond what has already been provided), the long delivery timelines 
for much of the equipment required for initial outfitting of three 
deployable RIVRONs (that can exceed 10 months from contract/contract 
option award to delivery), the fact that each RIVRON is deployed/
scheduled to deploy to OIF within the next 21 months and the demand 
signal from all Geographic Combatant Commanders for a riverine 
capability in respective Areas of Responsibility.
    The Navy approved establishment of the Riverine Force in late 2005. 
Two components of that Force, RIVGRU ONE and RIVRON ONE, were 
commissioned in May 2006 and RIVRON ONE deployed in February 2007 in 
support of Operation Iraqi Freedom (OIF). RIVRON TWO has been 
commissioned, is in training and will relieve RIVRON ONE in Fall 2007. 
RIVRON THREE will be commissioned Spring 2007 and will relieve RIVRON 
TWO in Spring 2008.
    In fiscal year 2006 the Navy reprogrammed procurement resources, 
within established thresholds, to partially fund initial outfitting of 
the Riverine Force. In fiscal year 2007 the Navy used funding from a 
modestly resourced Riverine Force program of record and additional 
funds from reprogramming to continue initial outfitting. The Navy has 
also programmed funding in fiscal year 2008 and planned funding in 
future years for this purpose; the goal being for the Riverine Force to 
achieve Full Operational Capability by fiscal year 2010. These measures 
will provide approximately two-thirds of the procurement funding 
required for initial outfitting. Approximately one-third of the funding 
required for initial outfitting constitutes the request in the fiscal 
year 2007 Supplemental.
    Specifically, the $73.942 million of the requested fiscal year 2007 
Supplemental will be used to buy deployable CBR equipment, boats, 
communications gear, Civil Engineering Support Equipment (CESE) and 
material handling equipment (MHE) which will be used by RIVRON TWO 
(slated to deploy later this year), up-armored HMMWVs, tactical 
vehicles, body armor, and training for RIVRON TWO and THREE, as well as 
other requirements for RIVGRU. Without these funds deploying Sailors 
may not have the highest levels of individual protective equipment, nor 
will their vehicles have the best force protection capabilities that 
currently exist. Additionally, training will be drastically curtailed. 
This will impact the deployability of Riverine Squadron THREE.

                    ARMED RECONNAISSANCE HELICOPTERS

    Question. The supplemental request includes $38 million for two 
Armed Reconnaissance Helicopters. This is a new type of helicopter, 
which will not be fielded until 2009.
    Secretary Gates, why is there an emergency need for a new type of 
helicopter that will not be available to our troops for nearly two 
years? Considering the Army has also requested 37 Armed Reconnaissance 
Helicopters in its fiscal year 2008 base budget request, what would be 
the effect on our troops if the request for emergency funds for these 
two helicopters were to be delayed?
    Answer. The replacement of OH-58D with ARH that this request 
provides is a key part of the Army Aviation Transformation and 
Modernization stemming from the termination of Comanche and the 
reinvestment of those dollars into the fleet. Since 9/11, the Army has 
had 30 OH-58D operational losses. As the Army no longer procures the 
OH-58D aircraft, the ARH is a one-for-one replacement for the OH-58D. 
With the continuing OH-58D operational losses, increased operational 
tempo and age of the fleet, it is becoming more challenging to meet our 
requirements. There is a 24- to 36-month lead time from aircraft combat 
loss to the receipt of the ARH aircraft to the Army. This supplemental 
will ensure that the Army losses are filled by buying forward the ARH 
requirement to meet our operational requirements.

                        RECRUITING AND RETENTION

    Question. The supplemental request includes $1.7 billion for 
retention and recruiting, which is a 30 percent increase over fiscal 
year 2006. In recent years, the services have struggled to reach their 
recruiting goals. Last year, all of the active components achieved 
their goals but the National Guard and Reserves still fell slightly 
short.
    Secretary Gates, will the $1.7 billion provide sufficient resources 
for the services to reach their fiscal year 2007 recruiting and 
retention goals?
    Answer. The recruiting and retention funding in the fiscal year 
2007 supplemental request for the military personnel accounts is now 
$1.8 billion rather than $1.7 billion, as mentioned in the briefing. An 
additional $0.3 billion is also included in the fiscal year 2007 
supplemental request for the Operation and Maintenance accounts to 
support recruiting and retention. The $2.1 billion will enable the 
Services to achieve their recruiting and retention goals.
    Question. Secretary Gates, the Army Reserve experienced the largest 
recruiting shortfall last year at 4.5 percent below targeted recruiting 
levels, yet the supplemental request cuts funding for Army Reserve 
recruiting and retention by $9 million, or by nearly 5 percent. Why was 
funding cut when Army Reserve recruiting results are still short of 
desired levels?
    Answer. The Army Reserve's budget for manning supports both 
recruiting and retention missions. The $9 million referenced in the 
question reflects the 1,733 reduction in the Army Reserve's retention 
mission.
    Question. Although the Department recently announced plans to 
increase Army and Marine Corps permanent end strengths, the increase 
will be gradually achieved over several years. Currently, the National 
Guard and Reserves are shouldering a great deal of the Global War on 
Terror burden and, with the new ``surge'' effort, significant troop 
deployments will continue.
    Secretary Gates, how do you see this heavy burden affecting 
recruiting and retention of the National Guard and Reserves in the 
coming year? Do you have a feel for how an effort such as the ``surge'' 
has on the retention of our troops?
    Answer. Though it is difficult to predict the impact of a specific 
action on retention, I believe that our continued prudent and judicious 
use of Reserve component members during this ``surge'' will help toward 
sustaining reenlistment and attrition trends established over the past 
several years. Last year, reenlistment goal achievement increased for 
the fourth straight year, attaining the second highest level since 
fiscal year 1990. Similarly, Reserve component attrition rates, the 
best metric for measuring Reserve retention, continued its positive 
trend, decreasing to a loss rate of 18.4 percent, the lowest since 
fiscal year 1991. These data, coupled with survey results, tell us that 
those Reserve component members, who receive proper notification, 
treatment, and consideration of family and employer issues, will serve 
and remain. But we also know that overuse will have a negative impact, 
making it critical that we continue to employ our prudent and judicious 
use tenets throughout this ``surge'' effort.
                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein

                               GUANTANAMO

    Question. When the President's Budget was recently released, I 
noted with interest that there was no request in either the fiscal year 
2008 Budget or the fiscal year 2007 Supplemental for further 
construction at Guantanamo, except for $1.6 million in facility 
upgrades.
    Does the Pentagon still plan to construct a large, permanent 
courthouse complex at Guantanamo?
    Answer. We will use the $1.6 million in the fiscal year 2007 
Supplemental to upgrade the existing courtroom.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. What changes to recruitment standards has the military 
made since the beginning of the war in Iraq (March 2003)?
    Answer. The military has made no changes to our recruitment quality 
standards since March 2003. The quality of new active duty recruits 
remains high--well above the average of the youth population. For 
instance, in 2006, DOD-wide, 91 percent of new recruits were high 
school diploma graduates (against the goal of 90 percent). This 
compares favorably to the national average in which only about 80 
percent graduate from high school. On the Armed Forces Qualification 
Test, 69 percent are drawn from the top half of America's youth (versus 
a desired minimum of 60 percent).
    Question. Do you think that we should double or triple combat pay 
for our troops serving in Iraq and Afghanistan?
    Answer. We do not believe an increase in the current rate is 
warranted at this time. All military members serving in Iraq and 
Afghanistan receive a total additional $430 per month: $225 in Hostile 
Fire/Imminent Danger Pay; $100 in Hardship Duty Pay; and $105 for 
incidental expenses. Members who have dependents receive $250 per month 
in Family Separation Allowance. Additionally, all members in Iraq and 
Afghanistan are entitled to Combat Zone Tax Exclusion.
    Question. Why are funds being requested in the fiscal year 2007 
Supplemental for items like the Joint Strike Fighter, which will not 
help us either in Iraq or Afghanistan?
    Answer. Our original fiscal year 2007 Supplemental request included 
the F-35 Joint Strike Fighter because combat losses of our aircraft 
must be replaced, and the best use of taxpayers' dollars is not to 
spend them on legacy aircraft, but rather to invest in the latest 
capability--such as the F-35.

                          IRAQ AND AFGHANISTAN

    Question. Why was the RIO contract repeatedly given to Halliburton/
KBR, against the advice of auditors, and despite that companies track 
record of unsupported charges?
    Answer. The mission to execute the Contingency Support Plan was 
assigned by the Department of Defense to Army on January 18, 2003. Army 
assigned the Contingency Support Plan mission to the Corps of Engineers 
on February 13, 2003. At the time, the mission was still classified and 
it appeared that the services would be needed quite soon. The Corps of 
Engineers was ordered to begin executing the Contingency Support Plan 
on March 17, 2003, just 32 days after being assigned the mission.
    Under the circumstances, which were fully explained in the written 
justification requesting authority to award a sole source contract, 
Kellogg, Brown and Root Services (KBRS), the developer of the 
Contingency Support Plan, was the only contractor who could have 
provided the required services within the required time frame. This 
justification was reviewed and approved by the Assistant Secretary of 
the Army for Acquisition, Logistics, and Technology on February 28, 
2003. The sole source contract was awarded on March 8, 2003 and pre-
positioning of equipment and personnel began on that same date.
    Before awarding the sole source contract, the contracting officer 
followed normal procedures and checked with the Logistics Civil 
Augmentation Program (LOGCAP) contracting officer and the Defense 
Contract Management Agency (DCMA). Neither provided any negative 
information concerning KBRS. There was no information available to the 
contracting officer indicating any problems with unsupported costs on 
the LOGCAP contract or any other KBRS government contract. Similarly, 
there was no advice from auditors indicating that the contract should 
not be awarded to KBRS.
    The Government Accountability Office (GAO) reviewed the award of 
the sole source contract. In Report No. 04-0605, it found, ``. . . the 
Army Corps of Engineers properly awarded a sole-source contract for 
rebuilding Iraq's oil infrastructure to the only contractor that was 
determined to be in a position to provide the services within the 
required time frame. The Corps documented the rationale in a written 
justification, which was approved by the appropriate official.''
    The Special Inspector General for Iraq Reconstruction (SIGIR) also 
reviewed the award of the sole source contract and found it to be 
proper.
    In addition to the initial sole source contract, KBRS also was 
awarded one of the two fully competitive contracts which replaced the 
sole source contract. Prior to awarding the competitive contract to 
KBRS, the procurement action was reviewed by a Source Selection 
Evaluation Board whose recommendations were ultimately adopted by the 
Source Selection Authority. The Board included representatives from 
both DCMA and the Defense Contract Audit Agency (DCAA), who reviewed 
available audit reports and checked with personnel from their agencies 
and others as part of the evaluation process. On November 12, 2003 the 
DCMA Corporate Administrative Contracting Officer advised the Board 
that KBR's accounting system was considered adequate for the 
accumulation and reporting of costs under government flexibly priced 
contracts. The board concluded that, ``the risk associated with the 
adequacy of the accounting system for KBE is no risk to minimal.'' The 
Source Selection Evaluation Board, which included members from DCMA and 
DCAA, recommended KBRS receive one of the contracts. The Source 
Selection Advisory Counsel concurred with the Source Selection 
Evaluation Board. The Source Selection Authority made his decision and 
his decision document was signed and forwarded for a final sufficiency 
review on January 13, 2004.
    The Corps of Engineers was not familiar with all audit reports 
which may have been generated on KBRS dealing with contracts other than 
RIO, particularly those which may have been completed after the Source 
Selection Evaluation Board made its recommendations. The only audit 
report on the RIO sole source contract available to the Corps of 
Engineers which had not been available to the Source Selection 
Evaluation Board when the award of the competitive contracts were made, 
was a draft audit report issued by DCAA in December of 2003. That audit 
report included $62 million in questioned costs based on the difference 
between the cost of delivering fuel to Iraq from Turkey and Kuwait. For 
a variety of reasons, this comparison was questionable and DCAA chose 
not use this comparison in its final audit report. The Source Selection 
Authority did review the audit report but did not change his decision. 
He signed a final decision document, with minor revisions on January 
16, 2004. The contracting officer had not yet completed his 
responsibility determination and did carefully consider this audit 
report before making a positive responsibility determination. He noted 
that the estimating system remained approved by DCMA.
    In reference to the question on unsupported costs. Audits generally 
are an iterative process. An auditor determines if the costs are 
adequately supported by the documentation available at the time and 
raises questions about certain transactions. The contractor normally 
provides supporting documentation for unsupported costs or drops them 
from the proposal. The contractor also normally provides additional 
information about the questioned transactions, which may or may not 
resolve the questions. When the audit has been finalized, it is given 
to the contracting officer, who is responsible for resolving any 
remaining questioned costs with the assistance of appropriate technical 
staff and DCAA.
    There were no significant unsupported costs on the RIO sole source 
contract at the time the award of the competitive contracts were made. 
In subsequent audit reports, there were significant unsupported costs. 
However, the contractor either provided the necessary support or 
deleted them from his proposal. By the time the final versions of the 
audit reports were prepared, there were no significant unsupported 
costs. No payments were made to reimburse the contractor for costs 
which were not supported.
    Question. Why was the Army Corps given the responsibility for being 
the Army's delegated contracting authority in Iraq? Had the Corps ever 
previously held such responsibilities?
    Answer. The Army Corps of Engineers was not given responsibility 
for being Army's delegated contracting authority in Iraq. The Army 
office responsible for Iraq Reconstruction Contracting is the office of 
the Assistant Secretary of the Army for Acquisition, Logistics, and 
Technology. The Corps of Engineers provided construction management 
support to the Army reconstruction effort until October 2006 at which 
time the Corps of Engineers assumed responsibility for both 
construction and program management of Army reconstruction projects in 
Iraq.
    Question. Could you describe the new guidelines being formulated 
regarding religious exercise in the military? What grievance procedure 
can they use so that they will not have fear of penalty or retaliatory 
harm to their careers?
    Answer. The guidelines provided by the National Defense 
Authorization Act for Fiscal Year 2007 and current law are clear and 
sufficient guidance. The Services provide both formal and informal 
Military Equal Opportunity grievance procedures for Service members who 
believe that their rights (to include their religious exercise rights) 
have been violated. Those procedures are designed to guarantee Service 
members freedom from penalty or retaliatory harm.
                                 ______
                                 
                Question Submitted by Senator Ben Nelson

    Question. $28.5 million of the NE Guard's shortfall is equipment 
Nebraska units deployed in the Global War on Terrorism were directed to 
leave behind when returning home. The type of equipment includes such 
items as night vision goggles, trucks, trailers, tool sets, camouflage 
netting, and radios. As you know, this equipment serves a dual use 
because the Guard is a shared resource having State and Federal 
missions.
    How much funding is in the supplemental for National Guard 
equipment in fiscal year 2007? How will this funding allocated to the 
states?
    Answer. The Army National Guard has $1.48 billion and the Air 
National Guard has $242.1 million included in the fiscal year 2007 
Supplemental request for equipment. For the Air National Guard, $237.2 
million was submitted by Air Force as part of the aircraft procurement 
requirements; along with $4.1 million for the Guard Operations and 
Maintenance Appropriation. Aircraft procurement and equipment funding 
will not be allocated to a specific state. The procurement funding for 
the National Guard is executed by the services; procured equipment is 
then allocated to units based on their wartime mission requirements 
with consideration given to the states' emergency response 
requirements.
                                 ______
                                 
            Question Submitted by Representative Ken Calvert

                        GUANTANAMO POWER SUPPLY

    Question. The Navy has requested $34 million in emergency funds for 
new generators and associated military construction at Guantanamo Bay.
    Secretary Gates, are these generators intended to anticipate future 
construction at Guantanamo, such as new courthouses for trials of 
detainees or other new detention facilities? How much of the increase 
in power demand at Guantanamo is a result of the construction of 
detention facilities since 2002?
    Answer. No. The need for new generators and the associated Power 
Plant MILCON aboard Naval Base Guantanamo Bay, Cuba are not due to any 
anticipated future requirements. They are required to provide reliable, 
efficient electrical generation for the current load that GTMO is 
experiencing due its mission of supporting the Navy's, the Coast 
Guard's, and the Joint Task Force's various counter drug, migrant, and 
contingency operations. While the current project is not designed to 
provide power for the additional load that any future construction may 
carry, it will possess the capability to expand to meet an increase in 
demand.
    Exact data on the electrical demand the current detainee operations 
places on the existing GTMO system are not available, however in 
February 2001 the average daily load was 10MW. In February 2007 the 
average daily load was 14MW. Additionally, the base has average 
summertime requirements of 17MW with peak requirements over 20MW. This 
load exceeds the upper limit of the existing switchgear's capacity, 
resulting in frequent breaker trips and power outages. In order to be 
able to provide a reliable source of electricity to meet the existing 
power requirement, a new power plant and switchgear is needed.

                            COMMITTEE RECESS

    Chairman Byrd. So, if you don't mind, General Pace, we're 
going to say here, Secretary Rice, that the committee stands in 
recess.
    Thank you, Secretary Gates. Thank you and good night. Good 
evening, I should say.
    [Whereupon, at 6:08 p.m., Tuesday, February 27, the hearing 
was concluded, and the committee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
